<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                               _________

    SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND 
                            RELATED AGENCIES

                       TOM COLE, Oklahoma, Chairman

  MICHAEL K. SIMPSON, Idaho                ROSA L. DeLAURO, Connecticut
  STEVE WOMACK, Arkansas                   LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee        BARBARA LEE, California
  ANDY HARRIS, Maryland                    MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                     KATHERINE CLARK, Massachusetts
  JAIME HERRERA BEUTLER, Washington
  JOHN R. MOOLENAAR, Michigan

  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the full committee,
 and Mrs. Lowey, as ranking minority member of the full committee, are authorized
                    to sit as members of all subcommittees.

                        Susan Ross, Jennifer Cama,
              Justin Gibbons, Kathryn Salmon, and Lori Bias
                            Subcommittee Staff

                                ________

                                  PART 6

                                                                      Page
                                                                      
                                                                      
  Oversight Hearing--Federal Response to the Opioid Crises ........       1                                                     
                                       
  Oversight Hearing--Advance in Biomedical Research ...............      75
                             
  Department of Education..........................................     281
                                   
  Department of Labor..............................................     395
                                                               

                                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   

                                 ______

          Printed for the use of the Committee on Appropriations

                                 ______

                     U.S. GOVERNMENT PUBLSHING OFFICE

  27-226                   WASHINGTON: 2017

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\           NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama           MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                    PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho             JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas           ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                 DAVID E. PRICE, North Carolina
  KEN CALVERT, California               LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                    SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida            BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania         BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                   TIM RYAN, Ohio
  KEVIN YODER, Kansas                   C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska            HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida             CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee     MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington     DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                  MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California          GRACE MENG, New York
  ANDY HARRIS, Maryland                 MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                  KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

  
                    Nancy Fox, Clerk and Staff Director

                                   (ii)


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2018

                              ----------                              

                                          Wednesday, April 5, 2017.

     OVERSIGHT HEARING--FEDERAL RESPONSE TO THE OPIOID ABUSE CRISIS

                               WITNESSES

BARBARA CIMAGLIO, DEPUTY COMMISSIONER, VERMONT DEPARTMENT OF HEALTH
BILL GUY, ADVOCATE, PARENTS HELPING PARENTS
NANCY HALE, PRESIDENT AND CEO, OPERATION UNITE
ROSALIE LICCARDO PACULA, SENIOR ECONOMIST AND CO-DIRECTOR, DRUG POLICY 
    RESEARCH CENTER, RAND CORPORATION
    Mr. Cole. Good morning. It is my pleasure to welcome our 
witnesses today to the Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies to 
discuss the Federal response to the opioid abuse crisis. I want 
to thank all of our witnesses for coming and I look forward to 
hearing your testimony.
    Today, we are here to learn about the Federal response to 
address opioid abuse. As we have all heard reported in the 
media, the growth of this epidemic is staggering. Data released 
by the Centers for Disease Control and Prevention for 2015 show 
a continued increase in the number of overdose deaths involving 
an opioid. On average, 91 Americans are lost each day due to an 
opioid-related overdose. That is one person every 16 minutes. 
And that literally means in the course of this hearing we will 
lose probably eight people.
    In response to this growing epidemic, Congress has 
dramatically increased investments in this area. In the 114th 
Congress, as part of the 21st Century Cures Act, we established 
a grant program to supplement the State response to the opioid 
abuse crisis. We appropriated $500,000,000 in the State 
response grants as part of the current year's continuing 
resolution in order to expedite the aid to the hardest hit 
States and communities. The proposed budget from the 
administration continues these activities for fiscal year 2008.
    In addition, with leadership from our colleagues in the 
Senate, we passed the Comprehensive Addiction and Recovery Act, 
which included numerous initiatives aimed at reducing overdose 
deaths, expanding access to treatment, and supporting people 
through their recovery. Congress, understanding the urgency for 
resources, supported these programs by including them in the 
continuing resolution.
    As we finalize this year's appropriations and begin to work 
on the next fiscal year, we continue to look at programs that 
provide education to young adults, parents, and medical 
providers on prevention strategies, access to medication-
assisted treatment, and training for first responders to 
prevent overdose-related deaths.
    Today we look forward from hearing from our witnesses about 
the strategies we can most effectively help those who are 
addicted, their families, and their communities. The issue of 
opioid addiction is multifaceted and Federal efforts must be 
strategically coordinated with the States, cities, and 
community organizations for a comprehensive, holistic response. 
We hope to learn more about how we can best target our Federal 
investments in this area to ensure we are making a maximum 
impact.
    Today I am pleased to welcome the following witnesses. 
Rosalie Pacula? I hope I got it right. We Okies don't always 
get these names very good. So Bill will help me through it, I 
am sure. As the senior economist at the RAND Corporation, she 
serves as co-director of RAND's Drug Policy Research Center. 
She has been actively engaged in evaluating the impact of 
recent policies to expand treatment for opioid use in the 
United States. Her work on prescription drugs has specifically 
covered misuse in a variety of populations, including the 
elderly, the disabled, and the poor.
    Bill Guy, who is in full disclosure one of my constituents, 
comes to us from Norman, Oklahoma. Bill works with Parents 
Helping Parents, an addiction prevention advocacy group. Bill 
and his wife Rita are the parents of three grown children and 
have eight grown grandchildren. Bill works for the Oklahoma 
Education Association. He will be sharing his story of how 
addiction has impacted his family.
    Barbara Cimaglio is a nationally recognized leader in the 
field of alcohol and drug abuse prevention, treatment, and 
recovery. Her career spans almost over 40 years of service at 
the State and local level. She is currently the deputy 
commission for the Vermont Department of Health, overseeing 
substance abuse, prevention, treatment, and recovery services, 
along with various public health programs. She is also on the 
board of the National Association of State Alcohol and Drug 
Abuse Directors.
    Nancy Hale worked for 34 years as a teacher, career 
counselor, and administrative coordinator. She retired from 
public education in 2012 and joined Operation UNITE, where she 
currently serves as president and CEO. Congressman Hal Rogers, 
our good friend and colleague, started Operation UNITE in 2003. 
And just parenthetically, as everybody on this committee knows, 
the reason why we have been as bipartisan and focused on this 
issue as we have been is because of Chairman Rogers' leadership 
here for many, many years. He has really made an extraordinary 
difference for all Americans in this effort.
    Operation UNITE, again, works to rid communities of illegal 
drug use through undercover narcotics investigations, 
coordinating treatment for substances abusers, providing 
support to families and friends of substance abusers and 
educating the public about the dangers of using drugs.
    I want to add, I was looking at your biography and I don't 
know anybody who has ever won volunteer of the year for 4 years 
at the State level. So thank you for your personal commitment.
    And before I close out, I want to point out my good friend 
Phil English is here somewhere, our former colleague. Right 
over here. I know he is involved in some efforts in this area 
as well. So we are delighted to have him here as well.
    As a reminder to the subcommittee members and our 
witnesses, we will abide by the 5-minute rule so that everyone 
will have a chance to present their testimony and ask 
questions. I look forward to hearing from our witnesses.
    I would like to now yield to my good friend, the ranking 
member, the gentlelady from Connecticut, for any opening 
remarks she would care to make.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing. I would like to welcome our witnesses 
this morning.
    I think if it is Italian it could even be Cimaglio, so 
there you go.
    So in any case, I know so many of you have traveled so far 
to be with us today and we are so grateful to have you with us 
for what is a very, very important hearing, and especially 
thankful, thankful, not only that you are here, but thankful 
for the work that you do every day in our communities to help 
families who are living with addiction.
    Over the past year and a half I have heard a lot from 
community members from my community, experts across the State 
of Connecticut about the local impacts of the nationwide opioid 
epidemic. I have done a lot of events like forums at community 
health centers, townhalls, a productive meeting with the former 
Office of National Drug Policy Director Michael Botticelli. All 
of these folks came in and out of the city of New Haven and 
Hartford to talk us through this issue.
    It was clear then and it is clear now that we have an 
epidemic, an opioid epidemic that requires a response from all 
levels of government. It has been sounding alarms for far too 
long. According to CDC, Centers for Disease Control and 
Prevention, about 90 Americans die every day from an opioid 
overdose, more than twice the rate in 2013. In 2015 more than 
33,000 Americans died from an opioid or heroin overdose, more 
than the number of people who died in car accidents.
    And sadly, opioid deaths are likely undercounted. In 
Connecticut, our State's medical examiner's office reported 
that 917 people died from overdoses in 2016. That was a 25 
percent increase over 2015. The largest increase involved the 
synthetic opioid Fentanyl.
    The Federal Government has a critical role to play in 
supporting State and local communities as they work to combat 
the tragic consequences of addiction. In 2016, this 
subcommittee included several important funding increases to 
address the opioid crisis on a bipartisan basis. I was proud of 
our work to increase funding for the Substance Abuse Prevention 
and Treatment Block Grant by $38,000,000, increased targeted 
prevention and treatment program funding by $35,000,000, and 
increase of the CDC's prescription drug overdose program by 
$50,000,000.
    We need to build on these investments in the 2017 budget, 
which we soon hope that we will have completed and moved 
forward on, and we need to do the same in 2018, because in fact 
what this is all about, what these issues are about today are 
life and death. And lives are on the line. This is not parks, 
roads, bridges, or other areas which we take up at the Federal 
level.
    And the administration has proposed to maintain the 21st 
Century Cures Act funding for opioid abuse. Quite honestly, it 
is not specifically clear what they will propose for the 
remaining programs across Health and Human Services. There is a 
skinny budget that is out and for me the writing is on the wall 
in that regard. And I look at it and I see some reckless cuts. 
I hope that is not going to be the case in this area.
    The administration's budget proposes really slashing the 
nondefense spending by $54,000,000,000, and that would include 
$15,000,000,000 from Health and Human Services, the 
subcommittee that you are appearing before today.
    So we are in the middle of this crisis, which you can all 
identify, people are dying, and we have to make a determination 
of where our priorities are. And instead of starving those 
priorities, we need to deal with funding public health 
emergencies robustly. We have an obligation to react to this 
crisis with the urgency that it deserves.
    Which is why, and the chairman knows this, I introduced 
something called Public Health Emergency Preparedness Act. It 
would provide $5,000,000,000 to the Public Health Emergency 
Fund, which the Department of Health and Human Services could 
use to combat opioid epidemics.
    We have a natural disaster emergency fund, which is between 
$8,000,000,000 and $10,000,000,000. I think health emergencies 
are equally important as natural disasters are. We should be 
able to react to public health emergencies like they are 
disasters, because for the millions of affected families they 
are.
    I have also urged the Food and Drug Administration to 
reclassify naloxone from a prescription to an over-the-counter 
medication so that more have access to this lifesaving drug.
    And above all, the issue that I hear the most about--and, 
Mr. Guy, you were very poignant on this issue--we need to 
increase access to immediate treatment. Delays to treatment put 
lives at risk. And the biggest issue is ensuring that people 
can quickly get the treatment that they need, not wait a week, 
3 weeks, a month, because we know that that often leads to a 
very, very bad outcome.
    We need to reduce the stigma surrounding substance abuse. 
We need to acknowledge substance abuse for what it is, a 
disease, a brain disease.
    When individuals get out of treatment and they want their 
lives back on track, they run into countless obstacles. They 
have a hard time accessing jobs, they have a hard time 
accessing housing. And with the work requirements that are 
being thought about to be imposed on Medicaid or elsewhere, we 
create oftentimes an impossible situation for recovered members 
of our communities.
    Let me also highlight the importance of the Affordable Care 
Act's Medicaid expansion. In many places, Medicaid is the most 
significant source of coverage and funding for substance use 
prevention and treatment. Many States with the highest opioid 
overdose death rates have used Medicaid to expand access to 
medication-assisted treatment.
    And I will just make a point of noting that that is 
something that the American Association for Opioid Dependency 
has said, that NIDA, N-I-D-A, has firmly established that 
Medicaid-assisted treatment increases patient retention, 
decreases drug use, infectious disease transmission, and 
criminal activity.
    So we have good scientific data which tells us what we need 
to do, and the fact is that Medicaid has been used to expand 
that kind of access. In West Virginia, Kentucky, Pennsylvania, 
Ohio, Medicaid pays for 35 to 50 percent of all medication-
assisted treatment. In some of those States, the uninsured rate 
would triple if the ACA were repealed.
    If the Republican healthcare bill had passed, 14 million 
low-income Americans would have lost Medicaid coverage and 
their access to treatment along with it. That is 
unconscionable, in my view, and the repeal of the essential 
benefits package would have stripped millions of their access 
to substance abuse treatment as well.
    Lastly, I would highlight the importance of passing a full-
year Labor-HHS bill later this month. There is bipartisan 
support for addressing the opioid crisis. That is real. And we 
need to pass a full-year bill to show our strong support for 
these lifesaving programs by not just level funding these 
priorities, but by enhancing their funding. We cannot afford to 
wait to act when addiction affects the lives of so many of our 
neighbors and our families, our brothers, our sisters, and our 
community members.
    I want to thank you all for being here today, not, as I 
said, for just testifying before us, but for what you have 
committed your professional lives to, to help to deal with this 
crisis every single day. I look forward, and I know we look 
forward to your testimony today.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    I want to next go to the gentlelady, the ranking member of 
the full committee. As the ranking member of the full 
committee, she is a member of all 12 subcommittees. But she 
comes so frequently to our committee, I know we are her 
favorite subcommittee.
    So with that, my friend is recognized.
    Mrs. Lowey. Should I say I love all of my family equally?
    Well, first of all, I want to thank Chairman Cole and 
Ranking Member DeLauro for holding this very important hearing, 
and to our distinguished panel for joining us and for your 
important work that you have done on this absolutely critical 
issue.
    In 2015, opioids, including prescription drugs and illegal 
drugs such as heroin, killed more than 33,000 Americans, just 
surpassing death by firearms. In my home State of New York more 
than 800 people lost their lives, the highest death toll due to 
opioids in our history. Sadly, as we await the 2016 data, the 
record could once again be broken.
    The opioid epidemic knows no gender, racial, or 
socioeconomic lines. It is wide ranging. It is everywhere. This 
epidemic is destroying lives, breaking apart families, and 
wreaking havoc on communities big and small throughout our 
country.
    Last year, Congress came together to pass the Comprehensive 
Addiction and Recovery Act, as well as the 21st Century Cures 
Act, providing $1,000,000,000 over the next 2 years to support 
State efforts to address opioid abuse.
    I do want to share Chairman Cole's praise for my colleague 
Chairman Rogers, who couldn't be here today, because he has 
really taken the lead on this issue.
    As the Federal Government continues to combat this epidemic 
a few things are certain. We do not have a single day to waste 
with 91 Americans dying each day from an opioid overdose. Our 
response must rely on the best evidence of what will work, 
knowing that there may not be a silver bullet, and any person 
seeking help for substance abuse or mental health should never 
be told that help is not available. There are wait lists that 
delays treatment or--and I emphasize this point--that substance 
abuse or mental health treatment would not be covered by 
insurance.
    I want to repeat that again. No one in this country should 
be told that mental health treatment or substance abuse, and 
they are very often interrelated, never should anyone be told 
that insurance will not cover their treatment, putting 
treatment out of the reach of millions of Americans.
    Today, I look forward to hearing from our experts, those 
who chose to work in this field and those like Bill Guy who are 
called to this work after losing a loved one to the horrors of 
addiction. Thank you so very much for testifying and for 
sharing your stories with us.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    We will now go, Ms. Hale, to you for any opening statement 
that you would care to make.
    Ms. Hale. Good morning. Thank you for giving me this 
opportunity to speak with you today. I am Nancy Hale, president 
and CEO of Operation UNITE. UNITE stands for Unlawful Narcotics 
Investigations, Treatment and Education. UNITE was launched in 
2003 by Congressman Hal Rogers shortly after a special report, 
``Prescription for Pain,'' exposed the addiction and corruption 
in southern and eastern Kentucky.
    Many of us were shocked to learn that per capita we were 
the top painkiller users in the entire world. Congressman 
Rogers and other local leaders feared that if we did not take 
swift and decisive action an entire generation would be wiped 
out. We held community meetings to find out the scope of the 
problem and what should be done. Teachers, preachers, parents, 
judges, police officers, everyone we spoke to had stories, 
personal stories, and they were ready for action.
    Operation UNITE then pioneered a holistic approach that has 
become a model for other States and the Nation. Let me start 
with the first pillar, investigations and enforcement.
    Over the last 14 years UNITE detectives have removed more 
than $12.3 million worth of drugs from the streets, arrested 
more than 4,400 bad actors, achieved a conviction rate of more 
than 97 percent, and processed nearly 22,000 calls to our drug 
tip line. But we have long recognized that we cannot arrest our 
way out of this unique epidemic. That is why treatment is our 
second pillar.
    Long-term recovery transforms substance users into healthy 
and productive members of their families and communities. We 
staff a treatment help line to connect people to resources and 
we have supplied vouchers to help more than 4,000 low-income 
people enter long-term rehabilitation. In addition, UNITE's 
assistance has helped increase the number of drug court 
programs in the region from five to one in all 32 counties we 
serve.
    The final pillar is education and prevention. To make 
progress we must not only cut off the supply, but decrease the 
demand as well. Our education programs introduce youth and 
adults to a life without drugs. We have reached more than 
100,000 students thus far.
    Federal funding has been critical, from ARC grants helping 
us to educate prescribers to SAMHSA's assistance in providing 
treatment vouchers. Through AmeriCorps we provide math 
tutoring, teach antidrug and wellness curricula, and sponsor 
antidrug UNITE clubs. And the results are dramatic. Students 
have shown an average 30 percent growth in math knowledge and a 
35 percent growth in drug awareness and healthy decisionmaking.
    I am pleased that the Federal CARA legislation enacted by 
this Congress last year will enable regional organizations like 
UNITE to take advantage of these new Federal funds focused on 
addressing the opioid epidemic, and I am grateful to each of 
you who supported that bill.
    Congress' collaboration on CARA must be replicated 
elsewhere. In the antidrug world we have to collaborate with 
stakeholders across a variety of professions, institutions, 
schools, and faith-based organizations.
    When it became unfortunately clear that the challenges we 
had been experiencing in rural Kentucky had exploded across the 
country, we worked to share UNITE's holistic approach through 
the establishment of the National Prescription Drug Abuse and 
Heroin Summit, now the largest gathering of medical 
professionals, advocates, law enforcement, and policymakers in 
the United States. Our next summit, by the way, is April 17th 
through 20th in Atlanta. Many of your colleagues have attended 
in the past and I hope to see you there.
    Now I would like to touch on a few of the lessons we have 
learned over the last 14 years that may benefit similar 
organizations in your home district.
    The first is that you must bring all stakeholders to the 
table at the beginning. For example, we did not engage the 
medical community early enough. It was not until a local 
physician was tragically murdered for refusing to give a 
patient pain medication that we all rallied together at the 
same table.
    Second, UNITE could have done a better job working with 
families in the beginning, helping them understand that 
addiction is a chronic disease and teaching them how to support 
their loved ones.
    Third, you must have a champion to lead, to motivate, to 
encourage, and to fight alongside you, and for us that champion 
is Congressman Rogers.
    Another lesson is that you cannot expect short-term 
treatment to yield long-term results. Models of recovery should 
be based on long-term goals.
    The final and most important takeaway is that education and 
prevention are the tools to achieve those long-term results. 
The longer I am involved in fighting this epidemic, the more I 
am convinced that education, particularly K through 12 
prevention education, is the key to saving our next generation. 
And it is only through collaboration and a holistic approach 
that we will succeed.
    Thank you for your time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Cole. Thank you very much.
    Ms. Cimaglio, you are recognized for whatever opening 
statement you would care to make.
    Ms. Cimaglio. Chairman Cole, Ranking Member DeLauro, 
members of the subcommittee, my name is Barbara Cimaglio, and I 
oversee Vermont's substance use disorder treatment, prevention, 
and recovery system. It is a privilege----
    Mr. Cole. Would you turn your mike on?
    Ms. Cimaglio. Oh.
    Mr. Cole. Thank you very much.
    Ms. Cimaglio. I will move it closer. Okay. Is that better?
    It is a privilege to be here and it is a privilege to serve 
Vermont under the leadership of Governor Phil Scott and Dr. 
Mark Levine, the health commissioner. I have held similar 
positions in the States of Illinois and Oregon and have been a 
longtime member of the National Association of State Alcohol 
and Drug Abuse Directors, NASADAD.
    First, I would like to thank the subcommittee for the 
Federal funding that flows through agencies like the Substance 
Abuse and Mental Health Services Administration, CDC, HRSA, and 
others. And second, we are very appreciative of the decision to 
allocate a billion dollars over the next 2 years to help 
support States' work on the opioid issue.
    In a time of very tight budgets, we fully appreciate the 
significance of this action and the importance of managing 
public dollars in an effective and efficient manner.
    Vermont, a small State of only 625,000 people, has been 
greatly impacted by the opioid problem. This impact is felt in 
every community, particularly in most rural areas.
    In 2014, heroin overtook prescription opioids as the most 
commonly used opioid among those in treatment for substance use 
disorders. From 2010 to 2016, overdose death rates more than 
doubled.
    Although we face many challenges, I am proud to report 
actions that are truly making a difference in Vermont. Because 
of the opioid problem, we developed our Vermont ``Hub and 
Spoke'' model of treatment. This model began when we set up 
regional opioid treatment centers around the State to treat 
those with the most complex needs with medication-assisted 
treatment and counseling. This part of the system represents 
the hubs. Primary care physicians who lead a team of nurses and 
clinicians in office-based treatment are the part of the system 
that represent the spokes.
    All patients' care is supervised by a physician and 
supported by nurses and counselors who work to connect the 
patient with community-based support services. This model 
ensures that more complex patients are supported at the 
appropriate level of care. In addition, the system ensures 
opioid use disorder treatment is part of the overall healthcare 
system.
    Between 2012 and 2016, medication-assisted treatment 
capacity increased by 139 percent. While we still experience 
small waiting lists, we are moving toward achieving our goal of 
treatment on demand. An initial evaluation of the Hub and Spoke 
system suggests that our approach saves money by reducing the 
utilization of more expensive interventions. This includes 
cutting down the number of hospital admissions and outpatient 
emergency department visits, for example.
    We also saw longer treatment stays for patients in our Hub 
and Spoke system. In 2016, from January to June, 74 percent of 
new clients in the Hub and Spoke system were in treatment for 
90 or more days, which is the evidence-based recommendation.
    Treatment is an important part of our work, but we are also 
doing work on prevention, intervention, and recovery. Vermont 
supports 12 recovery centers located throughout the State. The 
Vermont Recovery Network, through our Pathway Guides program, 
initially funded through a SAMHSA grant and now carried forward 
through our Medicaid waiver, supports clients in accessing peer 
recovery. Of the 216 people connected to a Pathway Guide in 
2015, 73 percent sustained abstinence from opioid misuse by a 
6-month follow up.
    We recognize that investments in prevention services are 
critical. Our efforts include funding through the Substance 
Abuse Prevention and Treatment Block Grant or regional 
prevention consultants who support staff in schools and in 
community prevention coalitions.
    There are additional initiatives described in my written 
testimony, but I will now turn to my recommendations.
    First, Federal initiatives must specifically include 
involvement of State substance abuse agencies like mine, given 
our expertise and authority over the addiction prevention, 
treatment, and recovery system. Collaboration with public 
health, criminal justice, and other partners should be 
expected.
    Second, I recommend strong support for the Substance Abuse 
Prevention and Treatment Block Grant, a vital part of our 
network that averages 70 percent of State substance abuse 
agencies' funding for primary prevention, which supports our 
community work. These funds form the foundation of a 
comprehensive system.
    And finally, I encourage Congress and the administration to 
continue to work with State-based groups heavily involved in 
this issue, including the National Association of State Alcohol 
and Drug Abuse Directors and the Association of State and 
Territorial Health Officers, and also our parent group the 
National Governors Association, which has provided critical 
leadership in this area.
    Thank you for the opportunity to testify. I look forward to 
answering any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Cole. Thank you very much.
    We will next go to Mr. Guy for your opening statement.
    Mr. Guy. Chairman Cole, Ranking Member DeLauro, and members 
of the committee, thank you so much for this opportunity to 
speak to you today.
    It was an unexpected phone call on September the 26th, 
2016, that brought the news that our 34-year-old son Chris had 
died 2 days before from an injected dose of heroin. 
Incomprehensible. Just one brief phone call could evoke such 
utter grief and pain. But it is a call that is replicated 
thousands and thousands of times every year following the 
deaths of those who die from drug overdose in America. 
Multiplied missives of misery, thousands and thousands of 
times.
    Yet, years earlier, on December the 21st, 1981, it was also 
an unexpected phone call from the adoption agency that brought 
us incredible, exhilarating news. Just 4 days before Christmas, 
we were given the best present we could have imagined, William 
Christopher Guy.
    Chris became a daddy's boy. You would most often find him 
either on my lap or in my arms. He loved all creatures, great 
and small, puppies, kittens, rabbits, and much to the chagrin 
of his mom, frogs, lizards, and snakes.
    Chris was a gifted artist. He studied graphic arts. But for 
most of his adult life he worked as a cook in good restaurants 
in Portland, Boston, Nashville, Oklahoma City. Chris was a 
bright and beautiful soul. He was kind, caring, compassionate. 
He was raised in church. He was adored by an extended family. 
He had such potential, such hope for a bright future.
    But unbeknownst to us, Chris was also a drug addict. For 
more than 20 years he was trapped in a terrifying house of 
mirrors, hoping that this twist or that turn might bring relief 
from crippling anxiety and depression, but more often finding 
sorrow and pain, guilt and shame.
    And for far too long, feeling guilt and shame ourselves for 
not being aware of his plight and then not knowing how to help 
him, we unwittingly provided financial support that only 
perpetuated the misery. We were at a loss, not knowing how to 
find help for him or for ourselves.
    Finally, with grace, and the help of programs like Al-Anon 
and Parents Helping Parents, his mother and I came to realize 
that Chris' addiction was an illness, part of an eviscerating 
epidemic sweeping this Nation.
    On any day in Oklahoma some 700 addicts who need 
rehabilitative treatment cannot get it. Waiting lists are long 
for State-assisted treatment and there are not even enough 
placements for those who can pay for them. For those who work 
in jobs with little or no health insurance or who cannot work 
because of their illness, the despair can be debilitating.
    Chris' addiction was something that he could no more 
overcome without professional help then he could self-cure a 
cancerous tumor. He tried desperately to get well. He sought 
treatment many times, only to be told that it could be days or 
even weeks before a placement might become available. On the 
streets, with no viable support, he couldn't get the help he 
needed, and we couldn't get it for him. It was an abject 
nightmare. I cannot begin to describe to you the depths of 
despair.
    Often compounded by mental health issues, the disease of 
addiction is a life-and-death struggle, made even more 
debilitating by guilt and shame. Relying on short-term 
emergency room care and the incarceration of the addicted and 
the mentally ill, without hope of long-term professional 
treatment, can doom them to lifelong cycles of disease and 
their families to unmitigated agony.
    Meanwhile, all of society is paying for it, either 
monetarily or emotionally or both. Surely it makes sense, even 
if only economic sense, to increase the availability of 
preventive education and treatment programs, and isn't it also 
the compassionate thing to do?
    I join the many families afflicted by this insidious 
disease of addiction who are heartened by the bipartisan 
passage of the Comprehensive Addiction and Recovery Act and the 
CURES Act, but there is much work left to do. In the words of 
Saint Francis of Assisi, start by doing what is necessary, then 
do what is possible, and soon you may find you are doing the 
impossible. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Cole. Thank you very much.
    Ms. Pacula, we will next go to you for your opening 
statement.
    Ms. Pacula. Chairman Cole, Ranking Member DeLauro, and the 
other distinguished members of the subcommittee, thank you very 
much for allowing me the opportunity to testify to you today. 
As was said earlier, I am a senior economist at the RAND 
Corporation and I co-direct RAND's Drug Policy Research Center.
    RAND's mission as a nonprofit, nonpartisan research 
organization is to produce and disseminate objective 
information that can be used to help solve our Nation's most 
pressing challenges. Along with my colleagues at RAND, we have 
evaluated the effectiveness of various drug control strategies, 
and I will share with you today some of the lessons we have 
learned that might help inform the Federal response to this 
opioid crisis.
    First, it is important to say that the strategies involved 
take a mix of strategy. No one single strategy will be a silver 
bullet for any epidemic. The most effective and cost-effective 
mix of strategies, however, depend on where you are at a 
particular point of time in an epidemic.
    Unfortunately, it is hard to determine exactly where we are 
today in the opioid epidemic because it is fueled by two very 
different classes of opioids, prescription opioids and then the 
illicit heroin and Fentanyl opioids, and these trends are 
moving in different direction.
    However, it does seem absolutely clear in light of the 
level of overdose fatalities experienced today that we are in 
the territory where treatment must be part of the policy mix. 
And, thankfully, this is where we have the strongest evidence 
base regarding the effectiveness and cost effectiveness.
    Opioid addiction is, as stated clearly already, a chronic 
medical condition that is receptive to treatment, and the use 
of medication-assisted therapies, or MAT, including methadone, 
buprenorphine and naltrexone, have been demonstrated to be 
among the most effective forms of opioid treatment. Research 
shows a number of policies have been effective at expanding 
access to this MAT, including insurance parity, expanding the 
patient limits buprenorphine-waivered physicians are allowed to 
treat from 30 to 100, and State Medicaid policies that provide 
coverage for buprenorphine and place it on preferred drug 
formularies.
    Just expanding access to MAT, though, is not enough. 
Strategies must encourage delivery of high quality treatment. 
Policies and programs that improve training of providers in the 
delivery of this therapy, such as those currently being 
considered by the Centers for Medicare and Medicaid as well as 
ARC, appear promising and could improve the quality of care 
received.
    When it comes to the other drug control strategies 
undertaken by the agencies under the purview of the 
subcommittee, the evidence base demonstrating effectiveness is 
still developing. In the case of naloxone distribution, there 
is solid evidence that naloxone can be safely administered by 
first responders and laypersons who are properly trained and 
educated in its administration, resulting in a saved life in 
that episode.
    Questions remain, however, about whether the general 
distribution of naloxone leads to a rise in overall overdoses 
and there the evidence is thin. I can speak to it more later.
    Prescription drug monitoring programs have been evaluated 
quite a bit, but the results are mixed. It appears the 
effectiveness of these programs can be influenced by certain 
elements that are either present or not present, including 
mandatory participation of all prescribers and pharmacies, 
inclusion of all scheduled drugs, and real-time access and 
updating of the system. Recent studies that evaluate the 
effectiveness of these more enhanced PDMPs suggest that they 
can be powerful at reducing the supply of opioids as well as 
the demand and harm associated with them.
    Policies emphasizing the adoption of clinical guidelines 
for safe opioid prescribing are also frequently advocated, 
although usually implemented in combination with other 
initiatives, making it hard to understand their effectiveness 
alone. In the VA's Opioid Safety Initiative, which was 
undertaken in 2013, there they implemented it with aggressive 
education of the providers, risk management tools, pain 
management strategies for patients in chronic pain, and 
improved access to MAT therapy, and substantial reductions in 
inappropriate prescribing, total prescribing of opioids, as 
well as cutting in half overdose mortality of veterans occurred 
from this comprehensive approach.
    Given the availability of both legal and illicit opioid 
products in many communities, we have to be cautious about 
policies focused on solving just one part of the opioid 
problem, for example just focusing on prescription opioids, or 
just within one particular health system, like the VA, because 
people can move to other health systems and do.
    The complexity of the opioid epidemic requires a 
thoughtful, comprehensive approach to access of all opioids and 
careful evaluation and monitoring to avoid the unintended 
consequences of any singular policy approach.
    Thank you for inviting me to testify, and I am happy to 
answer any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Cole. I want to begin by thanking all of our witnesses, 
because I have got to tell you, you do a much better time of 
staying within your 5 minutes than any of my colleagues up here 
do on either side of the aisle. So thanks for setting such a 
high standard.
    In the interim, we have been joined by the former chairman 
of the full Appropriations Committee and the current chairman 
of the State and Foreign Operations. And if I may say, the guy, 
as both sides of the aisle recognize, has done more to focus 
Federal attention on this problem and done more to bring 
resources to bear to try and help Americans not just in his 
district or his State but all across the country than anybody 
else.
    So it is my privilege to recognize my good friend and 
colleague and mentor for any opening remarks he cares to make.
    Mr. Rogers. Well, thank you, Mr. Chairman, for those 
wonderful words. You went on a bit too much. But like Mae West 
once said, too much of a good thing is simply wonderful.
    And, Ranking Member DeLauro, thank you for letting me sit 
in on your subcommittee. I will be brief, hopefully, and keep 
myself out of your way.
    I am delighted to see my great friend Nancy Hale here 
today. You have heard from her already. But you have heard me 
ad nauseam, I think, praise the work of Operation UNITE back in 
Kentucky and now across the country, helping us take back our 
communities from the grip of drug traffickers and addiction.
    And Nancy is a big reason why they have been so successful 
in Kentucky. She was a part-time volunteer for UNITE and worked 
her way up to be president and CEO, and she keeps the momentum 
going in this seemingly never-ending fight.
    You have heard me tell the story of UNITE. It stands for 
Unlawful Narcotics Investigations, Treatment and Education, a 
holistic approach. We can't arrest our way out of this, we 
can't educate our way out of it singly, and we can't treat our 
way out of it singly. We have to do all of that at the same 
time, endlessly and permanently, and that is what UNITE was 
organized to do.
    Thirteen years ago, we had a horrendous problem in my 
eastern Kentucky district, one of the first ground zeros for 
OxyContin, people dying and kids in the emergency rooms and so 
on. It was new at that time, new to really the world.
    So I called together people from all walks of life and we 
brainstormed and brainstormed and finally came up with a 
concept of this holistic approach. And since that time, for 
example at the outset they had 35 undercover agents to cover 
about a one-third of the State, 30 counties. They had 35 
undercover agents, very professional. And so far they have put 
in jail 4,400 pushers just in that part of Kentucky.
    We have treatment centers, we have UNITE clubs in schools, 
most of the schools that do after-school things make it fun, 
drug courts in every county, and so on. It is a holistic and 
successful approach. But we are a long way, as Nancy has said, 
from being perfect. We have got a long ways to go.
    But I am especially grateful that Nancy has taken the time, 
especially now, to share her experience. It is a busy time for 
UNITE because 6 years ago UNITE decided to take their operation 
national and they called a prescription pain drug summit in 
Orlando.
    Started out with around 1,000 people there. It has now 
grown. We will be holding the sixth annual summit week after 
next in Atlanta. We will have upwards of 3,000 people there 
from every walk of life, every nook and cranny of the country 
and the world. We will have congressmen and senators and 
governors and attorneys general and treatment experts and 
medical experts and NIH and CDC and DEA and ABC at this 
conference.
    Last year, the President came. He has been invited again, a 
different President. So we are hoping that he and/or the Vice 
President will join us there.
    But it is the only place where all of the disciplines that 
make up this fight that we are in come together in a single 
place under one roof, because the treatment people need to 
understand what the prosecutors are doing and the judges need 
to know what the attorneys general think about it and so on. 
And it is a great place for sharing of ideas and learning from 
each other and taking best practices and spread them across the 
country. That is what these summits are doing.
    And I hope that each one of you will be there. I am looking 
our panelists in the eye and I am looking Members of the House 
in the eye, hoping that all of you can be there for the annual 
prescription drug summit in Atlanta.
    What is the date, Nancy?
    Ms. Hale. April 17th through the 20th.
    Mr. Rogers. Are you taking reservations?
    Ms. Hale. Yes, I have forms in my packet here.
    Mr. Rogers. Thank you, Mr. Chairman, for letting me be here 
with you.
    The fight goes on. It is getting worse, it seems. And we 
have got new drugs coming at us like crazy. We have got a 
government that must be resilient and adept to switch with the 
times and the attack and where it is coming from. That is no 
small chore.
    But this subcommittee, Mr. Chairman, Ranking Member, you 
are on the front line, and we are looking to you as we have in 
the past for great leadership. I thank you for letting me 
speak.
    Mr. Cole. I thank the chairman. And thanks, when you put us 
on the front line, you were never shy about giving us bullets. 
So thank you very much. The country owes you a lot in many 
regards, but particularly in this regard.
    Ms. Hale, let me start with you, and then I am just going 
to work across quickly.
    You know, late President Lyndon Johnson used to say doing 
the right thing isn't hard, knowing the right thing to do is. 
And you each have had vast experience in this area, but from 
very different points of view, and have had a chance to look at 
some of the things that we fund from a Federal level.
    And, again, as I told you in the back, I am not going to 
ask you to name losers, unless you want to, but I am going to 
ask you to try and give us--because we will have tough 
decisions to make, even with the resources that we have 
available, and I share my friend the gentlelady from 
Connecticut's concern about that.
    But whatever, there is never enough, and this is an area 
where we really need to make sure that whatever resources we 
have we direct where people that are actually working the 
problem think this can make a difference. So I would really 
like your opinions for the record on two or three initiatives, 
whatever number you care to pick out, that you think Federal 
dollars really matter in.
    Ms. Hale. I think definitely you have to have that holistic 
approach. And we have been very reactionary in this epidemic. 
We had to start out really strong in southern and eastern 
Kentucky with an emphasis on law enforcement, those undercover 
investigations that Congressman Rogers mentioned.
    Over the years, we have seen what he was telling us to be 
true, that we cannot arrest our way out of the problem. And I 
think what we are seeing now is that we have got to move 
prevention to the forefront. We have got to be proactive where 
we have been reactionary in the past.
    And I firmly believe that we are seeing a generation of 
young people that need a K through 12 prevention curriculum in 
their schools that builds consistently, that is developmentally 
appropriate, culturally appropriate.
    Two years ago I was in one of our counties doing a program, 
On The Move! It is a mobile prevention unit. I was in our 
trailer with eighteen 16-year-old boys, going through the 
PowerPoint, sharing all the information about gateway drugs, 
and we had a great discussion.
    And as the boys were leaving to go out of the trailer, one 
young man stopped and his body language was very angry. And he 
said, ``I have two things to say, two things to ask you.''
    And I said, ``Okay.''
    And he said, ``One, I want you to know that I have smoked 
pot before, but I am not going to anymore, because my goal in 
life is to get smarter, not dumber.'' And he said, ``But what I 
want to ask you is why no one has told me this before.''
    And so I began--we all began to see these young people want 
to make good choices. They want to be given the facts, the 
information. And that is how we are going to build on people 
who make those choices.
    So I think our prevention programs are ones that we need to 
replicate, that we need to fund definitely, but then providing 
vouchers for the treatment programs.
    When Congressman Rogers helped establish Operation UNITE, 
there were very few treatment facilities in Kentucky, and now 
we have many who are opening their arms. We are working with 
law enforcement to initiate programs such as the Angel 
Initiative, where people can go into the State police post in 
crisis and ask for help, and our treatment facilities are 
accepting them, and then UNITE is helping to provide them 
vouchers.
    Those are two.
    Mr. Cole. I am going to try to move quickly here or I will 
come back to this question because I don't want to rush 
anybody.
    But, Ms. Cimaglio, the same question.
    Ms. Cimaglio. I think you have heard from all of us in one 
way or another that the important element is a comprehensive 
approach. We aren't going to get ahead of this problem by just 
doing a single strategy. And for Vermont it does include 
prevention, intervention, treatment, recovery, support, and 
others.
    Some of the elements of our comprehensive strategy have 
focused on public information and messaging. It is critically 
important that we have messages that speak to people throughout 
the community and throughout our States.
    Pain management and prescribing practices. We have 
guidelines similar to the CDC guidelines in our State and have 
done education with our medical community, because we know that 
we have to change the practices of the physicians on the ground 
and also be there to support them with how to address addiction 
when a person comes into their office and is struggling. What 
do I say? Where do I send them? How do I give them help? So 
having clear guidelines and education for physicians.
    Prevention and community mobilization is critical and I 
will leave that there. I think you have heard a lot about that.
    Drug disposal. Safe disposal practices on the Statewide 
level is something that we have been working on, gearing up for 
Drug Take Back Day on the 29th. It has to be easy for people to 
dispose of these substances.
    Mr. Cole. I am going to have to ask you to stop there 
because I can't be tough on the rest of these guys if I am not 
tough on me. I will come back to our other two witnesses in my 
next round of questioning. I want to go to my good friend, the 
gentlelady from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And thank you all very, very much for your testimony.
    I just will say to you, Mr. Guy, there is no way that we 
can replace the hole in your heart, but I am hopeful that this 
subcommittee can help alleviate some of that pain.
    Mr. Guy. Thank you, thank you.
    Ms. DeLauro. Ms. Cimaglio, just a series of questions very 
quickly because I want to try to get to a second question as 
well. This has to do, Ms. Cimaglio, with Medicaid and it 
serving as the most significant source of coverage and funding 
for prevention and for treatment, which you have highlighted as 
well as Ms. Hale has.
    In some places Medicaid is paying up to 50 percent of the 
cost of medication-assisted treatment. Healthcare experts 
estimate that 1.6 million individuals with substance abuse 
disorders gained health insurance through Medicaid expansion.
    So is Medicaid responsible for expanding access to 
medication-assisted treatment in Vermont?
    Ms. Cimaglio. Yes, it is. We actually had Medicaid 
expansion before the Federal Government acted, but it has been 
significant. As many as 70 to 80 percent of folks are getting 
treatment because of the support of our Medicaid program, and 
that has allowed us to expand our Hub and Spoke model.
    Ms. DeLauro. Which I want to get to later on, Hub and 
Spoke, right.
    If the Affordable Care Act is repealed, the States forced 
to scale back Medicaid programs, impact on Vermont in terms of 
treatment for substance use disorder?
    Ms. Cimaglio. Well, as I said, since a high percentage of 
people are supported through the Medicaid program, it would be 
a challenge and a disaster, I think, if we had to pull back all 
of the work that we have done to develop the system.
    Ms. DeLauro. In your experience, if you have to interrupt 
the treatment because of loss of health insurance, what is the 
outcome, what does that mean? If you are on, then you have no 
insurance coverage, and then you are off, and then you go you 
go back, what is interrupted to your process here?
    Ms. Cimaglio. Well, I think there are two outcomes. To the 
individual, it disrupts treatment, which is not a good thing, 
and we wouldn't want to see that happen. But then that means 
that the State picks up the cost. So through our block grant we 
would then support to the extent we could, and that is the 
Substance Abuse Prevention Treatment Block Grant is the 
foundation of statewide system.
    Ms. DeLauro. So let me just see if this is accurate. If we 
repeal this Medicaid expansion, it does not continue in some 
way, if we cut back dollars to Medicaid, yes or no, would it 
worsen the crisis in your State of Vermont? Would it affect it 
first and would it worsen the crisis?
    Ms. Cimaglio. If it cut back access to services it 
definitely would affect it and worsen it. And I think each 
State has their own approach, but our approach has been very 
comprehensive. And we appreciate the talk of flexibility so 
that each State can do what they need to do.
    Ms. DeLauro. One of the things that has concerned me about 
this is that something that you used, you would have to then 
deal with how you would adjust to dealing with an affected 
population. In my mind, in instances of when I have seen block 
granting in this area, is that been a State is forced to choose 
who. And that is a Sophie's choice. You begin to take a look at 
rationing. Would that not be the case in this instance?
    Ms. Cimaglio. It certainly could be, depending on the 
extent of the reductions. But as I said, we worked very hard to 
get to where we are today in a very comprehensive way and we 
would not want to see having to go backwards.
    Ms. DeLauro. And if I might add to Ms. Hale and Ms. 
Cimaglio, I will ask the question quickly. The Institute of 
Medicine has called for 10 percent of public funds to be spent 
on young people to be directed toward effective prevention 
interventions to promote healthy behaviors. You have talked 
about prevention, you have talked about K through 12, or maybe 
even preschool.
    Does that sound right to you with the IOM, the Institute of 
Medicine, say, 10 percent? Would you support that kind of an 
effort, 10 percent of public funds spent, directed at young 
people?
    Ms. Hale. Well, when you have had nothing----
    Ms. DeLauro. Ten percent is better than nothing. Okay. I 
hear you. I hear you.
    I guess I am out of time, but I want to come back in terms 
of your prevention programs. You talked about what works and 
doesn't. And the SAPT Block Grant, if that were cut by 18 
percent. So think about that, what that would mean to you.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank you.
    We next, as tradition dictates, go to the gentlelady. The 
ranking member of the full committee from New York is 
recognized.
    Mrs. Lowey. Thank you, Mr. Chairman. And I want to 
apologize in advance because after I ask the questions I have 
to go to another hearing.
    Mr. Cole. That is why I am going to you next.
    Mrs. Lowey. Thank you. But I want to thank you. And I want 
to thank Chairman Rogers because we have been working together 
and you have done such an extraordinary job.
    And to the whole panel, and especially you, Mr. Guy. Thank 
you so much for being here today. As a grandmother and a mother 
we all feel for the difficult time you went through. Thank you 
very much.
    Mr. Guy. Thank you.
    Mrs. Lowey. Since 1999 sales of opiates in the United 
States have quadrupled. I am so concerned about this increase, 
particularly as there is no data to support Americans are 
facing more physical pain than they did two decades ago. And as 
opioids are not intended to treat chronic pain, I cannot fathom 
how nearly 300 million prescriptions are written each year. 
There is clearly a vast over prescription of opioids. And a 
staffer of mine was just telling me as we were preparing for 
this hearing, she had a sprained ankle and the doctor gave her 
a 1-week prescription for vicodin, for her sprained ankle.
    The CDC has been taking steps to provide best practices for 
physicians, but much more must be done. And if whoever would 
like to respond, or in the time I have a few of you could 
respond, what steps should the Federal Government take to work 
with providers to prescribe opioids only when necessary for the 
health of the patient or in more limited doses? Clearly they 
are not doing it now.
    Thank you.
    Ms. Pacula. So it is absolutely necessary to educate 
prescribers, all prescribers, and it is not just physicians. 
Dentists can prescribe opioids as well. Vets can prescribe 
opioids as well. And opioid-seeking patients know these things. 
We need as active an education of our prescribers as we have in 
the advertising of the effectiveness of the drugs at treating 
pain.
    One of the successful elements of the VA strategy was the 
pharmacists who are part of this situation being the ones 
educating the prescribers, the doctors, the ER people, on how 
much needs to be distributed and why it might not be 
appropriate to give two overlapping opioids to a patient 
because they aren't sure which one they want. Give them one. 
Make it restricted. If it doesn't work, have them turn it in 
and give them the second one.
    There is effective strategies to doing this. They just need 
to be disseminated. When we talk about education, this is an 
area where it is not just educating our kids--although that is 
extremely important--educating the medical community, and by 
that I mean it as broadly as dentists and vets as well, about 
the risks, about the abuses, and how to identify potentially 
patient-seeking behavior and participation in this prescription 
drug monitoring programs.
    While many physicians are aware of them, States do not 
mandate that all prescribers participate. They don't know that 
this patient has already received a prescription from another 
provider because they don't have access to that information 
because their State system is not set up to do that.
    Enhancing prescription drug monitoring programs enables 
physicians to have access to that information, providers. Vets 
can participate, dentists can participate if it is part of the 
policies. Let's make it part of the policy.
    Mrs. Lowey. I would just--since I have just a minute, 
little less than a minute left, I just don't get it. Because if 
you are a physician or if you are a dentist, you don't know 
what these drugs can do? What does your research show?
    Ms. Pacula. I don't know that it is----
    Mrs. Lowey. I had a tooth pulled recently, and I said, no, 
thanks, and I didn't--well, I didn't take anything. But I don't 
get it.
    Ms. Pacula. There is a problem in our system in that 
physicians and hospitals are ranked in the quality of care that 
they are given, and part of that measure of quality is if the 
patient believes their pain was effectively managed.
    So there is actually in our system a financial incentive to 
provide patients with too much medication because the patient 
is more likely then to respond that their pain was effectively 
managed. We need to educate patients as well as providers, but 
there is, unfortunately, misaligned incentives in our 
healthcare system today.
    Mrs. Lowey. Thank you very much, Mr. Chairman. And I 
apologize for having to go off to another hearing.
    Mr. Cole. Just a point of information before we move the 
next member for my friend. I actually had an interesting 
conversation with Dr. Collins at the NIH recently. You may want 
to bring this up. Because they are beginning to find--to look 
for medicines that don't have opioids that can achieve the same 
results.
    So we are actually--and I think Mr. English is actually 
working on something similar to that. So this is an area we may 
want to explore when the NIH comes up here to testify because 
it could be a real contribution.
    Mrs. Lowey. Thank you very much. And thank you all.
    Mr. Cole. Thank you.
    We next go to the vice chairman of the subcommittee, the 
distinguished gentleman from Arkansas.
    Mr. Womack. Thank you, Mr. Chairman. And what a riveting 
discussion that we are having here concerning what I consider 
to be one of the--if not the most important issue facing our 
country today, insofar as the impact it has on young people and 
their future development and progress.
    I don't know what would be more important. I will say this 
upfront, that I believe in my heart that addiction is a disease 
and not a moral failing of an individual. And our country needs 
to recognize that it is a disease and not a moral failing.
    Mr. Guy, when I heard and read your testimony, it became 
apparent to me that you, as a parent, became overwhelmed with 
the inability to fix a problem.
    Mr. Guy. Absolutely. Absolutely.
    Mr. Womack. I don't know--short of people having a similar 
experience, I don't know what more we can do. There has got to 
be some things we can do to help people understand that, as has 
been mentioned, that a holistic approach is the only solution; 
that you can't just fix certain elements of it; that there is a 
progression of these diseases; and that, you just can't lock 
them up and throw away the key and hope that the situation per 
individual is going to be fixed. Can you?
    Mr. Guy. No, you can't. And I would advocate for greater 
opportunities for people who are experiencing these kinds of 
things to be able to network with each other and to--and, you 
know, you addressed a significant part of it, is that there is 
still--there is still some degree of stigma and shame, you 
know, related to this issue.
    And I think that there are some people who are reticent to 
reach out, and that is one of the reasons that I have gotten 
involved with the program called Parents Helping Parents, 
because it is a peer group. The purpose of it--the primary 
purpose of it is to provide opportunities for people who are 
experiencing this in their families, to be able to come 
together to share information, to share resources.
    In the Norman Chapter, we provide a lending library. We got 
a grant from the United Way to provide a lending library. We 
have a comprehensive lending library. We are working with the 
police department in Norman because the police department has 
told us that they are often on the frontline, if someone 
overdoses or if someone is arrested; that they have parents 
that were in the situation that we are in that they don't know 
what to do. And the police department in Norman has been very 
forthcoming in working with us because now they have a resource 
to refer people to.
    You know, I think preventive education--I think not just 
education for children but education for parents as well. And I 
think anything that we can do to help people feel like that 
they are--I was talking to someone earlier, it is a huge club, 
and it is a club nobody wants to join.
    But I think the more that we can do to help people see that 
even people who are not affected by this personally are open to 
helping the people that they are. I think that would go a long 
way.
    Mr. Womack. There has been some discussion in this briefing 
so far about naloxone and its use in the emergency rooms on an 
overdose. It just makes sense to me that once an individual has 
been treated in an ER setting, that to just--because a lot of 
these folks are just going to be released--
    Mr. Guy. Right.
    Mr. Womack [continuing]. Back out on the street. And those 
demons will call again, and those individuals are going to be 
back in need.
    Mr. Guy. Right.
    Mr. Womack. It would seem to me that it would be very 
appropriate and worthwhile to get these folks in some treatment 
program upon an incident like this. I don't know who might want 
to take that for just a moment. I have only got about 20 
seconds left in my time.
    Ms. Cimaglio. One of the things that Vermont has proposed 
in our 21st Century Cures application is exactly that, 
expanding partnerships with emergency departments to make those 
linkages with peer support workers that can help link 
individuals and families to help and support. That is one of 
the most frequent comments we hear in the community, that 
people need help from other people. And I agree 100 percent 
that that is a missing link often.
    Mr. Cole. Thank you.
    We will next go to my good friend, the gentlelady from 
California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. First of all, Mr. Guy, I want to join my 
colleagues in thanking you for being here and helping to put a 
human face on this crisis of opioid addiction.
    Mr. Guy. Thank you.
    Ms. Roybal-Allard. Ms. Pacula, in your written testimony, 
you say the following: ``Improving the quality of medication-
assisted treatment may be particularly important for improving 
outcomes for historically underserved or high-risk populations, 
such as racial, ethnic minorities, individuals with HIV, and 
individuals in rural counties who may not receive effective 
treatments for opioid use disorders at the same rate as non-
minority individuals. Policies and programs have improved 
delivery of this therapy, such as those currently being 
considered by CMS, and AHRQ could be just as important as 
expanding treatment.''
    As you may be aware, the administration has proposed 
eliminating AHRQ next year. Given your emphasis on the need to 
improve delivery of medication-assisted treatment, do you think 
that AHRQ provides valuable research to help improve the 
delivery of services in healthcare settings, and in your view, 
is it important to continue to support AHRQ research in this 
area?
    Ms. Pacula. I can tell you, they absolutely deliver 
valuable research. As RAND does receive funding from AHRQ, I 
think I have to be honest in disclosing that we do receive 
funding from AHRQ to do--and we do find this funding to be 
unique, filling holes that are not necessarily filled by the 
other funding agencies and have enabled important research on 
the effectiveness of not just MAT but other important 
activities.
    For example, one of the things I was referring to in my 
testimony is the integration of primary care and medication-
assisted treatment. In order to administer buprenorphine, you 
have to get a waiver from the Federal Government. And those 
that do are not necessarily treating all the patients they 
could treat under those waivers.
    How do we educate more providers to get those waivers in 
areas where we have need, and how do we help them understand 
how to do this in a way that helps the patient? There is 
resistance, because these are difficult patients. And now these 
patients are--then become part of your patient mix that are 
going to rate your quality. That is not attractive to some 
practices. But there are successful strategies and AHRQ has 
been at the forefront of trying to evaluate those and 
disseminate them.
    Ms. Roybal-Allard. Thank you.
    Ms. Cimaglio, as was mentioned earlier, despite the fact 
that the majority of doctors and other members of the medical 
community are licensed to prescribe opioids and other narcotics 
to treat patients with pain, most American physicians receive 
little or no training during medical school regarding evidence-
based prescribing substance-use disorders and pain management. 
And currently, only five States require all or nearly all 
physicians to obtain continuing medical education on these 
topics.
    As my colleague, Ms. DeLauro, mentioned, CDC released 
guidelines for prescribing opioids for chronic pain last year. 
However, one of the concerns that I have is that not all 
medical professionals know of or are even adhering to these 
guidelines.
    What should be done to--nationally to standardize CME 
requirements for all medical professionals prescribing opioid 
medications? And should States require that patients receive 
multiple ongoing opioid prescriptions, that they should see a 
specialty in pain management, such as a pain management 
physician or CRNA?
    Ms. Cimaglio. Thank you for the question. In Vermont, we 
actually have passed State law with basically the CDC 
guidelines and probably a little bit more than that in ours. 
And all of our physicians have to meet those guidelines, and 
that is what our medical practice board uses to evaluate how 
the physicians are doing.
    We have also increased the number of hours that they need 
to receive. So clearly, we do believe that that is an important 
aspect. We also require all physicians to enroll and use the 
prescription monitoring program. So I think where the States 
have the ability to increase their own guidelines and 
regulations, I think that is a tool.
    I don't know that across the board the Federal Government 
can do that. I am just not versed enough to know whether that 
is a possibility, but I think anything that can be done through 
the associations, through training, through guidelines, is 
critical.
    We have to change the culture. That is what we are really 
talking about here, is using a variety of tools to change the 
culture. And make it clear that opioids are not the first 
choice, that when you are prescribing opioids to a patient, 
there need to be checks and balances to ensure that they are 
being monitored carefully.
    Ms. Roybal-Allard. What about requiring someone to see a 
pain management specialist as part of the process for a cure?
    Ms. Cimaglio. Yes. I think if a patient is experiencing 
chronic pain, definitely going to see a specialist is an 
important element. There aren't enough of them. We struggle 
with having access to pain management and pain specialists, but 
also alternative and complementary approaches are important. 
And so making sure we have the choices and the support for 
managing pain that isn't just based on taking a pill.
    Ms. Roybal-Allard. Thank you.
    Mr. Cole. Next, we will go to my good friend, the gentleman 
from Tennessee, Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And to each and every one of the panelists, I want to echo 
the sentiments of folks on both sides of the dais. This has 
really been a very important testimony for us as policymakers, 
and I thank each and every one of you for your participation in 
this national epidemic.
    Ms. Pacula, your testimony, you addressed that it is too 
soon to have an evaluation of the impact of programs in the 
Comprehensive Addiction and Recovery Act and the 21st Century 
Cures Act. As we begin to provide a framework for these 
programs, what factors should we keep in mind as to import the 
assessing programs as to their effectiveness?
    Ms. Pacula. I think that requiring data collection of 
implementation as well as outcomes is vitally important, and 
providing broad access to that is important. A lot of work was 
stalled on the effectiveness of some of the medication-assisted 
therapies because of the redaction of information of patients 
who had mental health and addiction diseases from general 
health care.
    In CMS data, we were not able to get combined data sets 
that had both their healthcare utilization and mental health 
and addiction until just last year. It was redacted because of 
concerns over privacy for people who had these conditions. That 
is a legitimate concern. But the inability to do analyses to 
see where--primary care prevention is where we need to be doing 
addiction therapy. If they are not integrated, we can't 
evaluate it.
    So I emphasize the need for data on both implementation and 
outcomes in order to assess. I think documenting as many--
SAMHSA has done effective programs in getting information out 
immediately to the State agencies. And the medical agencies on 
those effective programs are also extremely valuable and useful 
at this point in time. But I also think that research, 
continued research and dissemination of that research is very 
important.
    Mr. Fleischmann. Thank you.
    Ms. Cimaglio, can you discuss some of the efforts you 
undertook at the State and local level to develop a strategy 
that met the needs for ground, and what factors should States 
consider when developing a plan?
    Ms. Cimaglio. Well, clearly, having a good plan is an 
important part of our approach, and what we started with is the 
need to have a comprehensive plan. We gathered information from 
around the State. We used data. Our work is data driven. We 
look at the National Household Survey, the Youth Risk Behavior 
Survey. We look at where the local needs are. We listen to 
people in the communities.
    So it is a combination of things. But we also are driven by 
our healthy people 2020 goals, and our legislature actually 
requires that all of the State programs set their own goals and 
have measures. And we actually have a dashboard. I can send you 
a link to our website. But accountability is a big part of what 
we are held to in our State, and we feel it actually has really 
helped us improve the quality.
    Back to the AHRQ question, we are also asking our 
medication-assisted treatment specialty providers to meet the 
AHRQ standards for specialty care. Because any tool we have 
that shows us how we are doing and how people are measuring up 
against standards help us deliver a more high-quality product.
    Mr. Fleischmann. Thank you.
    Ms. Hale, your work with AmeriCorps and education efforts 
seem to be a key aspect of your approach to crisis based on 
your testimony. Can you discuss in more detail how you use 
volunteers to reach out to young people to keep them drug free? 
The reason I ask that, I would go out and I would talk to 
students in high schools all the time, and I said, ``Don't do 
drugs. Don't smoke pot.'' You know what, sometimes I get booed. 
I get booed.
    Then I say, well, let me tell you some stories about some 
lawyers I knew or I practiced with. They are no longer 
practicing law because they have lost their law license due to 
addiction or they are dead now and things like that, and then 
it gets silent. So please, tell us how you work with your 
volunteers?
    Ms. Hale. Well, with those, we have 54 AmeriCorps 
volunteers in our elementary schools, 54 elementary schools. 
But one of the things that they have done is to bring in 
volunteers into the school, particularly from the recovery 
community. It is important for these young people to hear their 
stories. It is important for them to hear--like Mr. Guy's 
story, that is how they identify.
    And so I think working with the--bringing the volunteers 
into the communities. Our community coalitions, we have a 
coalition in every one of our counties, and their input--we 
were founded on community input and providing programs. Someone 
mentioned, you know, not only educating our children but 
educating the adults as well.
    Our volunteers, we train them to teach programs such as 
``Accidental Dealer,'' because many of our students, our young 
people are getting their first prescription drug out of their 
own medicine cabinets or grandmother's medicine cabinets. And 
so using our AmeriCorps members who are trained to pull 
volunteers from those communities, the communities know what is 
their greatest need.
    And they respond. They want to be trained. So in that 
aspect--and we are bringing in a lot of volunteers into our 
school system to work with our young people who had very bad 
experiences when they were in school, in that very same 
building, perhaps. And they are beginning to see what they can 
do to change the culture for their children.
    Mr. Fleischmann. Thank you.
    And to each and every one of you all, please continue to do 
your great work. I appreciate that so much.
    Mr. Chairman, I yield back. Thank you, sir.
    Mr. Cole. Thank you very much.
    We will next go to my good friend, the gentleman from 
Wisconsin, Mr. Pocan.
    Mr. Pocan. Great. Thank you, Mr. Chairman and Ranking 
Member.
    Thank you to the panel for your testimony, and Mr. Guy, for 
sharing your very personal story. I appreciate it. The one 
thing, I guess, I would add is, we keep referring to the 33,000 
people who died from overdoses.
    But, you know, I had--one of my very first employees, 
almost 3 decades ago, is a family friend, went for about 20 
years, worked at a law firm, did very well in New York, kept 
moving up, family member died, he wound up, you know, doing 
opiates along with alcohol. Finally, after falling down a 
flight of stairs and getting $100,000 titanium shoulder, got 
some treatment, but it was like a 3 or 4-week treatment, not 
the comprehensive treatment you are referring to.
    He stayed with my husband and I immediately after that for 
a week, because we live out in the country. So he was very 
broken. And within a week, he was back to using, and within 2 
months, he died from arrhythmia at his house alone in New York, 
and they found his body like 10 days later.
    There is no question that that death was also caused by an 
addiction to opiates. And I think, you know, the more we can 
share those numbers, I think that is important too. Because it 
is not just the overdose; it is the other actions due to the 
addictions.
    So the question I have, and it kind of follows up with what 
Mrs. Lowey was saying, specifically Dr. Pacula, you are talking 
about the VA program. And the VA in Tomah, Wisconsin, is a 
facility that was overprescribing opioids, to the point that it 
got called Candy Land up there. And we had a lot of issues. We 
had a couple deaths related to it. There is inspectors general 
report that didn't do a good job, so we didn't quite get to 
things in time.
    But now they have this opiate safety initiative that you 
brought up that is seeming to work really, really well. It 
takes a non-prescription approach towards veterans' pain 
through variety of things, and they have had a 48 percent 
reduction in the amount of veterans receiving opiates and other 
similar type drugs.
    And nationally, I think it is about a 16 to 24 percent 
reduction, depending on the intensity of the drug, we have seen 
out of this program. Can you just talk about those kind of 
programs, and specifically if--because they have a single, 
unified medical system they can keep track of people better as 
opposed to people who patient shop at various hospitals and 
clinics and dentists and veterans.
    Could that approach be used perhaps with Medicare and 
Medicaid, and some other ways that we could try to find that. I 
am just really curious on the success they have had?
    Ms. Pacula. You highlight exactly the feature that made it 
very successful by having a unified system as well as a very 
comprehensive approach.
    One of the things I failed to say earlier is that in 
dealing with this, you have to deal with the patients who are 
already addicted to the pain medication and figure out how best 
to treat them while also preventing new patients from becoming 
addicted and dealing with people who obtain them outside the 
community. And those strategies differ in a given community.
    Implementing what the VA did, aspects of it could be done 
in any healthcare system. The extent to which a State 
prescription drug monitoring program is made available State-
wide to all prescribers, elements of it can be implemented 
regardless of the system because then the physician has 
knowledge. You have to provide--of what the patient is getting.
    You also have to instill in that physician and any provider 
the other options that might be available. VA actively provided 
alternative forms of chronic pain management. That was part of 
what they were educating their doctors about and what they were 
doing in the system.
    Private insurance companies are starting to do this. 
Medicare with the disabled population is definitely starting to 
do this. I can say to you though that only having a certain 
number of physical therapy or chiropractic visits covered 
leaves you short in the sense that chronic pain is, by 
definition, not going to last--is going to last past those 20 
or 30 visits.
    So thinking about those other options. I think NIH has done 
a lot of work to look at alternative strategies that can be 
effective in long term. We need much more work. And there are 
more people who are more knowledgeable than me who can speak 
to----
    Mr. Pocan. And just a quick followup, because I have less 
than a minute, for you or for anyone who can address. The other 
thing is, you know, I look at this as it is a prescription 
drug--or prescribed, overprescribed, and then it is 
prescription drugs that can help you. And at some point, I know 
there is a lot of other natural things including plants.
    I know that one of the things we dealt with recently was 
kratom, for example, where they are finding that it doesn't 
have the same--it has some of the pain-relieving effects for 
people, and they have used it around the world, but not the 
receptors that give you the high. So it is a way to try to deal 
with it naturally.
    Is there other work on that, and should we be doing more to 
figure out what else is out there naturally?
    Ms. Pacula. There are lots of--there is lots of work that 
is going on. The evidence of the science--the science base is 
very, very difficult, particularly for plants, because dosages 
vary in a plant. You don't know how much is being received. So 
the gold standards for doing research on these alternative 
medications, when they are plant based, is very, very 
difficult.
    Mr. Pocan. Thank you.
    Mr. Cole. I thank the gentleman.
    We next go to my good friend from Maryland, distinguished 
gentleman, Mr. Harris.
    Mr. Harris. Thank you very much, and obviously, a very 
important topic. I am an anesthesiologist, and both my 
subspecialty and just physicians in general have some role to 
play. Unfortunately, they had a role to play, I think, in 
getting people into this addiction problem, and hopefully they 
have a role to play getting people out.
    But let me just get up to a little higher view of what goes 
on. I do think that the message that comes from the government 
about drugs is important. And, you know, we chuckle, you know, 
just say no to drugs, but, you know, we should tell our 
children just say no to drugs, bottom line.
    I don't know. I was disturbed that the last President was, 
for all we know, the first President we ever had who used 
cocaine and marijuana and wrote about it. Didn't say it was 
wrong, wrote about it. Now, honestly, thank goodness we have a 
president who says don't do drugs because of a personal tragedy 
in his family of addiction. No question about it.
    And we have other issues now because, you know, we have 
another trend going on nationwide that I think does--and I know 
it is controversial, but I think it does contribute to it, and 
that is the spread of recreational use of marijuana, legally.
    And, you know, Dr. Volkov, who just presented to the 
Doctors Caucus a couple days ago, does believe it is a gateway 
drug. Not for everybody, not one-to-one, not exclusive, you 
know, every person who uses marijuana is going to go on to have 
a more serious addiction.
    But because of its interaction with the dopamine systems, 
just like nicotine and alcohol, I mean, all these things that 
do this, that have cross-sensitization, it actually makes sense 
that someone who has used these substances actually might be 
more liable to be an addict.
    And, you know, we have discussions now going on about 
whether or not to enforce Federal drug law. I mean, it is 
stunning. I mean, our Federal laws are pretty good. We should--
in my opinion, we should enforce them. But I am going to ask 
your opinion, all three of you, about something.
    And, oh, by the way, on the subject of marijuana, the 
strangest thing that has come up now is--I know because we 
just--actually, we just defeated the act in Maryland--is to say 
that medical marijuana somehow is good for treating opioid 
addiction. You know, maybe in a couple of cases it is, but I 
have got to tell you, this is dangerous, when we start talking 
about using an addictive drug to somehow think we are going to 
treat another addictive drug with no scientific evidence for 
it.
    Anyway, the surgeon general wrote a report on addiction. 
You know, it is about an inch thick. I don't know if any of you 
have read it. I doubt anybody has read through the whole thing. 
But I was particularly interested, because when I was in the 
Maryland legislature, I sat on the Health Committee, and this 
was a problem, you know, 10 years ago, 12 years ago. Now it is 
an acute crisis, but it was a problem for a long time.
    And the debate that went on was whether or not the States 
should fund faith-based treatment. And it was stunning to me as 
a physician that there are actually people who say, no, we know 
it works, we know it actually has a pretty good record; in 
fact, relative to other methods, a lot of people believe it 
actually has some of the best outcomes. But, nope, we can't 
touch it because it has the word ``faith'' in it. It is faith 
based in some way.
    That bothers me, because if we are really serious about 
doing this and doing everything we can, and we are going to 
bring the government in to help solve this problem, I think we 
have to get over this.
    So I am going to ask all your opinions. Do you think that 
we should include--and oh, by the way, to get back to the 
surgeon general's report, it doesn't mention faith-based 
programs in it. And I pointedly asked them, why doesn't it 
mention faith-based programs? Well yeah, you know, we should--
you know, it is an all inclusive--everything should be 
included. And I say, well, how come you didn't mention the one 
that some people think worked the best?
    So I am going to ask your opinion, this panel, what do you 
think about faith-based programs? Do they have a role? And 
should we seriously consider getting over the fact that it has 
the word ``faith'' in it if we want to treat this problem 
seriously?
    Ms. Hale. I will begin with that, if you don't mind. Yes, I 
think faith-based programs should be definitely included. I 
have a son who is 9 years into recovery, a daughter-in-law who 
is 10 years into recovery. And one of the things that both of 
them have told me is that in their recovery process, and they 
both went through an abstinence-based program, is that they 
know that there has to be something between them and that next 
pill, that next drink, whatever. And for them, they have 
realized, after, you know, 19 combined years, that that faith 
provides that element.
    You know, when I go home this afternoon, there are a lot of 
roads that I can take back to Mount Vernon, Kentucky. But if 
you block one of--the road that I am taking, because it was my 
choice, because I felt like it was the best route, then that is 
going to make me detour or it is going to cause me to be very 
frustrated.
    And I think that is probably what we have done with the 
faith-based treatment programs. We have tried to vilify them 
and undeservingly. I think that those programs that worked, you 
know, there are other roads to take to Mount Vernon, but if I 
choose that one for faith based, I think that we should have 
that support.
    Mr. Cole. I am going to allow all of you to respond to Dr. 
Harris' question, but I would just ask you to be short, given 
the time.
    Ms. Cimaglio. I can go next. Being a State official, we 
support a variety of programs, especially community prevention 
programs. And I know there are people involved in faith-based 
approaches that are participants and part of managing those. So 
we say there are many paths to recovery, and one size doesn't 
fit all.
    So I think whatever we do at a policy level we need to be 
open to a variety of paths that people choose.
    Mr. Guy. I would just quickly say that I think that we 
should--anything should be considered as long as it works. If 
there is research that says it works, it should at least be 
considered.
    Ms. Pacula. And there is research that suggests that it 
does work.
    Mr. Harris. Thank you.
    Mr. Cole. Thank all of our witnesses.
    Next, I want to go to my good friend, a new member on the 
committee, distinguished lady from Massachusetts, Ms. Clark.
    Ms. Clark. Thank you so much, Mr. Chairman.
    And thank you to the panel and the work that you do and for 
being here, and especially to Mr. Guy----
    Mr. Guy. Thank you.
    Ms. Clark [continuing]. For reliving the very worst day and 
phone call to help other families. As a parent of three boys, I 
thank you from the bottom of my heart----
    Mr. Guy. Thank you.
    Ms. Clark [continuing]. For sharing your story and your 
work.
    And in Massachusetts, this is a terrible crisis, much like 
Vermont and Kentucky and other States. We have this terrible 
bond together.
    Two thousand opioid, fatal overdoses in 2016, in 
Massachusetts, and it is trending very young. We are really 
taking out a younger generation. If you are age 25 to 34, one-
third of all deaths in that age group are opioid fatal 
overdoses. And if you are a young man, that is 40 percent of 
all deaths in that age group. We have to do better. And we have 
to listen to Mr. Guy when he quoted St. Francis by starting by 
doing what is necessary.
    And Dr. Pacula, as I looked through your testimony, you 
talked about medical-assisted treatment expansion of narcan 
prescription, drug monitoring, guidelines for safe prescribing, 
and talking about prevention and education and hopefully 
getting to these young people before they are in the throes of 
substance abuse disorder.
    Can we do this on less financial support from the Federal 
Government? Can it be done with less dollars?
    Ms. Pacula. Not right now. If we knew that there were a few 
key strategies that were the special sauce, I would say, yes. 
But the science isn't there to know what few strategies are the 
most effective, and I think we have to take a comprehensive 
approach to discover what is.
    Ms. Clark. Thank you.
    And I wanted to ask Ms. Cimaglio----
    Ms. Cimaglio. Cimaglio.
    Ms. Clark. Cimaglio. Sorry, I should know this. I too am 
from New Haven, so I should know this. Come on. But I wanted 
to--we had Secretary Price in last week, and he would not 
directly answer my questions, but seemed to be doubtful about 
mandating under essential benefits that treatment for substance 
abuse disorder and mental health treatment, that we keep that 
mandate, instead that we go to more of a cafeteria-style 
approach.
    So you can purchase for--a variety of different things, 
including substance abuse treatment from, you know, your 
insurer as need arises. So this is, I guess, in his opinion, 
some sort of liberty that you would be able to not pay for this 
if you did not opt to.
    How do you see an insurance system like that, cafeteria 
style, working from what you have seen in Vermont and the need 
for comprehensive care?
    Ms. Cimaglio. Well, in our State, we have been inclusive of 
all of the elements of the plan as it is right now, and we 
would not want to go backwards. Behavioral health, mental 
health, addiction treatment, is health, and it belongs in 
health care just as fixing a broken arm. And it has been too 
long, you know; it has been too long that we have had to fight 
to have coverage for these afflictions in the package.
    And so we absolutely believe that we should continue to 
support behavioral health, mental health, addiction treatment 
as part of the essential benefit. It is part of what we cover 
in our State, and we want to continue to cover it.
    Ms. Clark. And I guess, my question--maybe Dr. Pacula, you 
could--do you see families who are in the throes of this 
crisis, you know, in dealing with this incredible, devastating 
epidemic, would they be able to go out and purchase, do you 
think--do you see that as a system that would work? Mr. Guy, 
maybe you want to address that. I see you shaking your head.
    Mr. Guy. No.
    Ms. Clark. I have 29 seconds.
    Mr. Guy. No, because, you know, although it would have been 
difficult for us, we could have perhaps paid for some kind of 
treatment. But when you are dealing with an adult son who has 
mental health issues, you can't force them, you know, to do 
something.
    And as I said in my testimony, we are paying for this. We 
are paying for it in the most expensive way, and it makes much 
more sense to do it by education and prevention and treatment.
    Ms. Pacula. If I could add one other point, we are pushing 
really hard to get mental health and substance abuse treatment 
and education done at the primary care level. And if primary 
care physicians aren't reimbursed for that care, they don't 
know when the patient walks in, necessarily, unless the nurse 
tells them, what coverage the person has.
    But if they have to worry about, oh, the patient is going 
to have to pay for this or they can't pay for this, should I 
deliver it, that shouldn't be part of that decision. It should 
be the physician taking the needs of the patient and 
considering the needs independent of ability to pay.
    Ms. Clark. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    I am going to arbitrarily lower us to 3 minutes, just so 
that if anybody hangs around, they have got a chance for a 
second shot, because we don't have that much time left.
    Let me begin with you, Mr. Guy. And obviously, all of us 
felt the power of the story and all of us appreciate you being 
willing to share it. And not to ask you to relive it in any 
difficult way, but you must, like any of us in a situation, try 
to think back, what would have made a difference at a critical 
time.
    I was so struck by your testimony about, you know, 
struggling to, you know--what can we do. Just an average 
person, average family that gets hit with something like this. 
So as you think back, what do you wish you knew that you didn't 
know at the time? What do you wish your government or community 
could have done for you that we didn't do at the time?
    Mr. Guy. Well, that is a really difficult question to 
answer. I guess, I wish that there had been some more 
comprehensive education programs in school. As you well know, 
we have high schools in Oklahoma that have 1,400 to 2,000 
students that may have two counselors, you know.
    So I think education would have been vital. And I think--
you know, it is not that we were reticent to do anything that 
we could do for our child. But if it had been--if it had just 
been part of our health insurance coverage that there were no 
questions asked, I think that that would have been an avenue 
that was open to us that we would have maybe pursued more 
vigorously, you know.
    You know, we do ask ourselves that question many times. But 
I think--again, taking away the stigma, taking away the shame, 
providing opportunities for people to network around these 
issues, I think that would be beneficial.
    Mr. Cole. Well, you are doing your part and doing that just 
by being here and making that testimony and being public, and 
so we thank you for that.
    Mr. Guy. Thank you for the opportunity.
    Mr. Cole. You bet.
    Let me go quickly--I don't have a lot of time left--Ms. 
Hale, to you, because I think you have exactly the same 
perspective, having been a classroom teacher and seeing some of 
these things unfold and now your activity. What can we do, 
again, ahead of time to try and help people before they get hit 
this way?
    Ms. Hale. I think what Mr. Guy said would be what I would 
reiterate for us. We were seeing it in the school system. We 
were averaging in our small county of 16,000 a death a week, 
according to our coroner. And we did not know how to react in 
the school system. Then it came to our own doorstep, and we 
were never educated, we were not told. We went to our family 
doctor. He was like, I don't know what to tell you. I will try 
and call and find some information and things.
    So I think, you know, the prevention, making people aware, 
there has to be a comprehensive approach, and the support for 
families. But I think having people share those stories and 
having a greater awareness within our communities, preparing 
our families, not only how to prevent but how to support when 
that person moves into recovery.
    Mr. Cole. Well, we all want to thank all of you today 
because that is precisely when you are doing, is sharing 
stories that really make a difference.
    With that, I go to my good friend, the gentlelady from 
Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Just a couple of pieces. I think, Ms. Pacula, you will be 
interested to know that there is a piece of legislation, which 
is Promoting Responsible Opioid Prescribing Act; in fact, it 
was introduced in the last session of Congress by 
Representatives Mooney and former Chairman Rogers. It is about 
removing the link between patients' satisfaction surveys about 
pain management and physician hospital reimbursement.
    So if you think that is a worthy cause, it hasn't yet been 
introduced. It is something that I have cosponsored. I am 
hoping my colleagues do, but push people to cosponsor this, 
because I think you are absolutely right.
    I am just going to make this comment. Ms. Hale, you talked 
about the value of your AmeriCorps volunteers. I am going to 
plead with you to make your voice heard on that because we are 
looking at the potential possibility of seeing the elimination 
of AmeriCorps and the Senior Corps, which, as I hear from you--
and it is just a yes or no from you--that has made a real 
difference for what you can do.
    Ms. Hale. It has, because of their prevention curriculum 
that they are teaching.
    Ms. DeLauro. Fabulous. Please speak up.
    Let me just ask a question with regard to naloxone, and 
that is, Vermont has a standing order on naloxone. Some States 
have similar processes. I am not going to go through all the 
information here, but basically my question is, given that the 
experience of a standing order, do you think that this kind of 
access should be available in all States? Why are States not 
doing this? And do you think naloxone should be reclassified as 
over the counter? I am going to ask you, please.
    Ms. Cimaglio. Yes. We do have a standing order. We have 
tried to spread naloxone throughout the whole State through 
emergency responders, police departments, recovery centers, 
treatment centers, needle exchanges, et cetera. So I think it 
should be available.
    I think it is one of the reasons we have been--of all the 
New England States, we are the only one that isn't seeing a 
statistically significant rise in our overdoses. And I think it 
is because of naloxone and our increased access to treatment.
    Ms. DeLauro. Over the counter?
    Ms. Cimaglio. Yes.
    Ms. DeLauro. Over the counter, Ms. Hale, naloxone?
    Ms. Hale. I think every life is worth, you know--we have 
not really dealt with that that much.
    Ms. DeLauro. Okay. Ms. Pacula.
    Ms. Pacula. Yes.
    Mr. Guy. Absolutely.
    Ms. DeLauro. Okay. Thank you.
    Do you think--I have just got 27 seconds here--should we 
require physicians to follow the CDC guidelines for 
prescribing? CDC, understanding, is not a regulatory agency, 
but should we require physicians to follow these guidelines? 
Yes or no from you guys.
    Ms. Pacula. It depends on the patient.
    Ms. DeLauro. Okay. Mr. Guy.
    Mr. Guy. I don't really--I am not able to comment on that, 
but I think it is good to think about.
    Ms. DeLauro. Okay.
    Ms. Cimaglio. Yes.
    Ms. DeLauro. Yes.
    Ms. Hale. I think it depends on the patient as well.
    Ms. DeLauro. Okay. Thank you.
    Mr. Cole. Just for the record, I am tough, but I am not 
mean. I would give you the time.
    Ms. DeLauro. Well, thank you. If we have any more time, I 
will take it later, Mr. Chairman.
    Mr. Cole. Okay. Well, we have been joined by one of our 
distinguished members, Ms. Herrera Beutler, from Washington. 
And in this case, she will get the full 5 minutes because she 
did not have an opportunity to participate in the first round.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Thank you, all, for being here.
    I am going to read my first question because I want to get 
it out. And this is for Ms. Cimaglio--am I saying it right? 
Great.
    Our Nation's opioid epidemic has particularly been 
devastating for infants, among others. Recent data suggests 
that there has been a fivefold increase since 2000 in infants 
experiencing drug withdrawal after birth. I have actually seen 
this happen in certain instances and a NICU situation. And this 
is known as neonatal abstinence syndrome.
    We hear gaps about access in treatment across the board, 
but I want to ask specifically about pregnant women and 
parenting women. The GAO conducted a review of programs and 
stated in their 2015 report that the program gap most 
frequently cited was the lack of available treatment programs 
for pregnant women. And we know this population is incredibly 
vulnerable, but also oftentimes extra motivated to seek 
treatment, for obvious reasons.
    So can you speak to the treatment gaps for pregnant women 
and parenting women in both residential and nonresidential 
settings, and what would be needed to close that gap? And in 
addition, how can we ensure that the States receiving Federal 
funds are addressing and prioritizing treatment for pregnant 
and parenting women with substance abuse disorders?
    Ms. Cimaglio. Well, first of all, pregnant and parenting 
women are a priority for our Federal block grant funds, so we 
do have to prioritize them, just to be clear on that.
    However, I think we, particularly in rural States, struggle 
with the availability of specialized programs that serve women 
and families. So I think we need more resources that can really 
help us provide those specialty programs that cannot only focus 
on the addiction but also on the comprehensive needs of those 
families in treatment.
    In terms of the neonatal abstinence and all that comes with 
that, I think a close collaboration with the child welfare 
system so that we are reaching the highest risk families and 
making sure that we get them into treatment. And also specialty 
neonatal units and physicians who have that expertise at our 
largest medical center in Vermont, we do have a special 
program, and it has been lifesaving.
    We are seeing for those moms in treatment who deliver 
babies with neonatal abstinence syndrome, those in the program 
are experiencing fewer days in the NICU, better outcomes. And 
so NAS is not negative if we are doing all the right things, 
but we need the resources to make sure that we can deliver 
evidence-based treatment.
    Ms. Herrera Beutler. Great. Thank you.
    And I have a couple--I have one more, one about drug take-
back that I wanted to ask, but I kind of wanted to throw this 
one open to the group because it is something I have been 
pondering on. I did a roundtable this summer with a--it was 
DEA-type folks, it was law enforcement, it was former--or 
addicts who have been overcoming their disease. It was a pretty 
good, robust group. It was medical providers.
    And it was really, for me, a learning experience, what 
should I be considering in this epidemic that we are trying to 
fight. And it was actually the gentleman to my--who sat next to 
me who had been exposed at a very young age, had been 
overcoming a pretty serious addiction, but had gone through the 
whole--I mean, he went to the end and back.
    And he--I am from Washington State. And he commented at one 
point because some--I don't know who brought it up, but 
Washington State has legalized marijuana for recreational 
purposes, not for medical purposes. I draw that distinction. 
And he jumped in to comment on it and said it was--he was--and 
I am paraphrasing but it was a big mistake, as someone who had 
been down a pretty tough road. And he elaborated on that.
    And I was just wondering if anybody who has been impacted 
by this, if anybody on the panel had any comments on that?
    Mr. Cole. I would ask you all to be brief.
    Ms. Herrera Beutler. Oh, yes. I have 48 seconds.
    Ms. Pacula. We are currently doing research to evaluate the 
impact of adoption of these--we have looked at medical 
marijuana laws, the recreational laws on the opioid epidemic. 
There appears to be a correlation, but the question is who is 
changing use. And to the comment about whether it is useful for 
opioid treatment, there is no science at all.
    To the question of whether or not it could help as an 
alternative form of chronic pain management for certain types 
of pain, there is suggestive evidence, depends on the products. 
Again, it should be done with physician oversight, but it is--
--
    Ms. Herrera Beutler. I am interested in that report when it 
comes out. And that is probably all I have got.
    Thank you.
    Mr. Cole. Thank you very much.
    I want to next go to the gentlelady from California for 3 
minutes.
    Ms. Roybal-Allard. Ms. Hale, the drug-free communities 
program has been an essential, bipartisan component of our 
Nation's substance abuse prevention since its passage in 1998. 
And over the years, the number of grantees has increased from 
92 original grantees to more than 2,000. However, despite 
growth of the program, there has only been enough money over 
the years to fund 32.7 percent of the communities that applied 
for funds.
    I understand that Operation UNITE is part of Carter 
County's DFC grant, and that you told us your community has 
been--or has seen massive reductions in youth drug use and 
improvements in college career readiness and even in graduation 
rates.
    What do you consider to be the reasons for the success of 
the DFC program in your community? And based on your 
experience, do you believe we should be putting more emphasis 
on investing in effective prevention programs like the DFC 
program and Operation UNITE?
    Ms. Hale. Yes, I do. I do believe that we need more 
funding. Carter County is one of several of our counties in the 
Fifth Congressional District that has a DFC community grant.
    I think the success to it has been with those coalitions, 
that organization of people within that community, within that 
county, having the funding to do those education programs, to 
provide the awareness, the treatment. It has made a world of 
difference in having people who can go into the school system, 
who can go into the civic organizations, who can go out into 
the community because of the funding that they are able to 
provide to bring in programming, to bring in training.
    And so the drug-free community grants have been invaluable 
in rural Kentucky in helping those communities that are most 
hard hit.
    Ms. Roybal-Allard. Okay. Thank you.
    I yield back.
    Mr. Cole. I thank the gentlelady.
    We next go to Ms. Clark for 3 minutes.
    Ms. Clark. Thank you, Mr. Chairman.
    Dr. Pacula, we know that frequently substance use disorder 
starts in adolescence, and there are unique brain development 
issues continuing on into a person's 20s that can be impacted. 
Has RAND studied the particular challenges of looking at 
understanding and treating substance use disorder in 
adolescence and young adults?
    Ms. Pacula. Actually, we have done a lot of work on that, 
and we have found that therapies and strategies to some extent 
differed than adults in some ways. But indeed, treatment can be 
very effective with adolescents, as well as with some adults. 
It may need to be a coerce treatment. Not everybody goes into 
treatment willingly, with acknowledging a problem, and coerce 
treatment can be effective.
    Ms. Roybal-Allard. Have you looked at MAT particularly with 
adolescence? Have you looked at medically assisted treatment?
    Ms. Pacula. I don't know. I can get back to you on that.
    Ms. Roybal-Allard. You mentioned it in your testimony, and 
part of the figures we were looking at was that as of 2014, a 
study was done, 89 percent of people struggling with substance 
use disorder did not receive treatment. And you mentioned that 
sometimes there is a cultural or perception of a practice that 
may be driving part of that.
    Can you give us a better sense of why doctors aren't taking 
advantage of MAT as an population for their patients? Is there 
a structural, a regulatory, a cultural problem?
    Ms. Pacula. There is a concern about replacing one 
addictive good with another addictive good. Because medication-
assisted therapy is not something that everybody can go off of. 
It is for some. It is a life-long medication, just like some 
people need to have blood control medication. And depending on 
the nature of the product, it could have similar effects on the 
body.
    Our methadone in the U.S. is different than the methadone 
delivered in, say, Australia, which actually still has 
psychoactive properties. Our methadone does not. So the long-
term implications are not as severe. But there has to be, 
obviously, a willingness to consider for certain patients. The 
right form of therapy will depend on their own beliefs about 
their willingness to initiate this therapy.
    We use these things for detox all the time. The question is 
whether or not we maintain it for long-term therapy. The 
struggle with treatment, why treatment sometimes doesn't work, 
is it is too short. They leave and they overdose. Medication-
assisted therapy can reduce those cravings, but there is the 
concern about being tied to another substance.
    Ms. Clark. And in my last 15 seconds, do you think it is 
helpful to be working with doctors, in particular, to identify 
and address substance abuse disorders and dealing with pain 
prescriptions? It seems like it is an area in medical school 
that isn't as covered as much as we might think.
    Ms. Pacula. Absolutely.
    Ms. Clark. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. You bet. Thank you.
    We next go for our last questions to the gentlelady from 
Washington, Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Obviously, we are inundated with prescription medications. 
And what I have seen in this whole conversation and have heard 
so much about is people have leftovers, and they put them in 
their medicine cabinet. And in a family, you have all members 
of a family coming in and out of those rooms where those are 
stored.
    And I think there are--you know, I have seen some 
stewardship models that are great. I think the biggest 
challenges are at the county level in some areas, in some 
States. And there is no State-wide take-back program. I mean, 
there is a 1 day--or there is an event, but there is nothing 
big picture that is ongoing, because you don't know when you 
are going--you know, when you don't need it anymore and what 
you are going to do with it. It may not coincide with that 1-
day event.
    So beyond the DEA's take-back event, where can the Federal 
Government invest resources efficiently to ensure that the 
unused medications are safely disposed of? That is for anybody.
    Ms. Cimaglio. Yeah. I can say, in our State, we have done a 
lot of work on this. And the biggest question we get is why 
can't pharmacies take back unused medication. They have the 
permits to hold and dispense; why can't they be the ones who 
also take it back?
    Because for law enforcement, they are worried about 
amassing large quantities and the security of their evidence 
rooms and so forth. So that is the biggest question that I get 
is, why can't the Federal Government do something about the 
pharmacy's responsibility.
    Ms. Herrera Beutler. Any other thoughts on that?
    Ms. Hale. One of the things that we have with Operation 
UNITE is going through our coalitions. We have a take-back box 
in every county in the sheriff's office, but we did a great 
deal of educating with the sheriffs, with the community on how 
important it was to dispose of those medications properly. It 
has been extremely successful.
    Our detectives are the ones who go in and empty those and 
work with the DEA in keeping track and everything of that. But 
it has taken a great deal of education to help people realize 
the importance of proper disposal and working in the 
communities.
    Ms. Herrera Beutler. And with my last 46 seconds, on my 
last question about marijuana use, I didn't know if anybody 
else had any thoughts?
    Ms. Hale. You know, I think when it comes to marijuana, I 
have to go back to what Yoda said in Star Wars: ``Mind what you 
have learned. Save you it can.'' And I think we can look back 
at the history of tobacco, we can look at the history of 
alcohol. And, you know, knowing what we have learned from Dr. 
Volkov, from NIH and things, you know, do we need a third legal 
drug that can do the damage that we now are realizing, like 
tobacco and alcohol did.
    Ms. Cimaglio. And we come back to the importance of 
prevention. Whatever we do, we have to keep our focus on the 
prevention.
    Mr. Guy. I will tell you that we know now that our son 
started smoking marijuana when he was twelve. I don't know 
whether that led to his subsequent death, you know, nobody 
knows, but that is fact.
    Ms. Pacula. And it can be tied with tobacco. I spoke to 
high schoolers just last year, and they were completely unaware 
that there was marijuana in vape pens. They thought they were 
just doing flavored oils and possibly nicotine, not realizing 
that some of them do, in fact, contain marijuana. So educating 
adults and children on how this is getting to them is also very 
important.
    Ms. Herrera Beutler. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. Anytime you have run a hearing where the figures 
quoted range from St. Francis to Yoda, you know you have 
covered a lot of ground. I want to congratulate you, but I want 
to call on my friend, the ranking member, to offer any final 
observations or comments that she cares to.
    Ms. DeLauro. Thank you again, Mr. Chairman.
    I was struck by this headline, and it is a story that 
appeared in my local papers, but it is about Milwaukee. And it 
is, ``Youngest Opioid Victims Are Curious Toddlers,'' which 
is--this is a staggering article.
    Sorry we did not get to talk about hub and spoke, but maybe 
we can do that offline. And just to mention that I think what 
you have said is that there is the importance of the substance 
abuse prevention and treatment block grant. That is critically 
important. Please make your voices heard. There may be an 
attempt to cut that program by about 18 percent. That would be 
devastating.
    Mr. Chairman, there is this article St. Louis Post-
Dispatch: ``Social Change and Economic Disappointment Create an 
Epidemic of Deaths by Despair.'' Sometimes we lose track of 
what the effects of potentially economic despair have in 
people's lives.
    I just think, this is a study that has been done by two 
Princeton University economists. They found that between 1999 
and 2014 middle-age, 45 to 54 white Americans with a high 
school education or less died at a rate never before seen in a 
modern industrial society. Suicides, drug overdoses, liver 
disease caused by alcohol poison, and that is what they have 
classified as death by despair.
    What they--in the report to Brookings, they suggest that 
while income inequality and wage stagnation may play a 
background role, it is a lifetime of cumulative disadvantage 
catches up with the demographic.
    A slice of the population hit the job market as low-skilled 
jobs were being mechanized, computerized, globalized. They grew 
into adulthood as cohesion-building social institutions like 
marriage, family, and churches became weaker. They didn't have 
spouses often, pastors, work buddies, or kids to back them up. 
They did have opioid painkillers that added fuel to the flames 
making the epidemic much worse than it would have otherwise 
been. They found that among men in the labor force, nearly half 
are taking pain medication most often by prescription.
    Mr. Chairman, I just say that if we do not begin to 
understand the economic issues that people face in their lives, 
and oftentimes the disasters that are not of their making and 
that relationship to what we are seeing today in drug 
overdoses, suicides, and other ways in which people's lives 
are--and health ways being affected, then we are not going to 
be able to do the job that we were tasked to.
    These problems are all related and interconnected. And you 
have to address all of them. And you have got to walk and chew 
gum at the same time if we are going to help to try to make a 
difference in people's lives.
    You are really, truly remarkable individuals that we have 
heard from today. Thank you so much.
    Mr. Cole. Would the gentlelady like to submit the article 
for the record?
    Ms. DeLauro. I would very much like to do that.
    Mr. Cole. Without objection.
    Ms. DeLauro. Thank you very much.
    Mr. Cole. I just want to conclude again by thanking each 
and every one of you. In many cases, you have come from a long 
way away and you have got very important stories and very 
important expertise to share with this committee and the 
Congress as a whole and, frankly, through them, beyond that to 
the American people.
    I appreciate more than I can say the fact that you were 
willing to do that. Believe me, your testimony--as you could 
see, the committee was awfully engaged and awfully moved by 
what you had to say.
    I also want to tell the committee members how proud I am of 
them, because I can tell you, they all did their homework. I 
don't know how many times, I read your testimony, I did that. 
And, again, that is a sign of the seriousness, and it is also a 
sign of how respectful they are of your expertise your 
contribution here today.
    So, again, thank you, very, very much.
    Mr. Guy, in particular, thank you. All this testimony was 
helpful. Yours was probably the most personally difficult to 
deliver but probably the most important for us all to hear, 
because we all know, there for the grace of God go I.
    And we all know somebody else or some other family that has 
walked this same very difficult journey. And it is important 
that the personal dimension here be put on this because I think 
that is the most compelling thing to get people to act and to 
change.
    As Ms. Hale said, stories make a lot of difference. And 
anecdotes and, you know, and humanizing something so it is not 
just statistics and policy, you know, is a powerful motivation 
for political change.
    Again, I want to thank my good friend, the ranking member. 
This was a great hearing. And with that, we are adjourned.

                                           Wednesday, May 17, 2017.

           OVERSIGHT HEARING--ADVANCES IN BIOMEDICAL RESEARCH

                               WITNESSES

DR. FRANCIS COLLINS, DIRECTOR, NATIONAL INSTITUTES OF HEALTH
DR. ANTHONY S. FAUCI, DIRECTOR, NIH, NATIONAL INSTITUTE OF ALLERGY AND 
    INFECTIOUS DISEASES
DR. GARY H. GIBBONS, DIRECTOR, NIH, NATIONAL HEART, LUNG, AND BLOOD 
    INSTITUTE
DR. JOSHUA A. GORDON, DIRECTOR, NIH, NATIONAL INSTITUTE OF MENTAL 
    HEALTH
DR. DOUGLAS R. LOWY, ACTING DIRECTOR, NIH, NATIONAL CANCER INSTITUTE
DR. NORA D. VOLKOW, DIRECTOR, NIH, NATIONAL INSTITUTE ON DRUG ABUSE

                             Introductions

    Mr. Cole. Good morning. We will go ahead and bring the 
committee to order because I want to try and stay on time. 
There seem to be other activities this morning that seem to be 
distracting people, but we are going to do our work.
    Anyway, good morning. It is my pleasure to welcome you to 
the Subcommittee on Labor, Health and Human Services, and 
Education to discuss the National Institutes of Health and the 
recent advances in biomedical research. We are looking forward 
to hearing the testimony of Dr. Collins.
    And I would like to publicly thank Dr. Collins and the 
staff at the NIH for hosting our subcommittee members and 
myself for our annual briefing and tour at the NIH campus in 
February. As usual, all the members learned a lot about the 
important work that you do every day to improve the health of 
Americans and people around the world.
    Investment in NIH has been the key driver in making the 
United States the world leader in biomedical research and has 
led to vast improvements in life expectancy and the quality of 
life. The NIH is the primary source of funding for basic 
medical research not only on the NIH campuses, but also at 
2,500 universities and research institutions in every State.
    I am very proud that Congress increased NIH funding by 
$2,000,000,000 in the fiscal year 2017 omnibus spending bill. 
Congress also passed the 21st Century Cures Act last December, 
which will build upon and greatly enhance the efforts to find 
cures for diseases such as cancer and Alzheimer's.
    I was, therefore, especially disappointed to see a proposed 
budget cut to the National Institutes of Health this year. I am 
concerned that the reductions in the request would stall 
progress that our recent investments were intended to achieve 
and potentially discouraging promising scientists from entering 
or remaining in biomedical research.
    Personally, I believe that continued investment at the NIH 
is extraordinarily important to bending the cost curve on 
healthcare in general for the American people. It is also the 
key to protecting the American people from pandemics like Ebola 
and Zika, which will certainly happen again in the future.
    And finally, I think keeping America at the forefront of 
this is not only important for us in terms of our healthcare, 
it is important for our economy and, frankly, it is important 
for American global leadership. It is something this country 
can be extraordinarily proud of as a contribution, not only to 
the well-being of its own citizens, but to people all over the 
world.
    We have been a very blessed country and we have 
responsibilities, honestly, in accord with those blessings, and 
this is one of the areas in which I think our country can be 
proud, wherever you are on the political or ideological 
spectrum, of the contributions we have made as a people to the 
well-being of all of humanity.
    I look forward to hearing about the recent progress in 
biomedical research as well as about how the NIH will focus 
resources on its top priorities in the upcoming fiscal year. I 
intend to work with you going forward to maintain momentum 
towards developing new treatments and cures for diseases while 
achieving efficiencies and being a responsible steward of 
taxpayer dollars.
    I welcome, of course, Dr. Francis Collins, the NIH 
director, to the subcommittee. Dr. Collins is accompanied by 
five of his institute directors, who can assist answering 
specific member questions. They are Dr. Anthony Fauci, the 
director of the National Institute of Allergy and Infectious 
Diseases; Dr. Doug Lowy, the acting director of the National 
Cancer Institute; Dr. Gary Gibbons, the director of the 
National Heart, Lung, and Blood Institute; Dr. Joshua Gordon, 
director of the National Institute of Mental Health; and Nora 
Volkow, the director of the National Institute on Drug Abuse.
    As a reminder to the subcommittee and our witnesses, we 
will abide by the 5-minute rule.
    Before we begin, I would like to yield the floor to my good 
friend, the ranking member, the gentlelady from Connecticut, 
for any opening remarks she cares to make.

                          Remarks Rep. DeLauro

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And I too want to welcome Dr. Collins, director of the 
National Institutes of Health, as well as Dr. Lowy, Dr. Fauci, 
Dr. Gordon, Dr. Gibbons, Dr. Volkow. Thank you. Thank you so 
much for being here this morning to discuss the future of 
funding for the National Institutes of Health.
    The sheer talent on your side of the table cannot be 
overstated. You and the work that you do with the NIH represent 
the power to do more good for more people than anything else 
within the purview of our government.
    The NIH is the leading biomedical research entity in the 
world, and my colleagues on the subcommittee have often heard 
me say that medical research is special. A breakthrough at the 
NIH saves not just one life, but potentially millions over 
generations to come. That breakthrough can improve the life of 
not just a sick individual, but the lives of their loved ones, 
caretakers, and friends. That is what the NIH represents. As a 
survivor of ovarian cancer, this is personal to me.
    Everyone on this committee recognizes the importance of 
restoring purchasing power for the NIH, and I want to say a 
thank you to Chairman Cole and all of the members of the 
subcommittee for their bipartisan work to support NIH research 
in the past. Last year Congress showed once again that the NIH 
is a bipartisan priority by providing an additional 
$4,800,000,000 over 10 years through the 21st Century Cures 
Act.
    The Trump administration's budget proposal, however, would 
eliminate that entire amount in just 1 year by cutting 
$8,000,000,000 from the NIH. This would decimate the NIH, 
reducing the agency's research purchasing power to a level not 
seen since the 1990s.
    We cannot turn back the clock on lifesaving biomedical 
research. This is not just theoretical. When we face a public 
health emergency, NIH research is often our best tool to combat 
the tragic loss of life. You take Ebola. Just Friday, the World 
Health Organization declared an outbreak in the Democratic 
Republic of the Congo, which is why the work that you are doing 
to develop a vaccine remains critically important, not just for 
public health, but for global security. It is clear that the 
Ebola crisis is not over.
    Last week, one of my committee staff members visited Puerto 
Rico to meet with the principal investigator of a phase II 
clinical trial of the Zika vaccine candidate. The vaccine 
candidate was developed by the NIH. Those are NIH dollars at 
work.
    The administration's budget proposal would also completely 
eliminate the Fogarty International Center. This program 
represents only a sliver of the NIH's budget, yet it has an 
outsized impact on the prevention and the mitigation of 
outbreaks abroad. Their work helps to ensure that diseases are 
quickly contained and never reach our country.
    The Fogarty Center has actively increased capacity in 
countries facing health crises like Ebola, they have trained 
some of the best practitioners on the ground, accelerating 
discoveries and building essential infrastructure. As we have 
seen with the diseases like Ebola, Zika, HIV/AIDS, public 
health emergencies know no borders.
    In fiscal year 2016, the NIH funded 35,840 grants. In 2017, 
under the omnibus we passed just 2 weeks ago, the NIH should be 
able to fund an additional 1,500 grants. This is the direction 
that we need to be moving in. But a cut of $8,000,000,000, like 
the administration has proposed, could eliminate approximately 
5,000 to 8,000 grants. In Connecticut, a cut of the NIH 
magnitude could result in our State losing our $100,000,000 or 
over 250 grants.
    Sixteen years ago, NIH funded about one in three 
meritorious research proposals, but today that rate has fallen 
to about one in five, a slight improvement over recent years, 
but still low by historical standards. We are missing 
opportunities to work toward cures for life-altering diseases 
that affect far too many people. Those unfunded grants 
translate to medical discoveries not being made, lives not 
being saved.
    We are choosing to hamper our progress as a Nation, we are 
choosing to ravage our medical community, and it makes you just 
wonder why we would move down that road. And even without this 
proposed cut, NIH's budget has declined by nearly 
$6,500,000,000 since 2003 when you adjust for inflation.
    While the NIH is now funded at an all-time high of 
$34,100,000,000 thanks to the $4,000,000,000 of increases over 
the last 2 years, funding has not kept pace with the rising 
cost of biomedical research. Think about the choice we would be 
making if we cut already insufficient funding even further.
    In the last Congress, I introduced the bipartisan 
Accelerating Biomedical Research Act, which would reverse the 
devastating funding cuts to the NIH and attempt to provide 
stable, predictable growth for years to come. It would untie 
the hands of the committee, it would allow us to go above the 
caps. This is the same mechanism that we use for the healthcare 
fraud and abuse account. This would set us on the path of 
doubling the NIH budget, as we did in the late 1990s under 
Chairman John Porter.
    Investing in the NIH creates jobs, because biomedical 
research is a driver of economic growth. And diminishing the 
NIH's ability to conduct basic science research would result in 
fewer discoveries, which would lead to fewer cures and 
therapeutics being developed by the private sector because of 
basic science research that the NIH does.
    I am almost inclined to dismiss the administration's 
budget, but I cannot ignore it. It would be a disservice to the 
American people to pretend that it does not exist. It does 
exist. In fact, senior officials like HHS Secretary Tom Price 
and OMB Director Mick Mulvaney have tried to defend it.
    There is no defending cutting thousands of research grants. 
The budget would inflict immeasurable harm on one of the jewels 
of our scientific research. This proposal should be dead on 
arrival. We should be talking about increasing the NIH's budget 
by $8,000,000,000, not cutting it by $8,000,000,000.
    I thank all of you. I look forward to your testimony and I 
look forward to your new discoveries today and your new 
discoveries in the future. Thank you for the work that you do.
    Thank you, Mr. Chairman.

                         Remarks by Rep. Lowey

    Mr. Cole. I thank the gentlelady.
    And we have been joined by the ranking member of the full 
committee, and we will move to her. Just for purposes of 
announcement, we may well be joined by the full committee 
chairman, and if that is the case, I will certainly recognize 
him when he arrives for whatever opening remarks he cares to 
make.
    So with that, it is my great pleasure to yield to the 
gentlelady from New York for whatever remarks she cares to 
make.
    Mrs. Lowey. Well, a lot going on this morning.
    Thank you very much to my friend Chairman Cole and Ranking 
Member DeLauro for holding this hearing. I would also like to 
thank our distinguished panelists, Dr. Fauci, Dr. Gibbons, Dr. 
Gordon, Dr. Lowy, Dr. Volkow, and Dr. Collins for joining us 
today.
    I never thought I would be troubled by a hearing on Federal 
funding for the NIH. Ordinarily, this is one of the best 
hearings of the year with the leading scientists in the world 
on groundbreaking medical breakthroughs, and partisan politics 
usually falls by the wayside as we marvel at the advances your 
work is making to improve the lives of Americans.
    And I must say at the outset, I look forward to working 
with our distinguished Chairman and Ranking Member and all the 
members of the committee in a bipartisan doubling of the money 
to the NIH, because I remember I served with John Porter. I 
don't know what that wonderful smile is, but I thank you, Mr. 
Chairman. I am not going to read your mind. I will leave that 
for anybody else. But I look forward to working together, 
because we have done it before and I hope we do it again.
    So it is with this spirit that this committee negotiated an 
increase of $2,000,000,000 for the fiscal year 2017 spending 
bill, and yet a dark cloud hangs over us today. The Trump 
administration has proposed an $8,000,000,000, or 24 percent, 
cut to the NIH budget. I barely can say it. This would result 
in 5,000 to 8,000 fewer annual research grants, a direct 
assault on universities' research centers by targeting so-
called indirect costs, and the elimination of the Fogarty 
International Center.
    These cuts would decimate biomedical research and the 
economy. According to a recent study, it would amount to losses 
of nearly 90,000 jobs, more than $15,000,000,000 in economic 
activity. In my home State of New York, nearly 6,500 jobs would 
be lost and communities would take a $1,300,000,000 hit 
economically.
    As for medical research under the Trump budget, America 
would cede our global stature, medical advances could be 
stalled, suffering would increase, and for many, the cure that 
is right around the corner would now be out of reach.
    At a time when the NIH is taking the lead on the Cancer 
Moonshot, precision medicine, the BRAIN Initiative, and so much 
more, we must commit to increasing funding, not abiding by 
arbitrary and misguided attacks on the NIH and science itself.
    Earlier this year, members of this subcommittee met with 
researchers at the NIH. We heard from scientists devising new, 
more effective ways of targeting prostate cancer and 
researchers doing groundbreaking work on understanding the 
working of the human brain. We capped off our day meeting with 
a group of young researchers. These men and women will lead 
medical advances for a generation if we continue to invest in 
their impressive work.
    And I do want to say, because I visit schools and labs all 
the time, and we don't want to see these young researchers 
decide, ``Hmm, I am going to be out of work next year. I better 
go to Yahoo and Google.'' I don't want to say there is anything 
wrong with Yahoo and Google, but we want to make sure there are 
continued incentives so they work on your absolutely essential 
lifesaving investments.
    The Trump budget signals that the United States will no 
longer be the leader in biomedical research, that these young 
researchers should look abroad to pursue their careers. If a 
budget is a statement of our values, then this one is a slap in 
the face to the scientific community and, frankly, to the men, 
women, and children depending on research to save and improve 
their lives.
    I do hope my colleagues will join me in defeating the Trump 
proposal. We have a responsibility on this committee to do so. 
We cannot slash these vital healthcare and economic engines.
    And thank you again for all you do to improve the lives of 
Americans. And I look forward to your testimony.
    Mr. Cole. I thank the gentlelady. And just so she knows, I 
was smiling at your opening remarks because you reminded me so 
much of my mother, who used to, any accomplishment, would say, 
``Oh, that was wonderful,'' and then nudge me and say, ``But I 
think you could do a little better.'' So it is always good to 
have my friend with us.
    Mrs. Lowey. I just have to say that I have confidence in my 
friend, the chairman. And I know as we move forward, not as his 
mother, but as a good friend--at least he didn't say 
grandmother--I know, as a good friend, we will work together, 
because this committee has always been on the lead. And thank 
you for your kind words. I love my mother.

                        Statement of Dr. Collins

    Mr. Cole. You would have loved mine. She would have loved 
you as well, by the way. But, again, I thank the gentlelady for 
her comments.
    And, Dr. Collins, we want to go to you for any opening 
statement you care to make to the committee.
    Dr. Collins. Well, good morning, Chairman Cole, Ranking 
Member DeLauro, distinguished member Mrs. Lowey, and all of you 
distinguished members of this subcommittee. It is an honor for 
my colleagues and me to be here before you today.
    I especially want to thank you for the recent 
appropriations increase for fiscal year 2017, which built on 
your fiscal year 2016 investment. And I promise you, your 
sustained commitment to NIH will ensure that the U.S. remains 
the global leader in biomedical research, with all that means 
for human health.
    I am going to ask you to turn your attention to the screen. 
Today I would like to highlight several areas of exceptional 
opportunity, including a few patients whose lives depend on 
advances, along with some young investigators who are working 
hard to make these dreams come true.

                       INVESTING IN BASIC SCIENCE

    Let's start with an opportunity that shows the 
transformational power of investing in basic science at NIH. 
Imagine you could determine the precise molecular structures of 
proteins targeted by pharmaceuticals and see exactly how they 
interact with each drug. This is starting to happen thanks to a 
new technology called cryo-EM.
    This image you see here shows in atomic-level detail the 
structure of a protein channel of great interest. The channel 
is indicated in gray mesh here. And this channel regulates salt 
and water balance in the lungs so that it can travel through 
that channel from inside to outside of the cell.

                           1. CYSTIC FIBROSIS

    This protein is a famous one, but we just learned its 
structure 2 months ago. It is the one that is miscoded in 
people with cystic fibrosis, or CF, our Nation's most common 
fatal genetic disease.
    New structural information is key to designing better drugs 
to help patients with CF, like little Evelyn Mahoney, who will 
be celebrating her second birthday in just a few weeks. 
Evelyn's life hasn't been easy. She required surgery for an 
intestinal blockage shortly after birth. But she is doing 
pretty well now. Just a few decades ago, she probably wouldn't 
have been able to make it past her teens, but no longer. Today, 
we have two FDA-approved targeted drugs for cystic fibrosis and 
much more to come, all building on NIH-supported basic 
research. And we are not done. Our goal is to turn CF into a 
100 percent curable disease.
    For that, we need the next generation of scientific talent. 
Among those early stage investigators tackling this challenge 
is Stephen Aller of the University of Alabama. Trained in both 
computer science and biology, he plans to transform, using 
cryo-EM, in fundamental ways how we design and deliver drugs 
for all kinds of conditions.

                             2. SICKLE CELL

    A second case. Treatments only exist for 500 of the 7,000 
diseases for which a molecular cause is known. Among those in 
desperate need of breakthroughs is sickle cell disease, a life-
threatening disorder in which red blood cells are deformed in a 
way that clogs small blood vessels. Sickle cell disease is 
caused by a genetic misspelling. It was understood 60 years 
ago, but we still can only cure this by a bone marrow 
transplant from an unaffected donor.
    Now, that can work really well for some patients, like 
Chris Sweet, who is shown here with his family. Chris received 
a transplant at the NIH Clinical Center 6 years ago and is now 
essentially cured. But unfortunately, most patients with sickle 
cell disease don't have a well-matched bone marrow donor, and 
it is too risky otherwise.
    So what if we could actually correct that genetic sickle 
misspelling in a patient's own blood cells. A few years ago, I 
would have said that is just not likely, but no more. NIH's 
Courtney Fitzhugh is seeking to use a new gene editing system 
called CRISPR to modify the bone marrow stem cells in people 
with sickle cell disease. The goal is to fix the underlying 
genetic defect and make the patient's own cells healthy.
    If Courtney and other young scientists can get this to work 
for sickle cell disease, and I believe they can within a 
decade, just imagine what they might do for thousands of others 
still awaiting a cure.

                               3. CANCER

    Another tough challenge is cancer. Imagine a world in which 
we could consistently and reliably cure this long-time foe. In 
your visits to NIH, you have met folks with advanced cancer who 
are enrolled in clinical trials of immunotherapy. One of them 
shown here is Judy Perkins Anderson, here meeting with 
Secretary Price and researcher Steven Rosenberg. Judy came to 
NIH with breast cancer that had already spread to her liver, 
the dreaded stage 4. All efforts at chemotherapy had failed. 
Her only hope was a trial that sought to activate her own 
immune system to attack the cancer, yet this approach had never 
worked before for breast cancer.
    First, one of Judy's tumors was removed. The immune cells 
in it were examined. It turned out those immune cells were 
asleep and not going after the cancer as they should. So Dr. 
Rosenberg's team grew these cells up in a lab dish and took 
them to school, taught them what to look for, and those 
educated cells were then infused back into Judy, and a battle 
raged.
    Now, a year and a half later, it is clear Judy's immune 
system won. She has no signs of disease. She appears to be 
cured from metastatic breast cancer. What an amazing story.
    But sadly, immunotherapy doesn't always work this way. We 
have miraculous outcomes and then we have disappointments. We 
need to understand why, and for that, we need to better 
understand the human immune system.

                         4. YOUNG INVESTIGATORS

    So enter Matthew Spitzer of the University of California 
San Francisco, who is creating a detailed atlas that will help 
reveal the many ways in which human immune cells can be 
activated. If young scientists like Matt succeed, they will 
expand the promise of immunotherapy, not only for cancer, but 
potentially for other conditions as well.
    So all of us here are motivated by a sense of urgency to 
help patients in need of breakthroughs. The next generation of 
innovative and passionate young researchers will be the most 
critical part of achieving that brighter future. Our Nation's 
health and well-being depend on your strong support for them.
    So thank you, Mr. Chairman, and we welcome your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
 CONTRIBUTIONS OF BIOMEDICAL RESEARCH IN BENDING COST ON MEDICARE AND 
                                MEDICAID

    Mr. Cole. Thank you. And let me begin by, number one, 
congratulating you on your distinguished stewardship there, Dr. 
Collins. And every member of this committee is supportive of 
you and appreciative of the way in which you have interacted 
with all of us.
    I have got a question, because these cures individually are 
startling and they are wonderful and they are inspiring, quite 
frankly, but we also live in a time with very tight budgets and 
have to make very tough choices on this committee.
    And I think one of the compelling arguments, and I would 
like you to expand on this if you care to, for this is actually 
the ability to bend the cost curve on some of these awful 
diseases. Everybody up here knows how much money we spend 
through Medicaid, for instance, on Alzheimer's. It is literally 
$250,000,000,000-plus a year. And it is the right and 
appropriate thing to do, looking after Alzheimer's patients.
    But if we could do something that either slowed or 
positioned us in a way that we could ultimately reach a cure, 
not only would human life be incomparably better, but, 
honestly, it would be a huge boom to the Treasury and a pretty 
strained budget as well.
    So I would like you to talk about some of the ways in which 
some of the things you do at NIH not only help us individually 
and cure these awful diseases, but also contribute longer term 
to bending the cost curves on Medicare and Medicaid.
    Dr. Collins. Well, thank you for the question, because that 
is one of our major goals and part of our mission, and we are 
making headway in a substantial way. When we talk about cancer, 
it may come up that the death rate from cancer is dropping by 
about 1 percent per year, and that has been happening now for 
almost 20 years. That is slow and we wish it was faster, but 
the progress is happening, based upon molecular understanding 
of this disease. Each 1 percent drop in cancer deaths is 
estimated by economists to be worth $500,000,000,000 to our 
economy. So just that small part of what we do has a big 
impact.
    Look at what has happened with heart attack and stroke. 
Deaths from heart attack and stroke now are down by 70 percent 
over where they were 40 years ago, much of that based upon NIH 
research followed by good implementation of our discoveries 
across the board.
    And you mentioned Alzheimer's disease. I just want to show 
you this diagram of just how serious it is that we have to 
attack this problem.
    So here we are in 2017, the cost to our Nation is estimated 
at $259,000,000,000 right now in taking care of the roughly 5 
percent of people who have that condition, with all that means 
for their caregivers and lost economic benefits from those 
folks being able to work. And in 2050, the estimates are that 
it will be over $1,000,000,000,000. It will absolutely break 
our budget if we don't come up with something.
    Thank you to the Committee, because the fiscal year 2017 
Omnibus added an additional $400,000,000 to our Alzheimer's 
disease research budget, which is in the green bar, but you can 
see it is still modest compared to what we are facing. We 
promise you every dollar of that will go into identifying ways 
to prevent and treat this disease to try to bend that cost 
curve, which is one of the scariest ones around.
    I could also mention diabetes. It is now costing us 
$300,000,000,000 a year in our healthcare, and we need to come 
up with better ways. And with things like the artificial 
pancreas, just for the first time getting to the point of an 
FDA-approved version of that, we are on the way. But it takes 
that kind of focus. And it is a long-term investment. It is not 
a sprint, it is a marathon.

                   INVESTMENT IN YOUNG INVESTIGATORS

    Mr. Cole. Well, thank you for that. And as my good friend 
the gentlelady from Connecticut suggested during her remarks, 
we went a dozen years without significant increases at the NIH, 
and in the last 2 years have reversed that trend.
    Let us know, if you can--we often talk about--my friend 
from New York always likes to set the goal of doubling. My goal 
has always been just sustained regular increases. And what sort 
of difference would it make in your long-term planning if you 
could think forward and know, okay, every year we are going to 
sort of make this modest investment and keep these research 
dollars coming? And what would it do in terms, in your opinion, 
of decisionmaking of younger people thinking about long-term 
careers in biomedicine?
    Dr. Collins. Well, I really appreciate your question, 
because we think about that a lot. And you are right that young 
people right now are particularly concerned, because they are 
under stress. What was traditionally a one chance in three of 
getting funded, now it is down to one out of five is putting a 
lot of stress on those new careers. Are they going to be able 
to get up and going?
    For me, as the NIH director, what we would most like to 
plan on would be a stable, predictable trajectory of research. 
The roller-coaster model is really destructive both for our 
trying to plan projects and for people staying in the field, 
who wonder: Is there a career path for me?
    What you have done the last two years, which is essentially 
inflation plus about five percent, has been a wonderful 
recovery from what was a long, difficult time since 2003. And 
for NIH to be able to stay on that kind of trajectory would be 
enormously beneficial for all of medical research.
    Mr. Cole. Well, I thank you.
    And with that, I want to go to my good friend the 
gentlelady from Connecticut for whatever questions she cares to 
ask.

              FOGARTY CENTER'S ROLE IN BIOMEDICAL RESEARCH

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Just on that note, I would hope that we could have a 
discussion about what is now the bipartisan Accelerating 
Biomedical Research Act, which deals with predictability of 
growth for years to come, and that is the opportunity to look 
at going above the caps the way we do, as I said, for the 
healthcare fraud and abuse account. We do this. This is not 
something that would be new. And that way we would be set on 
that path to make sure that we are dealing with inflation every 
year as we move down the pike. So I hope we can have a 
conversation about that.
    Dr. Fauci, I wanted to ask you--first of all, let me say, 
your point on cystic fibrosis was very touching, because I was 
in school with, one of my college classmates, with a brother 
and sister who both died with cystic fibrosis. Their dad was a 
physician and could do nothing to prevent their deaths. So 
thank you for that work.
    Dr. Fauci, again, interested in understanding the impact of 
eliminating the Fogarty International Center. It is my 
understanding that to stop infections with a pandemic potential 
in their tracks, whether we are looking at flu from Southeast 
Asia, MERS from Saudi, hemorrhagic fevers from Africa, Zika 
from the Americas, other kinds of potential pathogens in animal 
reservoirs, that it requires global investment that includes 
scientists and labs.
    So can you talk about the Fogarty Center, the role that it 
has played in your work when you are dealing with emerging 
infectious diseases? Is it value added? And let me just follow 
that up with what, the Fogarty trainees, what role have they 
had in administering the Zika vaccine trial that NIAID is now 
running and what would happen to that research?
    Thank you, Doctor.
    Dr. Fauci. Well, thank you for the question, Ms. DeLauro.
    The last part of your question really is the fundamental 
basis of the answer, which is the people that the Fogarty 
International Center trains. If you look just historically at 
what we have been experiencing over the last many years and 
even as recently as the last few years, from A to Z, from HIV/
AIDS to Zika, all of the things that are threats to us here in 
the United States, but that are global issues that need to be 
addressed at the global level. And virtually all of the 
collaborations that we have, starting from the HIV clinical 
trial units that we have in South Africa, if you look at the 
leadership of those individuals, almost all of them have been 
trained in one way or another at the Fogarty International 
Center.
    If you look at the situation with Ebola, there were some 
very difficult times that you might remember, because we 
discussed this at a committee hearing, where individuals who 
were infected in West Africa traveled to places like Mali, but 
the outbreak was completely suppressed there because the people 
who were in charge of managing the outbreak were Fogarty-
trained people. The same occured when the epidemic went to 
Nigeria, the people in charge were Fogarty-trained people. 
These are people that are our brothers and sisters in what we 
do.
    And your last part of the question regarding Zika, we now, 
as I have mentioned to you before, have a network to implement 
our Phase II clinical trial of Zika, which is going on right 
now predominantly in the Americas, in South and Central 
America. Several of the investigators who are leading that 
Phase II in country on the ground, for example, in Peru, are 
people who were trained by the Fogarty International Center.
    So the Fogarty International Center is really part of our 
army of defense against diseases that will ultimately have an 
impact right here in our own country. Even though they are 
foreigners, they are helping us to be protected from disease.
    Ms. DeLauro. I would just say, at the same time the Fogarty 
Center is working to build an infrastructure in those 
countries, that without that infrastructure there would be a 
greater burden on us to engage. But we are building the 
capacity of these countries to be able to deal with infectious 
diseases or any crisis.
    Dr. Fauci. An example of that is Mali. If you look at the 
Malaria Research and Training facility in Mali, it is developed 
by, run by, and implemented by people who were Fogarty trained.
    Ms. DeLauro. Thank you.
    Let me just if I can--maybe we have to come around again--
this is about a vaccine update, Dr. Fauci, on your efforts to 
develop an Ebola vaccine and treatment, the Zika vaccine 
candidates. And you may have to come around at the next go-
round here. And I am interested in the longer-term efforts to 
develop a universal flu vaccine, as well as a vaccine for HIV/
AIDS, and I would like to have you update us on those kinds of 
efforts that you have been engaged in over the years.
    So I think my time has run out, so I will get you on the 
next go-around.
    Dr. Fauci. I will get back to you on that.
    Ms. DeLauro. Thank you.
    Mr. Cole. I thank the gentlelady.
    Before I go to my good friend, the ranking member of the 
full committee, just a quick history lesson, which I just got 
from late Representative Fogarty's daughter, who came to visit 
us. I did not know this, but he was, I guess, elected when he 
was 27, that the institute is named after, served until he died 
of a heart attack at 53.
    Well, there you go. Of course, there is never anything my 
ranking member doesn't know.
    Ms. DeLauro. Mr. Public Health.
    Mr. Cole. Yeah. But served on this committee for 20 years, 
16 as chairman, the longest-serving person ever to serve on 
this committee. So we probably ought to have one picture up 
here someplace. I am going to talk to my chief clerk.
    Ms. DeLauro. That would be great.
    Mr. Cole. It would be right up there.
    With that, let me go to my good friend, the ranking member 
of the full committee.

       BENEFITS OF GOVERNMENT'S INVESTMENT IN BIOMEDICAL RESEARCH

    Mrs. Lowey. I want to thank my good friend again for 
conducting this hearing and an opportunity to meet with such a 
distinguished panel.
    As you can tell, I am very upset with the 24 percent cut 
requested by the Trump administration, because it will result 
in more human suffering and more lives lost that could have 
been saved. And yet the administration is dismissive of the 
impacts, arguing that the private sector can pick up the slack 
and that advances in innovation would not suffer. I am worried 
that not only would the U.S. Government and research 
institutions be decimated as a result of these cuts, but the 
private sector itself, which relies on NIH research, would also 
be harmed.
    Dr. Collins, is it even feasible for the private sector to 
invest enough to bridge this funding cliff, and what would 
these cuts do to private sector research and economic 
development?
    Dr. Collins. Well, it is very interesting. Just two weeks 
ago the White House convened a meeting of leading CEOs in the 
biotech and pharmaceutical company arena, as well as leading 
academics from some of our Nation's most highly regarded 
institutions, as well as NIH and FDA. That was attended by very 
high-ranking people in the White House, including a brief visit 
with the President. And for the two hours of that meeting, the 
conversation was very much along the lines of what you are 
talking about.
    America's efforts to develop new medicines and prevent 
disease is the envy of the world. Clearly, we have led in this 
space for decades. And yet, the leaders from the private sector 
were quick to say that is in large part because of the success 
of this ecosystem where NIH, through support from your 
committee and from the taxpayers, carries out the basic 
science, makes those discoveries that allow light bulbs to go 
off that something might then be brought to clinical benefit. 
But if we were not doing the basic science, the companies were 
quite clear, they would not be able to, their stockholders 
would not necessarily appreciate them putting money into things 
that are not going to be connected to a product.
    So between the industry effort, the academic effort 
supported by NIH, venture capital, philanthropy and advocacy 
groups, the conclusion of that group was we have an amazing 
engine for discovery, something that was called in an op-ed by 
Eric Schmidt and Eric Lander a ``miracle machine,'' because it 
produces miracles.
    But you don't want to put some sand in the gears or find 
that there is some part of the machine that has sort of run out 
of its particular maintenance. And they were quite clear that 
anything that would reduce the inputs from industry or from 
academia or from NIH would put this country at risk. And they 
were very clear about the potential of losing our lead to 
China, given the massive investments that are happening in 
China in this very space. China has read our playbook. They 
want to become us, and I don't blame them, but we should be 
sure that we are still us.

                           E-CIGARETTE RISKS

    Mrs. Lowey. Okay. You noted the popularity of e-cigarettes 
has led to more kids getting hooked on nicotine and that e-
cigarettes meet the criteria for an addictive substance.
    Dr. Collins, Dr. Volkow, what are the health risks 
associated with e-cigarettes? What makes e-cigarettes 
particularly dangerous for children and adolescents? If you 
could answer that quickly.
    Dr. Volkow. There is limited research with regard to e-
cigarettes, but what we do know from that limited research is 
that it appears that, first of all, if they are used to deliver 
nicotine, they are addictive. Nicotine is an addictive 
substance. And what we are observing is teenagers that 
otherwise would have no transition into smoking combustible 
tobacco are doing so after they get first exposed to electronic 
cigarettes.
    So we are concerned that all of the advances we have made 
on prevention of smoking may be lost by the accessibility of 
these electronic cigarette devices.
    Mrs. Lowey. So since I have 45 seconds left, it is no 
question in your mind that it is a gateway to cigarettes?
    Dr. Volkow. For teenagers when they use it with nicotine, 
yes.
    Mrs. Lowey. Otherwise they wouldn't be calling it Yummy 
Bummy and pretending with all these names that you attribute to 
candies that they put on cigarettes.
    Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Cole. Absolutely.
    We will next go just on the basis of arrival to my good 
friend the gentleman from Tennessee, Mr. Fleischmann.

              UPDATE ON NEW ``GRANT SUPPORT INDEX'' (GSI)

    Mr. Fleischmann. Thank you, Mr. Chairman.
    And, Dr. Collins, and to your entire panel today, I am the 
eternal optimist, so I am going to say thank you for all of 
your past successes and your current endeavors to really 
address all of the medical maladies that affect human beings. 
So thank each and every one of you all for your great efforts.
    This committee and the Medical Research Committee have 
continued to voice concerns over the pipeline for the next 
generation of researchers. This is a question for Dr. Collins, 
sir. I am interested to learn more about the new Grant Support 
Index you are considering. While I know the process is early, I 
do have some basic questions I would like to see addressed and 
would appreciate you keeping my staff informed as you move 
forward.
    First and foremost, should the GSI be implemented, what 
follow-up actions are you considering to ensure it has the 
desired effect of funding and sustaining more early career 
investigators? Second, are you considering steps to ensure we 
do not inflict unintended harm on current scientific progress? 
And, thirdly, in the interest of time, sir, finally, are you 
considering mechanisms that might allow exceptions on the caps 
for situations where they might hamper or roll back progress or 
where they do not align properly with some of the unique 
research structures that are out there?
    Thank you, sir.
    Dr. Collins. Thanks for those questions. This is a topic of 
intense conversation right now amongst all the institute 
directors and our biomedical research community.
    The basis for this proposal that we might consider using 
this Grant Support Index is the graph that you see here. This 
tells you what happens in terms of productivity per dollar by 
the best metric we have got, which depends on publications and 
their impact, as a function of how many grants a particular 
investigator is currently holding. And on the Y axis is that 
measure of impact, and on the X axis there is the number of 
grants.
    So you can see the curve actually kind of flattens out. As 
one goes above, about three grants per year, it gets pretty 
flat. And that says that those dollars are not giving us as 
much of an impact as if they were perhaps given to somebody who 
had no grants or maybe one and was going for two. This is new 
data. It is based upon a whole lot of metrics that we have 
developed and analytics that we now have. That is our 
motivator.
    Now, we have to be very careful in making broad, sweeping 
conclusions from that, but it does suggest that if we are going 
to be good stewards of the taxpayers' money, which is our 
charge, we ought to look at those individuals who are in that 
flatter part of the curve. They are still producing great 
science, but dollar for dollar, perhaps not quite at the same 
level. It could be that we redistribute those funds to younger 
investigators or mid-level investigators who are not as well 
funded but still have a lot of potential.
    So we want to be sure that if we do this, and it is still 
under discussion, that we follow carefully to see what happens, 
where do the dollars end up, that we don't cause harms, and we 
will need to have an exceptions process to be sure that there 
is no harm done to exceptional individuals. One of the things 
we are figuring out, is we don't want to penalize people who 
are doing public service, for instance, with a training grant 
or running a center, which maybe isn't that much benefit to 
them personally, but helps the whole community.
    So we are deep into that kind of sophisticated 
conversation. Every one of our advisory councils is discussing 
this issue. This month, we had a stakeholders conference call. 
It will be a topic for my Advisory Committee to the Director 
coming up in just two weeks. And ultimately, then, we will 
figure out what makes the most sense here. But we are 
determined to take some action now that we have this data.
    Mr. Fleischmann. Thank you, Doctor.
    With that, Mr. Chairman, I will yield back.
    Mr. Cole. Wow. That is unexpected. Thank you. But Ms. Lee 
thanks you even more.
    Ms. Lee. Thank you very much.
    Mr. Cole. I recognize the gentlelady from California, my 
good friend.

               UPDATE ON HEALTH DISPARITIES AND HIV/AIDS

    Ms. Lee. Thank you. Good morning. And thank you all for 
being here and for your great work. Really, we are looking at 
an institute and individuals who are really making a difference 
in terms of saving lives and extending lifespans for so many 
people. So thank you.
    I have to agree with my ranking member in terms of doubling 
the budget. That is what I want to see. And I will tell you 
why. And I will try to ask all my questions very quickly.
    The Office of Minority Health, for example, has been 
critical in identifying racial and ethnic health disparities, 
which have existed since the beginning of time really. And that 
is why we need more money, to really begin to close that gap--
those gaps--and you have been critical in creating and 
implementing programs that address health disparities. Without 
the National Institute on Minority Health and Health 
Disparities, I don't know where we would be.
    And, so, I would like to just ask you what some of the 
efforts are at this point as it relates to health disparities 
research and applied research, and with a focus on social 
determinants of health and how is that going to be carried out.
    Secondly, with regard to HIV and AIDS, I know the office 
had been flat funded for a while now, and you know that the 
global fight against HIV and AIDS, it is really at a tipping 
point in terms of the critical window that we have now to turn 
the tide of the epidemic. And I am wondering where we are in 
terms of the development of vaccine and what really the effects 
of a stagnant program would mean in terms of future progress in 
this area.
    And also, of course, the National HIV/AIDS Strategy, where 
are we on that? I haven't heard back from the administration on 
how we are proceeding. I would like to know that.
    Thank you again.
    Dr. Collins. Thanks for the questions.
    In terms of NIMHD, we are very fortunate to have recruited 
a leader of that effort, Eliseo Perez-Stable, who has come in 
with a lot of really good ideas to try to increase our focus on 
health disparity research, including bringing more actual 
research projects into the Institute, which we are pretty 
excited about.
    I am going to ask Dr. Gibbons to say a quick word about a 
particular study that has very recently happened that looks at 
this issue of health disparities in terms of cardiovascular 
disease, and then I will ask Dr. Fauci to answer your question 
about HIV/AIDS and vaccines.

                     HEALTH DISPARITIES AND STROKE

    Dr. Gibbons. Well, thank you for that question.
    Certainly we have made tremendous progress in reducing 
cardiovascular disease, over 71 percent over the last 50 years. 
But with that progress, we recognize that not all communities 
have benefited from the fruits of those research investments 
and we have to do more. Indeed, there are a lot of disparities 
that relate to race and ethnicity, in which those communities 
lagging behind, particularly African Americans, who have 
hypertension, and are predisposed to stroke.
    We are also noting geographic disparities. A recent report 
came out this week that indicated there are certain parts of 
our country where, in fact, maybe things are going the wrong 
direction. In fact, life expectancy may be shortening. And it 
is particularly disturbing, because it is affecting America's 
heartland. There appears to be a swath in the middle of the 
country from the hills of Appalachia, western Virginia, 
Kentucky, Tennessee, Arkansas, over to Oklahoma, Mr. Chairman, 
and down the Mississippi River Valley, Louisiana, Mississippi, 
and Alabama.
    And this is really a call to action, I believe, that if we 
are going to reverse that trend, we have to address some of the 
challenges those communities are facing, and a lot of those 
relate to both social determinants, as well as adopting and 
getting access to healthy lifestyles.

                           HIV AIDS RESEARCH

    Dr. Fauci. The microphone is not working. We are all 
flashing, but I can speak loud.
    There are two aspects of HIV/AIDS research that you asked 
about: one, the status of an HIV vaccine, and two, how what we 
do in terms of research has an impact on the National AIDS 
Strategy for the United States.
    With regard to HIV vaccines, what we have right now is, I 
think, a considerable amount of progress. There are a couple of 
things that happened since we testified before this committee 
last year. We have implemented the amplification of the 
original Thailand trial.
    You recall the famous RV144 trial, which showed a 31 
percent vaccine efficacy in Thailand. We have now used that 
same protocol to amplify the vaccine strategy used in RV144 
with multiple boosts and an adjuvant to start a Phase II b III, 
vaccine study in South Africa with a version of the virus that 
is now circulating in South Africa. That is one component of 
HIV vaccine development.
    The other component is the use of broadly neutralizing 
antibodies in a passive transfer study called AMP, Antibody 
Mediated Prevention, which just a few months ago was started in 
southern Africa. If that trial proves the concept that the 
broadly neutralizing antibodies work, we would use the same 
structural, biological, and cryo-EM techniques that Dr. Collins 
just described to determine what the right conformation of a 
vaccine immunogen would be, and I think we would see some 
really important advances in HIV vaccine research in the next 
year.
    Finally, how does the NIH have an impact on the National 
AIDS Strategy? As you well know, you were involved in that 
strategy, the number one component of the National AIDS 
Strategy is to prevent and decrease the incidence of HIV 
infection in the United States, and there are a number of 
things that we have done to amplify that.
    One is pre-exposure prophylaxis, or PrEP, which is highly 
successful in preventing HIV infection when used. And the other 
one is the implementation of treatment as prevention. We know 
now from studies from San Francisco, New York, and other places 
that if you treat HIV-infected individuals and bring their 
viral load to below detectable level, the chances of them 
transmitting the infection to someone else is virtually zero. 
We never like to say ``zero'' in biology, but it certainly is 
close to that. If we implement these strategies based on NIH 
studies, we are going to make the first component of the 
National AIDS Strategy a success.
    Mr. Cole. Okay. With that, we will move next, again on 
order of arrival, to my good friend from Michigan, Mr. 
Moolenaar.

               EMERGING AND REMERGING INFECTION DISEASES

    Mr. Moolenaar. Thank you, Mr. Chairman and members of the 
panel.
    And I also just want to thank you for the chance to tour 
the NIH and your hospitality. I thought that was very 
informative, and I appreciate that.
    I am going to address these questions, I guess, to Dr. 
Collins, and then if there are others who you feel are the best 
to answer the question, feel free to send them over. But over 
the last several months, many experts and news reports have 
raised concerns about our Nation's level of preparedness to 
deal with a possible new pandemic or emerging infectious 
diseases.
    And I am asking what additional steps that you believe need 
to be taken for the United States to strengthen our level of 
preparedness and allow us to develop effective countermeasures 
and treatments posed by emerging infectious diseases.
    And I also just wondered if you might comment on the role 
outside research partners play in battling these threats and 
any insights you have on what additional things Congress could 
be doing.
    Dr. Collins. Well, very appropriate question. I am going to 
ask Dr. Fauci, as our lead in that area, to answer.
    Dr. Fauci. Thank you very much for that question.
    Now, obviously, when one addresses emerging and reemerging 
infectious diseases it is not a one-agency issue. It has to be 
a cooperation and a collaboration. So one of the mechanisms 
that we have within the Department of Health and Human Services 
is called PHEMCE, the Public Health Emergency Medical 
Countermeasures Enterprise, and that involves the NIH, BARDA, 
the Biomedical Advanced Research and Development Authority, the 
FDA, the CDC, and other components, including interagency 
partners, like the Department of Defense.
    The role that NIH has is to provide the research to be able 
to respond one by, one, understanding the disease, exactly what 
we did with Ebola and what we are doing with Zika; and two, to 
provide resources and reagents and capabilities of people in 
the field to be able to address the disease. Again, we 
successfully did that with Ebola, and with Zika. There are 
other examples, but those are the two most recent ones. We also 
have done it with Chikungunya and other diseases.
    And then, finally, we work to develop the research 
capability to respond with countermeasures, of which there are 
three main types: diagnostics, therapeutics, and vaccines. And 
right now what we see are some successes, and I hope we can 
continue to make progress. For example, the Ebola vaccine, 
which may be deployed against the outbreak in the Democratic 
Republic of the Congo because of what we learned from NIH-
supported trials for Ebola in West Africa, in the three most 
affected countries.
    Another example is that we are in the process of a phase II 
vaccine trial of a DNA-based Zika vaccine that was developed at 
the NIH's Vaccine Research Center. There are about four or five 
leading candidates for a Zika vaccine. One of them the DNA-
based candidate, is advanced enough that if we have outbreak 
conditions as we get into the summer in Puerto Rico, we will be 
able to have hopefully what we call a vaccine efficacy signal, 
namely, knowing if we actually have a vaccine that works.
    So we are the research component, but by no means the only 
component of how this Nation responds to an outbreak.

                       UPDATE ON BRAIN INITIATIVE

    Mr. Moolenaar. Okay. Thank you. Thank you for the update.
    And just to switch gears a little bit, my understanding is 
that pathophysiology--am I saying that word right, 
pathophysiology--of central nervous system disorders is not as 
well understood as in other diseases, such as infectious 
diseases or cancer. The 21st Century Cures Act authorized 
funding for the BRAIN Initiative. I just wondered if you could 
update us on your plans.
    The hope is, I know, to fill major gaps in our current 
knowledge of how the brain enables the human body to process, 
store, and retrieve information at the speed of thought. I am 
just wondering your plans on how that funding will be used, and 
is it your intention to devote the full amount of funding for 
this research?
    Dr. Collins. I will ask Dr. Gordon, who co-leads this 
effort with Dr. Koroshetz at NIH, to answer your question about 
the brain, which is something we are all very excited about.
    Dr. Gordon. So as you noted, central nervous system 
disorders are particularly challenging for physicians and 
researchers alike because we know so little about how the brain 
works. And the BRAIN Initiative is really meant to jump-start 
our efforts to really get down to the nitty-gritty of how 
neurocircuits produce behavior and how dysfunction within those 
neurocircuits produce disorders in the central nervous system.
    We are very grateful to the work of this committee and 
other Members of Congress to continue support for the BRAIN 
Initiative both through the Cures Act that was passed and 
signed in December and also through the appropriations in 
fiscal year 2017, which gave us an extra $100,000,000 for the 
BRAIN effort.
    All of those funds will be devoted to the BRAIN Initiative. 
And the BRAIN Initiative's targets over the past several years 
and for the next couple of years are really to develop novel 
tools that we can use to explore the relationship between brain 
activity and function and dysfunction.
    And over the next couple of years, you will see us pivoting 
in a few directions. One, dissemination of those tools 
throughout the neuroscience community so everyone can take 
advantage of them. Two, education and training of new 
researchers. Three, data sharing, so that we make sure that all 
the data that everyone generates through the BRAIN Initiative 
is available to all researchers to maximally take advantage of. 
And then, four, trying to figure out how to use these tools to 
make an impact on illness.
    Mr. Moolenaar. Okay. Thank you.
    And now we will go to my good friend from Wisconsin, Mr. 
Pocan.

      INDIRECT COSTS, 21ST CENTURY CURES ACT, AND MARCH-IN RIGHTS

    Mr. Pocan. Thank you, Mr. Chairman.
    And thank you, Dr. Collins and everyone, for being here.
    First, I just want to say I associate myself with the 
remarks from our ranking member on the subcommittee and on the 
committee about concern over the cuts to NIH that could be 
coming under the Trump budget. You know, the University of 
Wisconsin-Madison Morgridge Center gets a lot of assistance. It 
is a world class research facility doing a lot of amazing work.
    I was a journalism major, so I took physics for poets. I 
don't pretend to be someone who fully is in the science realm. 
But when I go visit companies and see some of the research and 
learning about 2D and 3D cell technology, it is really amazing 
stuff that is going on.
    So I have three questions I am going to try to put out, 
three different areas, so the best we can try to answer them.
    The first is on--when Dr. Price was here--on indirect 
costs. I have a real concern, because it was greatly implied 
that the cut proposed is basically the indirect costs that are 
often spent by facilities, that is just the cuts, you won't 
hurt research with the cuts proposed by the Trump budget.
    But reality, it is the indirect costs, and other nonprofits 
have lower levels. We know that Ford Foundation recently went 
from 10 to 20 percent, they actually went the other direction, 
recognizing people have bigger costs. And as I understand it, a 
lot of times the costs when they get these other grants, the 
university is filling in the dollars.
    Could you just talk a little bit about the indirect cost 
issue?
    Second, the 21st Century Cures Act, big issue that Tammy 
Baldwin and I have worked on is this loss of young researchers, 
or potential loss. The fact that grant has gone up to, what, 41 
now on average, up about 5 or 6 years from just a couple 
decades earlier.
    Can you just talk a little bit about specifically what you 
are doing in that area? And are you working with stakeholders 
to get their input as you move along the process? I think that 
is a really big concern to those folks.
    And the last one, if we have time, I would love to talk a 
little bit about march-in rights on prescription drugs. You 
know, we have a lot of NIH research going into this. So 
sometimes on the front end and then sometimes on the back end, 
the drugs are being paid for with Medicare and Medicaid. 
Government is really heavily involved. I don't think we have 
ever used march-in rights. There have been some issues around 
that.
    If you could just talk about that briefly. But the first 
two are the ones I really have the most interest in. I can 
submit that for questions.
    Dr. Collins. Well, thank you. Let me see if I can get 
through at least two and maybe three.
    Indirect costs are a topic of great interest right now in 
terms of what are they, after all. Basically, over time, the 
commitments that the government has made with its grantee 
institutions is that we are trying to cover the fully loaded 
cost of research, which means that institutions are motivated 
to take part of it, as is true certainly in Wisconsin, where 
great research goes on every day.
    Frankly, we have not quite lived up to that. Indirect costs 
generally don't fully cover, and institutions are, in fact, 
themselves having to put their own money into supporting the 
effort.
    Indirect costs are not negotiated by NIH. They are 
negotiated by a component of HHS, the Division of Cost 
Assessment. And they decide, based upon an OMB guideline, 
exactly what is appropriate for universities to ask for in 
terms of covering the actual cost of research, and that 
includes things like keeping the lights on, maintaining the 
facilities, running institutional review boards to look at 
human subjects applications, and so on. And those are 
negotiated every 4 years based upon the guidance from OMB.
    The idea that those could be paid at a lower rate by other 
sources has certainly been raised by things like foundations. 
But those foundations are a very small proportion of the 
overall support of any institution, so perhaps they can afford 
to absorb that, but they would feel much less happy about 
having a chance to have to absorb more of that from their major 
funder, which is, after all, in biomedical research, the NIH.
    So it is a very important issue, and certainly presidents 
of universities are very focused on this, as you can imagine, 
and we are answering lots of questions from those folks as we 
go through this conversation.
    In terms of early stage investigators, several things. One 
is, for several years we have insisted that somebody who comes 
to NIH with their first grant application competes against 
other people like themselves, who are not the experienced grant 
writers but the first-timers, and that gives them a boost so 
they are not being penalized for a limited track record, they 
are just getting started, and they are not being penalized for 
being really well-trained grant writers. That has provided 
quite a benefit for those first-timers.
    On top of that, we have designed a number of programs that 
you can't apply to unless you are a first-time investigator. 
And we particularly ask those to be very innovative and 
creative in trying to inspire the creativity.
    And then there is this issue that we talked about a moment 
ago, which is with the Grant Support Index, where we are aiming 
to see whether we could better utilize the funds that we are 
given by redistributing some of the dollars from investigators 
who are very well funded but who are on that flatter part of 
the productivity curve, and provide those to early stage 
investigators who are still trying to get started. All of this, 
of course, depends upon having that stable trajectory we talked 
about earlier.
    Mr. Pocan. Are you seeking input with those folks as you 
are doing this?
    Dr. Collins. Yes. So we have multiple workshops and 
opportunities. The AAU is convening another gathering to talk 
about this in June. We are listening closely. My advisory 
committee, the director, has had a major focus on the workforce 
and what we can do about it for several years now.
    And I guess your last question about march-in rights, I 
will answer for the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Cole. We will next go to my good friend from Arkansas, 
Mr. Womack.

                INSTITUTIONAL DEVELOPMENT AWARDS (IDEA)

    Mr. Womack. Thank you, Mr. Chairman.
    Dr. Collins, and to your team, thank you. Not lost on me is 
the fact that this panel before us is as dedicated to what you 
do as you are accomplished in your fields, and I am grateful, 
eternally grateful. I always enjoy being with you when we come 
to visit.
    And, Dr. Collins, you know that coming from a small State 
like Arkansas, I have probably got a question about the 
Institutional Development Awards.
    Dr. Collins. I am not surprised.
    Mr. Womack. So here goes.
    That program is a safeguard to ensure that NIH funding ends 
up in places where we don't have a real high success rate in 
applications. So what are you doing to ensure that the IDeA 
States are remaining competitive when they are applying for 
funding?
    Dr. Collins. Well, we are very much a fan of that program. 
We know there is talent all over the country, and that includes 
in all 50 States, even though not all 50 States happen to have 
research institutions that are in the top 10 in the country.
    But talent exists all over. And so the IDeA program 
provides an opportunity for the States in that group, 24 of 
them, to have a capability of being supported through special 
programs like the Centers of Biomedical Research Excellence, 
so-called COBRE programs, and the Network of Biomedical 
Research Excellence, the NBRE programs.
    And when we look at the productivity of those, and we look 
closely, we are very pleased with what we see. And many times 
that has provided an opportunity for an investigator to get 
funding and then come back in a fully competitive application 
to NIH and receive funding for that as well. We have got a lot 
of success stories we can tell in that regard. We are pleased 
to see that in the fiscal year 2017 budget that you all 
approved there is an additional increment for the IDeA program.
    Another thing we are excited about is the creation of an 
IDeA States Pediatric Clinical Research Network, which is part 
of the ECHO program, the new program that is looking at 
childhood illnesses, and particularly environmental influences. 
And having the opportunity to put this in place has been really 
quite exciting, because this greatly enlarges our opportunity. 
When there is a chance to look at asthma or a childhood cancer, 
we have got a broader array of network participants than we 
would have had before. So we are very much in this space.
    Mr. Womack. You mentioned the networks.
    Dr. Collins. Yes.
    Mr. Womack. So how have the networks assisted in that 
broader biomedical research arena?
    Dr. Collins. So the networks are State specific. And NBRE 
is an opportunity to give an award which brings together the 
research institutions in a particular State and convinces them 
of the value of working as a collaborative venture as opposed 
to isolated institutions. And if you talk to many of them--I 
have not been to Arkansas, but I went to Louisiana and heard 
the stories there--this has been real glue, and glue with money 
attached to it, to encourage that kind of network building and 
sharing of disciplinary expertise and projects.

                               DRUG ABUSE

    Mr. Womack. You should come to Arkansas. I will get the 
invitation to you.
    My next question, I have got a couple of minutes remaining, 
I want to pivot over to Dr. Volkow.
    Our Nation is incredibly impacted by drugs. There is not a 
person in this room that doesn't know somebody or related to 
somebody, myself included, in terms, you know, that is 
impacted. And this is a national problem, and even those that 
think they may not be impacted are impacted because of the 
indirect consequences of our inability to get in front of this 
problem, 52,000 overdoses just last year, 20,000 of them from 
opioid addiction. This is a top priority for our committee. It 
is, I think, a shared top priority for the Congress.
    So, Dr. Volkow, as Director of the National Institute on 
Drug Abuse, what strides have you made and are making to enact 
positive outcomes to alleviate our country from such an awful 
epidemic? What can we do?
    Dr. Volkow. Yeah. And thanks for the question.
    And indeed this is a priority for HHS. It is a priority for 
the institute. And the first thing that we are doing is, of 
course, working collaboratively with our sister agencies. And 
then within our mission, we have a multipronged approach to 
address, number one, how do we prevent the prescription opioid 
epidemic that we are observing from occurring, from people 
becoming addicted to it, how do we prevent the overdoses, and 
for those that are actually already addicted, how do we treat 
it.
    So in this respect, for example, the current treatments 
available for addiction of opioid use disorders have been 
developed out of research funded by the NIH. But we need much 
more.
    So we have actually identified three areas for development 
of new therapies. One of them is we need additional medications 
for the treatment of opioid use disorders, and we are 
partnering with industry in that process. Number two, we need 
additional interventions to prevent and revert overdoses from 
opioids. And, number three, we want to actually contain this 
epidemic and prevent it from happening in the future, we need 
alternative, effective, and safe treatment for the management 
of chronic pain.
    Mr. Womack. I appreciate that.
    Mr. Chairman, before I yield back, this is a classic pay me 
now or pay me later proposition. I yield back.
    Mr. Cole. I couldn't agree more. I thank the gentleman.
    I now go to my good friend, the gentlelady from 
Massachusetts.

                          BIOMEDICAL RESEARCH

    Ms. Clark. Thank you, Mr. Chairman and Ranking Member 
DeLauro and Ranking Member Lowey.
    I thank you, Dr. Collins, and your entire team for the work 
you do and for being here. I am so supportive of your efforts, 
as I know everyone on this committee is, and it is one of the 
few bipartisan bright spots that we can agree on this. And I 
think the 2017 budget that we passed was such a positive step, 
and I have been so concerned about the proposed cuts and the 
devastation that would have.
    But I have two questions for you, Dr. Collins. One is, as 
you said, we are now doing inflation plus 5 percent. That is 
positive. But this is one of our best examples of using public 
resources to partner with private enterprise. And other 
countries are making investments at rates that far exceed what 
we are. I hear from private companies in my district that their 
talent is being recruited and their research is being outpaced 
in China, Singapore, Brazil, Israel.
    If you can give us some context to what you are seeing in 
competition. We know the human toll if we don't do research. 
What is the economic toll for the future of the United States 
and our innovation economy if we do not support the NIH at 
higher levels?
    And second is you mentioned the importance of consistency 
in funding. I think a great example of that is in my own 
district in the Framingham Heart Study that next year will mark 
70 years, of third generation of Framingham citizens who are 
participating in this study. And I wonder if you can talk about 
particularly the value of that research and, sort of more 
generally, the value of that long-term research that comes with 
consistency of funding.
    Dr. Collins. Great questions.
    So with regard to what is the situation with America and 
the rest of the world in terms of competition, first let me 
say, the economic case for support of biomedical research has 
been analyzed by many experts, and it is very compelling. NIH 
currently supports 379,000 jobs in the United States directly, 
and those are high-quality, high-paying jobs.
    But if you consider the whole ecosystem that builds upon 
NIH discoveries, that is about 7 million jobs, including the 
biotech and the pharmaceutical industry. And the return on 
investment is estimated that every dollar that you all allocate 
to NIH over the course of 8 years returns $8.38 in terms of 
return on investment and economic growth as a consequence of 
that. That is a pretty good turnaround.
    And there are a few stunning examples. I won't be able to 
resist mentioning the Human Genome Project that was one of them 
where the money that was put into that now estimates 178 to 1 
return on investment in terms of the economic benefits that 
have come forward to the United States because we led that 
effort. And we still lead genomic research and all the 
technologies that come out of that.
    Other countries, though, as I said earlier, have read this 
playbook, and they are very much seeking to do the same sort of 
thing. And China in particular, on the course they are, will be 
spending, not just as a percent of GDP, but in total dollars 
more than the United States, depending upon which curve you 
look at, around 2021, not that far off. And they are building 
universities and they are building laboratories and putting a 
great deal of funds into that. And many very talented 
scientists that we were confident we could recruit and retain 
in the United States now go back to China for wonderful offers.
    So we have to think carefully about that. If this has been 
such a strong engine for our country in terms of economics, in 
terms of health, we don't want to see that engine struggle, and 
that is very much what your committee has been, gratefully, 
focused on.
    Your question about consistency is also critical, because 
many of the projects we are talking about, many of them are not 
70 years like Framingham, most of them on the average are at 
least 4 or 5 years, and to be able to plan for that.

                         FRAMINGHAM HEART STUDY

    Ms. Clark. We are very exceptional.
    Dr. Collins. Maybe I will ask Dr. Gibbons to say a word 
quickly about Framingham in the last 35 seconds just to say 
what an amazing example that is.
    Dr. Gibbons. Yes. The Framingham Heart Study has been an 
iconic program, as you pointed out, reaching its 70th birthday. 
Yet it remains very vibrant. It clearly underpinns all of our 
advances in reducing cardiovascular disease by identifying risk 
factors.
    And it has been reinvented in the last decade. It is now 
the cornerstone of our Transomics for Precision Medicine (TOP 
Med) program, where we are now layering on the new technologies 
of genomics in that cohort. It is going to be telling us a lot 
about the problems, for example, of Alzheimer's disease and 
vascular dementia. We need to understand the other factors that 
are critical mediators of those processes and at least identify 
the new drug targets for tomorrow's breakthroughs. It is still 
going to continue to pay great dividends.
    Ms. Clark. Thank you.
    Dr. Collins. And forgive me. Even though this seems like a 
big investment, when you consider the consequences, that drop 
in heart attack and stroke that we talked about, 70 percent 
decrease, if you figure out what was NIH's role in that, it was 
major, and it cost each American about the cost of two lattes 
per year.
    Ms. Clark. Wow. On that note, thank you, Mr. Chairman. I 
yield back.
    Mr. Cole. Thank you.
    I next go to my good friend, the gentleman from Maryland, 
Mr. Harris.

                  MEDICAL MARIJUANA--THERAPEUTIC USES

    Mr. Harris. Thank you very much.
    Good to see all of you again.
    Dr. Volkow, I am just going to ask you a very brief 
question about a topic that has come up in Maryland, and it has 
to do with marijuana, medical marijuana and the uses of it. We 
had a bill in the Maryland legislature that would have added 
treatment of opioid addiction to one of the indications for 
medical marijuana. Is there any basis for that in scientific 
research?
    Dr. Volkow. Thanks very much for the question. And, 
unfortunately, there is no evidence that marijuana can be used 
for the treatment of opioid use disorder. But the question does 
highlight the need, that actually there is an urgent need for 
more research to understand better the effects of marijuana, 
because people across the country are taking it believing that 
it is beneficial for their ailments, and yet the evidence is 
not there.
    Mr. Harris. And I know that we actually have a bipartisan 
bill we are going to file very soon that will attempt to make 
it easier to do medical research, not reschedule it, not make 
it more widely available except to bona fide researchers. Is 
that something that is a good idea for the country?
    Dr. Volkow. I think that would be a very good idea. That 
would help accelerate our knowledge about what is it that 
cannabinoids can do and what is it that they don't do and how 
can they be harmful or beneficial.
    Mr. Harris. Okay. And could you just, off the top of your 
head, just name all the diseases where there is solid 
scientific evidence that it is the best drug to use, medical 
marijuana is the best drug to use to treat something?
    Dr. Volkow. I do not know that there is any one study that 
has shown that marijuana is the best drug for a particular 
disease. I would say from the perspective of what is the 
strongest evidence for potential therapeutic benefits for 
marijuana, we know that one of them is an analgesia, another 
one is as an anti-nausea, and there is some low evidence that 
it may be useful for glaucoma.
    Mr. Harris. And maybe spastic diseases, I think, too----
    Dr. Volkow. Correct.

                     INDIRECT COST TO UNIVERSITIES

    Mr. Harris. But it is a very limited amount. That is what I 
thought.
    Could I have--I think I have a couple of slides lined up 
here, since we are showing slides today. Who do I to ask to 
get----
    Dr. Collins. You ask me, and there it is.
    Mr. Harris. Oh, there it is. Thank you very much. Thank 
you. And I guess this is the only one I want, except the only 
thing I want to point out is I have another slide, but I don't 
need to show it. You know, indirect costs over at the NIH are 
over $6,500,000 a year. And, again, I know, because I have seen 
the budgets of grant requests, I mean, indirect costs are not 
paying the researchers, they are not paying for whatever you 
need directly to conduct your experiment. They are overhead 
costs. I mean, we would call it overhead, I guess, the common 
person. But what is the average indirect cost that the NIH pays 
to universities?
    Dr. Collins. Thirty percent of the total cost is the 
average.
    Mr. Harris. No, but the addition, because indirect costs 
are the grant plus a certain amount. What is that certain 
amount?
    Dr. Collins. About 50 percent.
    Mr. Harris. Fifty percent. Okay. So the American taxpayer 
is paying 50 percent.
    Now, if a university writes a grant to the American Lung 
Association, they pay zero percent overhead costs; and if they 
write a grant to the American Heart Association, it might be up 
to 10 percent; Alzheimer's, 10; March of Dimes, 10; Juvenile 
Diabetes, 10; Bill and Melinda Gates, $4,000,000,000 in grants, 
10 percent to universities; and Robert Wood Foundation, they 
are generous, they are at 12 percent.
    It sounds like there is a different standard for the 
American taxpayer, that the American taxpayer pays a whole lot 
more for indirect costs. Now, some of these are to 
universities. And remember, some universities declared 
themselves sanctuaries. So that, you know, the Federal 
Government is not good enough to describe immigration law, but, 
boy, they are good enough to take $6,000,000--$6,000,000,000, I 
am sorry, wrong letter in front, $6,000,000,000 a year to help 
fund our overhead.
    Why do you think it is not the American taxpayer paying far 
more than private--these nonprofits? And we assume--we are a 
nonprofit, we are just the largest nonprofit in the world, I 
guess. Why is this not--why is this reasonable? Why should we 
pay more than these other nonprofits, my taxpayers, people in 
the First Congressional District? And we all want research, but 
if we freed up this $6,000,000,000, we have heard the effect of 
$6,000,000,000, if we freed up a significant amount of that, we 
could fund thousands of more grants.
    Dr. Collins. So this is a topic of great interest right 
now, and you are contributing to it, I think, by raising this 
question about why these differences exist. Presidents of 
universities that do a lot of research would tell you that they 
can afford to absorb the costs of taking on grants from 
foundations of this sort because it is a small proportion of 
their budget. But if they were asked to do that with the 
majority, which tends to be, if it is biomedical research, the 
NIH, many of them would not be able to continue the effort, 
they would need to drop out, particularly public universities 
that don't have large endowments.
    But I do think there is an important issue here. People 
don't realize how these indirect costs are set. They are set by 
a guidance that is put forward by the Office of Management and 
Budget and reconfigured every 4 years in a negotiation that 
goes on between an office in HHS, the Division of Cost 
Allocation, and universities. We don't play a role in that. We 
are simply told what is the indirect cost rate for that 
institution.
    I would say universities will also argue that a lot of the 
cost that they are asking for help with is because of 
bureaucracy that we put down upon them. And this might be a 
really good moment to revisit a lot of the regulations that we 
have asked them to put forward, things like effort reporting, 
which take a lot of time, that don't really accomplish very 
much. I think it would be useful to perhaps open up that 
conversation, think about our contract with our institutions.
    But I do want to say that universities would argue, and I 
will just echo their statements, that they are already paying 
well over the cost of research that they would be doing if we 
were fully loaded in our reimbursements. Talk to your friends 
at Hopkins. Paul Rothman will tell you the hundreds of millions 
of dollars that they have to put in of their own money in order 
to keep their research operation going.
    Mr. Harris. Sure. Thank you. And I agree, we should look 
into those regulatory burdens.
    I yield back.
    Mr. Cole. I thank the gentleman.
    We will next go to my good friend from California, Ms. 
Roybal-Allard.

        ENVIRONMENTAL INFLUENCES ON CHILD HEALTH OUTCOMES (ECHO)

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Dr. Collins and panelists, and thank you for 
everything that you do.
    Dr. Collins, as you know, I and other members of this 
subcommittee have been strong long-time supporters of the 
National Children's Study. We are anxious to hear a progress 
report on the environmental influences on child health 
outcomes, the initiative that was subsequently created to meet 
the goals of the NCS, because we believe it is vitally 
important to investigate the impact the environment has on the 
health and development of children.
    That is why I was pleased to see since our last meeting 
that Dr. Matthew Gilman has joined the team to head up the 
initiative. I am also pleased that 34 ECHO grants have been 
awarded to a series of existing cohort studies.
    Given the NCS original plan to recruit child-bearing-age 
women and follow their children through adulthood, I am 
particularly interested in how many of the cohorts you awarded 
included mothers during pregnancy or preconception. Can you 
provide us with a summary analysis of the characteristics of 
the cohorts that were funded?
    Also, what are the next steps for getting this program up 
and running? For example, are you asking the existing cohorts 
to expand what they are already doing in order to meet the 
research goals of the original NCS?
    Dr. Collins. We are very excited about the ECHO program, 
and thank you for asking about it. Some 84 cohorts have now 
been brought together as part of this study to try to learn 
everything we can about environmental influences on child 
health. Three-quarters of those 84 cohorts were involving women 
who were enrolled preconception or during prenatal time.
    So we have a lot of data there in the earliest stages of 
development. We have now, because of those cohorts, have the 
opportunity to start following more than 50,000 children, so 
the size is substantial, and Dr. Gilman has turned out to be a 
very skillful project manager for this effort.
    All together, this means we are funding something like 44 
States to take part in this, and we are looking at ways that 
the whole can be a whole lot greater than the sum of the parts 
by adding additional kinds of measurements as we follow these 
children and their parents that were not contemplated as part 
of the original cohort studies.
    The group has coalesced quite nicely. The leaders of these 
efforts are meeting monthly to design ways in which this 
project could be even more bold than we might have imagined to 
begin with. And we have an external scientific advisory group 
that will meet for the first time on May 31, which I will be 
there to give them a charge and to listen to their thoughts 
about how we can manage this program in the most responsible 
way possible.
    On top of that, the ECHO program, as I mentioned earlier, 
also funds this IDeA States Pediatric Research Network, which 
is an additional resource that we think is going to be 
extremely valuable for carrying out pediatric trials in States 
where previously we didn't have the opportunity to do so.

                               CHIMP ACT

    Ms. Roybal-Allard. Right. That is good news. Thank you.
    Dr. Collins, with the passage of the CHIMP Act in 2000 and 
with the CHIMP Act amendments in 2013, Congress has shown 
strong bipartisan support for the retirement of federally owned 
research chimpanzees to Chimp Haven, which is a national 
primate sanctuary. I know that the humane treatment of these 
primates in retirement is a priority for you also and that NIH 
has made a commitment to moving all remaining chimps to Chimp 
Haven as soon as possible. However, I am concerned that 4 years 
have passed since the passage of the CHIMP Act, and a large 
number are still languishing in laboratories, mostly because of 
the lack of sanctuary space.
    My question is, is it true that we pay 100 percent of the 
cost to keep chimps in laboratories but only 75 percent of the 
cost to care for them in sanctuary, which is much less 
expensive? And is it also true that over the last few years, 
the CHIMP Act, which requires the Federal Government to pay 90 
percent of sanctuary construction costs, that Chimp Haven has 
had to take on that full responsibility?
    Dr. Collins. I appreciate your interest and concern about 
this issue, and I share that. I have spent a lot of my own 
personal time trying to be sure that we are moving away from a 
time where chimpanzees were utilized for research to a time 
where we are retiring them all to sanctuary. That is NIH's 
commitment based upon a National Academy study and our own 
internal deliberations.
    It is challenging, though, to achieve the retirement. This 
past year, 44 chimpanzees were moved from their existing 
locations to Chimp Haven. Chimp Haven, because of the need to 
incorporate those chimps, who often come with their own social 
groups, needs time with each shipment to be able to accommodate 
that. So they have asked us not to send more than one shipment 
per month, and a shipment is no more than nine animals. That is 
why it has only been 44 animals in the past year and it will be 
hard to go above that.
    So at the moment, actually the limiting factor is not space 
in Chimp Haven sanctuary, it is the pace of being able to do 
the transfers.
    We now have a very good system where the veterinarians work 
together to be sure that everything is being done in the 
fashion that assures the best likelihood of a good outcome for 
the transfer. I am personally informed weekly about how this is 
transpiring.
    You are right that the way the CHIMP Act was written, we 
support 75 percent of the care in Chimp Haven, whereas we were 
supporting 100 percent in the research laboratories, but that 
is just basically what the law says. We are 100 percent in 
favor of moving along with the retirement, but realistically, 
considering we still have 350-some chimpanzees that have not 
yet made it to sanctuary, it is going to take us several more 
years.
    Ms. Roybal-Allard. Okay. And I have some other questions 
that I would like for you to respond to for the record.
    Dr. Collins. Be happy to.
    Mr. Cole. Okay. We will next go to my good friend from 
Washington, Ms. Herrera Beutler.

                    NIMH SUICIDE PREVENTION EFFORTS

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    I have a couple questions, and I think I am going to start 
with--I believe they will go for Dr. Gordon. And I am just 
going to read them so I get it right.
    In 2014, suicide was the leading cause of death in youth 
ages 10 to 24 and young adults ages 25 to 34, and ultimately 
suicide claimed the lives of over 12,000 people in these age 
brackets in 2014 alone. And in the city of Battle Ground, which 
is where I live in Washington State, these troubling statistics 
have manifested in increasing trends of mental illness issues, 
depression, and suicide ideation among students. And, I mean, 
we have been going through it.
    Both the city of Battle Ground and the Battle Ground school 
district have taken steps, any steps that they can, quite 
frankly, offering counseling, mentoring. And despite their best 
efforts, I think Battle Ground still is constrained by the 
resources and continues in honestly understanding how to 
confront this public health crisis.
    So I am aware of the efforts to prevent teen suicide 
through your Pathways to Prevention workshop. And in that vein, 
what new research will the Institute of Mental Health be 
focusing on related to prevention and preventing teen suicide, 
and is there anything NIH can recommend, quite frankly, to 
assist this community and others across the country in their 
ongoing effort? We can't wait years and years for research in 
this situation.
    Dr. Gordon. No, we can't. Suicide prevention is a priority 
from a research perspective at NIH and from a care perspective 
throughout HHS. And you are right, we can't wait years, and 
this is a short-term research need.
    The good news is we are putting a lot of resources into 
this effort, we are putting a lot of resources into efforts 
that we hope would pay off in the short term, so we hope to be 
able to bend the curve. But it is a very challenging curve to 
bend. As you know, the rates are not just high among youth, 
they are rising, and they are rising nationwide, and they are 
rising in almost every age group.
    Ms. Herrera Beutler. And they are rising across class and 
gender.
    Dr. Gordon. That is correct.
    Ms. Herrera Beutler. I mean, it is really phenomenal.
    Dr. Gordon. That is correct.
    Particularly with regard to youth suicide, there are 
several things which we are confident in but really need a 
little bit more research in terms of helping roll it out.
    So, for example, the most important thing that you can do 
is ask about suicide, right? And people are often afraid to ask 
about suicide, but, in fact, it has been shown in study after 
study that asking doesn't raise risk, it lowers risk.
    And, in fact, a questionnaire that is essentially--it is a 
very simple four-item questionnaire that was developed in the 
Intramural Research Program at NIMH and tested across the 
country at several different academic institutions both here in 
D.C., in Massachusetts, in Ohio, has shown to dramatically 
increase the number of at-risk youth who are identified. And 
this questionnaire is being used in all sorts of settings, but 
primarily in healthcare settings.
    We have several studies that are aimed at this 
questionnaire and other questionnaires like it to try to 
demonstrate definitively that it works, but more importantly, 
to show how it can be rolled out into communities.
    So that is just one of actually more than five studies we 
have specifically targeted at youth suicide trying to look at 
identification. And then, of course, once you identify at risk 
youth, you need to know how to treat them. And so we have 
active programs in trying to figure out what are the best ways 
to prevent suicide once the high-risk youth are identified.
    Ms. Herrera Beutler. Thank you for that. And I would love 
to receive that information if that is something you would be 
willing to pass along.
    Dr. Gordon. Sure. We can do that through the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
                    STUDIES ON POSTPARTUM DEPRESSION

    Ms. Herrera Beutler. And let me move over, I mean actually 
stick with you, but issues. Perinatal depression is one of the 
most common medical complications during pregnancy and the 
postpartum period, impacting one in seven women. Perinatal 
depression and other mood disorders, such as bipolar and 
anxiety disorders, can have a horrific effect on women, 
infants, and families. In fact, maternal suicide exceeds 
hemorrhage and hypertensive disorders as a cause of maternal 
mortality.
    I had no idea, although I have a son who is about to turn 1 
this week. And that fog of war that happens, especially when 
you are adding to your family, you already have one, is quite 
something.
    And suicide and overdose are the leading cause of maternal 
mortality in a growing number among States. And given these 
trends, I wanted to talk about what your--in terms of 
prioritizing research in pregnant and postpartum women. And I 
have a bill on safe medications, and so we are interested in 
this space.
    Dr. Gordon. That is really wonderful to hear that you're 
interested from a legislative perspective.
    I come at it from a very personal perspective, I had a 
patient I treated for years and years, stable on medications 
with bipolar disorder. She wanted desperately to have a child 
and we took every safeguard we could. She was fine through the 
pregnancy and absolutely had a devastating year-long fight with 
postpartum depression that led to several suicide attempts and 
months in the hospital. And that is a patient I care deeply 
about fortunately, I can say that she recovered. But we were at 
a loss, because every medicine we had ever tried on her failed, 
electroconvulsive therapy failed, and it was a very challenging 
situation.
    So we need to know more about what makes postpartum 
depression different from other forms of depression and what 
forms of treatment work in there in that setting.
    Currently, we support research on psychosocial 
interventions, and we have several grants that we are 
supporting in that area for postpartum depression. We also have 
several treatment studies on antidepressant use in pregnant 
women to try to find out will that actually help forestall, and 
is it, as you mentioned, is it safe. There are safety concerns 
as well.
    So this is an area of active investigation for us that we 
are deeply committed to, and I am happy to provide the details 
afterwards for the record.
    [The information follows:]

                 NIMH Studies on Postpartum Depression

    NIMH-funded efforts to understand postpartum depression range from 
basic science to identify biomarkers of risk, to research on social 
factors, to services and interventions research. NIMH also supports 
research to advance treatment for women with postpartum depression, 
including psychosocial interventions and antidepressant use in pregnant 
women. Ultimately, we hope that this research will help us learn more 
about how pregnancy interacts with risk for certain mental illnesses--
including depression--and effective treatment interventions.

    Ms. Herrera Beutler. I would love to have that. Thank you. 
I appreciate it.
    Mr. Cole. I thank the gentlelady.
    We will next go, finishing out the first round, to my good 
friend, the distinguished Subcommittee Chairman for Energy and 
Water, Mr. Simpson from Idaho.

                             INDIRECT COST

    Mr. Simpson. Thank you, Mr. Chairman.
    First let me say how glad I am and appreciative of the job 
that you and the Ranking Member did on this appropriation bill 
with NIH. It shows the bipartisan effort that we can do, and it 
is vitally important.
    I am not one who is easily impressed, but I am always 
impressed when I come out to the NIH and talk to you all and 
your researchers out there about the work that you do, and it 
is one of the fascinating places to go.
    And as I have said repeatedly, I say this in Idaho 
speeches, that it is the best kept secret in Washington, D.C. 
They do such great work out there, but a lot of people don't 
know what NIH is and the impact that it has because of all the 
extramural grants that you have to give out. So, Johns Hopkins 
gets all the credit for this and all that kind of stuff, but it 
is funding that comes from the taxpayer through you to do a lot 
of that research, and it is one of those things we need to 
continue to work on.
    A follow-up on what Mr. Harris was talking about on the 
indirect costs. You know, it is great if you can reduce the 
indirect costs and make it make sense and you can put more 
money into the research and we could, as he said, fund 
thousands of more research products. The problem is, is you are 
not funding thousands of more research products if at the same 
time you are cutting the budget by $5,000,000,000 or 
$6,000,000,000. If you are saving money there and can put it 
into research, that is great. So we need to be clear about what 
we are talking about here.
    And the question I was going to ask was actually addressed 
by Mr. Womack, and the need for some of these smaller States 
and their research universities and those types of things and 
some of the incredible work that they do. And I know it is not 
your job to make sure that all the money is funded fairly 
throughout the country and so forth, your job is to get the 
research done at the best place to do it.
    But as you are well aware, there are many smaller States 
that have research capabilities and are developing more and 
more research capabilities. Boise State University is doing 
some great biomedical research. When I look at the dollars that 
are being spent in Idaho versus Montana or the Dakotas or Utah 
or something like that, you know, your first reaction is, well, 
that is not quite fair.
    I think they just don't know the opportunities that exist. 
And what I would like to invite you to do is when you stop in 
Arkansas to see Mr. Womack, get back on the plane and come to 
God's country in----
    Mr. Cole. You mean Oklahoma?

                       IMPACT OF 16-DAY SHUTDOWN

    Mr. Simpson. Yeah. You passed right over Oklahoma.
    And stop. And I would ask that you--you know, I know if you 
can't make it out there, what I would like to do is ask you to 
sit down with the researchers at Boise State University and the 
other research institutions in Idaho and talk about the 
collaboration and the efforts that they can have of the 
opportunities that they might have to work in some of these 
areas, but they are really developing some great capabilities 
in some of these smaller States. And I know you know that.
    So the question I am going to ask is one that--I have given 
this answer many times, but when we were out visiting NIH a 
year ago, year and a half ago, something like that, two years 
ago maybe it was, one of the Members that was with us asked you 
a question. And I have repeated this answer many times, but I 
think you need to repeat it for the public record, especially 
since I have seen individuals say that maybe what we need is a 
good government shutdown in September. First of all, I have 
never seen a good government shutdown.
    What was the impact of the 16-day shutdown, the last 
shutdown we had, on NIH, and how did it affect you and your 
colleagues?
    Dr. Collins. It was probably the darkest hour that I have 
experienced since I have been the NIH director, and it is now 8 
years. For those 16 days, all of our intramural scientists were 
sent home, because they were not allowed to come to work. They 
were even told they might be prosecuted if they did. That meant 
that experiments that were in the middle of being conducted, 
many of them which take many days, were wasted.
    The most heartbreaking part was what this required me to do 
as far as overseeing our Clinical Center, the largest research 
hospital in the world, where we basically had to turn patients 
away who had, many of them, been scheduled for weeks or months 
to come, oftentimes because we are the court of last resort.
    That is what the NIH Clinical Center does. People come 
there when everything else has run out of possibilities and we 
have an experimental protocol they are willing to try. And 
except for a few patients each day who were literally in an 
extreme circumstance of potential imminent death, we had to 
turn away everybody else, and for 16 days hopes were dashed.
    That was a deeply, deeply troubling circumstance that I 
hope never would be repeated.
    Meanwhile, all of our extramural efforts, we had to cancel 
thousands of peer review sections that were scheduled to review 
grants, and all of those had to somehow be quickly rescheduled 
after the 16-day period started up again. Enormously 
challenging and stressful for everybody. We were determined not 
to have it result in a slowdown of grant reviews, but it was 
painful, to put it mildly.
    So my hope would certainly be that whatever we have to do 
to figure out budget circumstances, that a shutdown would not 
be on the list of options. For us, it was just purely 
destructive.
    Mr. Simpson. I thank you for that answer. It is good for 
the public to know that, because oftentimes we hear, you know, 
out in the hinterlands when we go home or something like that, 
``Well, you know, the shutdown didn't affect me. What the 
heck?'' It has a real impact, and people need to know that. As 
I have said, I have repeated your answer many times in talks 
that I have given and stuff.
    So, I appreciate and thank you all for the work that you 
do. It is incredible stuff.
    Mr. Cole. I want to thank my friend for a great question.
    And just a little piece of advice, Dr. Collins. When you go 
to Idaho, as I am sure you will, try to pick football season. 
My guys at the University of Oklahoma will tell you they play 
pretty good football out there too.
    Dr. Collins. Sounds like I am going to be traveling a lot 
this year.
    Mr. Cole. We can arrange your fall schedule.
    Mr. Simpson. Yes, we can.

                             H7N9 BIRD FLU

    Mr. Cole. But just in the interest of time, I want to 
advise my colleagues we are going to try and cut to 2 minutes 
so we can get as many additional questions as we can in. And 
let me begin that round.
    Dr. Fauci, I understand that while the H7N9 flu virus 
circulating in China right now is not easily transmitted, or 
not yet at least, easily transmitted between humans, it has 
shown signs it really could be a lot deadlier than other flu 
strains that we have seen circulated in the United States So 
would you please tell us what both you are doing at the NIH and 
NIAID is doing to better understand the virus and prepare?
    I mean, sadly, we have all learned we are only one pandemic 
away from a real challenge, and these things seem to be popping 
up, if anything, more frequently than they did and moving much 
faster than they did in previous eras.
    Dr. Fauci. Thank you for the question, Mr. Chairman.
    The H7N9 bird flu, which is an influenza that affects 
chickens, predominantly in China, what we saw starting in 2013 
was the ability of that virus to jump from the chicken to a 
human. In humans, it causes very serious disease, and has 
caused 30 or more percent mortality.
    Fortunately, it jumped from chicken to human, but did not 
develop the capability of going efficiently from human to 
human. But every single season from 2013, 2014, 2015, and 2016, 
we have had cases of a virus that keeps recurring. In 2017, 
what we have seen is a virus that has reemerged as a slightly 
different strain in a way that is not covered by the vaccine 
that we made back in 2013 and put in our stockpile.
    So the major effort underway right now, together with the 
PHEMCE group that I just described a few minutes ago, is to 
develop a vaccine that would be specific against this 
particular strain of the H7N9 virus. And we are working 
together with the CDC, the FDA, and BARDA, and pharmaceutical 
companies to be able to get that into the stockpile in case 
that virus does develop the capability of spreading from human 
to human.
    One last thing to mention for a few seconds. This is the 
reason why we need a universal influenza vaccine and what we 
are putting a lot of effort on, so that we don't have to be 
constantly responding to potential pandemics and seasonal flu. 
But maybe I could provide additional information that at 
another question.
    Mr. Cole. Absolutely. And it is also the reason why we need 
to maintain a very robust capability, which was one of the 
points I wanted to make. This is not something--we can't 
recreate what you guys do overnight. And so if you don't have 
it and maintain it, you don't have the ability to respond when 
something like this pops up.
    With that, I want to go to my good friend, the gentlelady 
from Connecticut, the ranking member.

        DEVELOPMENT OF UNIVERSAL INFLUENZA AND MOSQUITO VACCINES

    Ms. DeLauro. Let me pick up on that, and I am going to try 
to get in a couple questions here. But my question was to 
follow up on the vaccine, which is, where are we on the long 
term to developing a universal vaccine?
    And then you have got the issue of a broad spectrum 
response to mosquito-borne flaviviruses, if that is what they 
are called, Zika, Dengue, West Nile, Yellow Fever, in terms of 
one product, if you will, dealing with that.
    And then, Dr. Collins, I want to ask you about the impact 
of the hiring freeze on the NIH's ability to conduct and 
support biomedical research.
    Dr. Fauci.
    Dr. Fauci. For the universal influenza vaccine, on May 23, 
literally in a few days, several of our scientists will be 
meeting with individuals in Palo Alto who are putting together 
a program of consortia of a meeting that we will be holding 
here in the Rockville area in the third week in June to get the 
best scientists in the country together to have a consortium of 
an effort to develop a universal influenza vaccine. I can't 
tell you exactly when we will have a universal vaccine, but the 
scientific advances are substantial, and we are doing it as a 
consortium, the same way we did many years ago when we put 
people together to create the Vaccine Research Center. It will 
be a center without walls. And we are going to be aiming 
towards that.
    I will give a final answer to your question about maybe a 
universal type of vaccine against mosquitoes. There is a very 
ingenious approach that though I can't tell you it is going to 
be ultimately successful, is essentially to develop a vaccine 
against proteins in the saliva of a mosquito. When the mosquito 
bites there will be an inflammatory response around the bite 
area which would prevent whatever microbe, Zika or Chikungunya 
or any of the other flaviviruses or other viruses or even 
malaria, to block the microbe before it actually disseminates 
through the body. That is being started right now at the NIH.

                             HIRING FREEZE

    Ms. DeLauro. Yay.
    Dr. Collins, hiring freeze.
    Dr. Collins. Very quickly on the hiring freeze. Every time 
there is a change in administrations, those of us that have 
been around a while recognize that a hiring freeze is likely to 
be imposed as the new group comes to town and figures out how 
they want to manage.
    We have, of course, a particular circumstance where we, 
with a very large staff, 17,000 people, and patient care 
responsibilities, have a particular need to be able to keep 
things moving. We were pleased that patient care positions were 
exempted from that, so we have been able to continue to staff 
our Clinical Center for the most part, with some exceptions of 
things that were still being studied.
    And we have very recently, working with the Department, 
with Secretary Price, been given an opportunity to proceed with 
other critical hires, such as what we need now to staff up the 
Precision Medicine Initiative, the All of Us Program that is 
going to enroll a million Americans over the next two or three 
years and aims to launch in the next few months and needed some 
very senior staff to manage it, and they have given us a green 
light for that.
    So, we are hopeful that this difficult period, which 
happens every time there is a change in administrations, is 
beginning to settle out.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Cole. Thank you very much.
    We will go next to my good friend, the Ranking Member of 
the Full Committee.

             LACK OF DETECTION METHODS FOR CERTAIN CANCERS

    Mrs. Lowey. Dr. Lowy, I am particularly concerned, as you 
know, about a lack of early detection tools for certain 
cancers, in particular kidney and pancreatic cancer, which can 
often develop into an advanced stage before a patient may even 
know he or she is sick. If you can tell me what research is NIH 
supporting to lead to early detection of these cancers.
    And the development of immunotherapy has been a great 
public health achievement, leading to lifesaving outcomes for 
some cancer patients. However, immunotherapy is not an option 
for all cancer patients. Why is this the case? Are there ways 
to bridge this gap so that more tailored cancer treatments are 
available to more patients.
    In about 1 minute.
    Dr. Lowy. Thank you, Congresswoman Lowey.
    So, first, in terms of early detection for pancreatic 
cancer and kidney cancer, we certainly share your concern, and 
the NCI is supporting research in both of these areas. With 
pancreatic cancer, we have joint programs with the National 
Institute of Diabetes and Digestive Kidney Diseases, 
particularly focused on diabetes as a potential biomarker for 
early steps in pancreatic cancer.
    For kidney cancer, the two principal areas right now are 
imaging, where sophisticated imaging processes are able to 
detect cancer at an earlier stage than with older forms of 
technique, and, in addition, there is some sense that urine 
tests for kidney cancer and also for bladder cancer could be 
hallmarks. These are areas of active investigation.
    In terms of your second question, we certainly share your 
interest in and concern about immunotherapy, which has in many 
ways revolutionized the treatment of cancer, and not just one 
form of cancer, but many forms of cancer. Thanks to the 
generous support of your Committee and the Congress, the Cancer 
Moonshot is supporting a major initiative to try to understand 
why is it that some patients and some cancers make a strong 
response to immunotherapy, whereas others don't.
    Thank you very much.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. Absolutely.
    The gentleman from Maryland, my friend Mr. Harris.

                         BIODEFENCE SPEND PLAN

    Mr. Harris. Thank you very much.
    And just to follow up with the gentleman from Idaho about 
shutdowns, look, I was disappointed the Senate Minority Leader 
basically was threatening to shutdown the Government over, you 
know, not building a southern border defense. I can't 
understand that.
    I hope this administration will be different than the last 
administration, though, in determining that the NIH is 
essential to protecting human life and property, because the 
President does have the ability to designate the NIH is 
important to human life and property.
    Just to the Director, I hope that we take a careful look at 
the human-animal Chimera research and make sure that all 
adequate ethical protections are in place, because it is kind 
of an interesting type of research on the horizon, and that we 
audit fetal tissue researchers. The Special Investigative Panel 
on Infant Lives noted and found that there are investigators 
who are probably acquiring tissue that is not in compliance 
with statutes regarding acquisition, and I would hope that the 
NIH is willing to audit that at some point.
    Anyway, Dr. Fauci, my question to you is specifically about 
biodefense measures. And my understanding is that some of--
about 15 percent of the funding administered by the NIAID 
actually is spent on threats that are termed to be material 
threats.
    Is there a biodefense spending plan from NIAID looking into 
the future? I mean, because I view your institute as kind of 
critical to this. Is there a long-range plan----
    Dr. Fauci. Yes.
    Mr. Harris [continuing]. About what is needed?
    Dr. Fauci. Thank you for that question, Dr. Harris.
    There is a long-range plan. And what we have been doing is 
transitioning over to the strategy of developing what we call 
universal platforms to be able to respond to many organism, as 
opposed to picking out this organism, that organism, and the 
other, because if you guess wrong, you put a lot of investment 
and you risk not having anything to be able to show for it.
    So the vast majority of what we are doing right now, for 
example, in the arena of vaccines, is to develop the 21st 
century version of the vaccine rather than having to grow an 
organism attenuated or kill it and then developed it into a 
vaccine. And we are doing the same thing with universal 
platforms for diagnostics, that you could just plug it in to a 
single platform and know right away what organism you are 
dealing with. That gets away from the guessing game, that 
sometimes is not a good investment.
    Mr. Harris. Thank you very much. And I yield back.
    Mr. Cole. We will next go to the gentlelady from 
California, Ms. Roybal-Allard, and then Ms. Lee on the second 
round.

   TRANS-DISCIPLINARY APPROACH TO PRECISION MEDICINE/CANCER MOONSHOT

    Ms. Roybal-Allard. Dr. Collins, the National Institute of 
Nursing Research supports scientific studies that build the 
foundation for clinical practice that promote health and 
prevent illness, manage and eliminate symptoms caused by 
illness, and enhance end-of-life and palliative care. 
Unfortunately, funding for the NINR has remained flat at less 
than half of 1 percent of the total NIH research budget. And I 
am going to just ask you to submit this, in the interests of 
time.
    Will you please submit highlights of the findings from NINR 
research studies that have resulted in improved quality of care 
and/or lowered health care costs? What percentage of studies in 
other NIH institutes are conducted by nurse scientists? And how 
is NIH working to promote a trans-disciplinary approach in its 
initiatives like Precision Medicine and the Cancer Moonshot?
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
             NEW DIAGNOSTIC TREATMENT AND DIAGNOSTIC TOOLS

    Ms. Roybal-Allard. And, Dr. Fauci, as you know, 
tuberculosis is the leading global infectious disease killer, 
taking the lives of 1.8 million people around the world 
annually. And in the U.S., TB cases are found in every State, 
and States are struggling to pay for the treatment of the 
disease. Drug-resistant tuberculosis has also been identified 
by the CDC as a serious antibiotic-resistant threat to the 
U.S., but research and development on TB is underfunded 
globally.
    Can you update the subcommittee on how NIAID is 
coordinating research to develop new diagnostic treatment and 
prevention tools to address this global and domestic public 
health threat?
    Dr. Fauci. Thank you for that question.
    Very briefly, the NIAID, as part of NIH is one of the major 
components of a new tuberculosis working group that developed a 
national plan that involves a variety of not only other 
agencies, but also pharmaceutical companies. We had the mandate 
to develop a report in December 2015, and we have just this 
past March submitted that report, which is posted on the USAID 
website, to be seen by everyone and anyone, and it is a plan 
that is an accelerated way to partner with industry.
    One of the specific examples of that is the new trial of 
drugs against multiple-drug-resistant tuberculosis, including 
delamanid and bedaquiline, along together with the existing 
drug linezolid and they all look pretty good against multiple-
drug-resistant tuberculosis.
    Ms. Roybal-Allard. Okay. Great. Thank you.

                          SICKLE CELL AND COPD

    Mr. Cole. Okay. We will next go to my other good friend 
from California, Ms. Lee.
    Ms. Lee. Thank you very much.
    Many of you know that I have had a very keen interest in 
sickle cell research, sickle cell trait, COPD, and multiple 
sclerosis. My mother passed away from complications from COPD. 
And I have learned a lot about these diseases as a result of 
personal experience, but also as a result of your understanding 
and response on them.
    So with regard to COPD, I have learned, of course, 15 
million people have COPD, a lot--many of these don't even know 
they have COPD. I want to thank you for developing and putting 
forward a COPD action plan and want to know kind of what are 
the key items from that and what resources do you need to 
implement that.
    Second, with regard to MS, where are we in terms of finding 
a cure for multiple sclerosis and how the BRAIN Initiative will 
engage patients living with MS.
    And, finally, on sickle cell research, oh, boy, I tell you, 
on the trait, we haven't done a lot of research. I want to know 
if you are doing anything with regard to sickle cell, the 
sickle cell trait, and where we are in terms of sickle cell 
disease. I know, Dr. Collins, you mentioned to me that we are 
close on disease, but I would like to know more.
    Thank you.

                           COPD NATIONAL PLAN

    Dr. Collins. Maybe to take it in order. Dr. Gibbons on 
COPD.
    Dr. Gibbons. Yes. Thank you for that. We received guidance 
from Congress to put forward this COPD National Action Plan, 
and we have collaborated with our sister agencies, CDC, CMS, 
and key stakeholders. Certainly a key part of that engagement 
involved patients and families, families like yours, that have 
been touched by this devastating and debilitating disorder.
    What we have learned from that engagement process has been 
critical to formulating an action plan. In general, it has five 
goals. A key thing was raising awareness. As you mentioned, 
many individuals are affected, but unaware. So it is raising 
awareness. Certainly, there was a great call to advance our 
treatments, so much of what we do needs to be updated, and we 
must advance new treatments, as well as preventive 
interventions.
    So we do have more work to do, and that is part of our 
research agenda that has come forward with the action plan. And 
we look forward to that being released soon perhaps within the 
next week or two.
    Mr. Cole. Okay. We will next go for our last set of 
questions to my good friend from Massachusetts, Ms. Clark.
    Ms. Lee. Can I just ask that the response to the other two 
questions be in writing, if we don't have time?
    Mr. Cole. Yeah. We are getting close, so if that is okay 
with you, then that is what I would prefer.
    Dr. Collins. Will do.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Cole. Thank you.
    Ms. Lee. Okay. Thank you.
    Mr. Cole. Ms. Clark.

                            OPIOID OVERDOSE

    Ms. Clark. Thank you, Mr. Chairman.
    A couple of questions for Dr. Volkow.
    Seven hundred and fifty people last year in Massachusetts 
under the age of 35 died from opioid overdoses. We need to 
study the long-term effects on young people, their brains, 
social development, and how to best treat younger Americans who 
are in the grips of this deadly crisis.
    So my first question is, can you tell us what NIDA is doing 
to better understand the needs of young people struggling with 
substance use disorder, and do you have the support and 
latitude to act in this area?
    And a related question is, I have been very interested in 
medically assisted treatment, specifically looking at that for 
young people and increasing the alternatives that might be 
available. Last week, Secretary Price referred to MAT, 
medically assisted treatment, as, quote, just substituting one 
opioid for another. I believe this kind of attitude is why it 
is so difficult for people struggling to survive with opioid 
use to gain effective treatment.
    Do you agree that we need more access to MAT for people 
struggling with addiction, including adolescents and young 
adults? And can you tell us a little bit about why treating 
Fentanyl addiction poses such a particular challenge? I know 
you are doing some work and have an upcoming meeting on that.
    Dr. Volkow. Yes. Thanks very much for the questions. And 
indeed, within the tragedy of what we are living with the 
opioid crisis, is of utmost priority, of course, are the young 
people, because, first of all, they are much more vulnerable to 
become addicted, and then if they do become addicted, they have 
a whole life of consequences.
    So one of our priorities in partnership with several of the 
institutes at the NIH is the equivalent of the Framingham 
study, but for adolescents. So we are recruiting 10,000 
children, that as they transition from childhood into adulthood 
we are going to be periodically characterizing them and 
obtaining brain imaging to understand what are the normal 
developmental trajectories of the human brain, so that we may 
be able to understand better how drugs change it and how they 
interact with the environment and how that affects also mental 
illnesses.
    As it relates to the treatment of opioid use disorders 
among teenagers, we have actually--we have shown, we have 
provided research to show that actually there is benefit of the 
use of Buprenorphine treatment for the adolescent population, 
that your outcomes are much better.
    As you are mentioning, right now on top of everything that 
we have seen with the opioid crisis we are faced with new 
synthetic opioids which are much more potent than anything that 
we have ever heard. As a result of that, we are challenged with 
the fact that the medications that we use to use in order to 
reverse the opioid overdoses are no longer working.
    So one of the priorities that we have is to actually why 
there is such an urgency to develop treatments that can reverse 
these extremely lethal opioid drugs, and obviously, along all 
of these, working with the other agencies in order to be able 
to prevent access to these type of drugs, such as Fentanyl, or 
even more potent ones like Carfentanil.
    Ms. Clark. Thank you.
    Mr. Cole. Thank you. And that concludes our hearing, but I 
would be remiss--I certainly will--just not to thank all of our 
witnesses.
    Dr. Collins, thank you and your colleagues. It is always a 
compelling display, quite frankly, of the talent, the 
compassion, the commitment that we have working on our behalf 
as American people at the National Institutes of Health. So we 
very much appreciate you giving your time and your expertise to 
this committee.
    I now recognize my friend, the ranking member, for any 
closing comments she cares to make.
    Ms. DeLauro. Thank you very much, Mr. Chairman. And if I 
can, I would love to get written responses. I wanted to ask Dr. 
Lowy about where we are on the Moonshot. We have done 300 
million, we are going to do another 300, where that takes us.
    Ms. DeLauro. I associate myself with my colleague who 
talked about the funding for the Institute of Nursing and what 
the rationale is for where they come on the pecking order.
    I will submit for the record a question on the sex-gender 
balance in biomedical research and where we stand on that. 
There were a couple of questions in that area. And also what in 
terms of the funding for individual investigators, what kind of 
allowances will be made or will there be special exceptions to 
what you are looking at in that direction.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Ms. DeLauro. But it is always enormously gratifying to 
listen to what you all are engaged in. What you are engaged in 
is what your life's mission is and what you have done to be 
able to save lives. I count myself very blessed to have the 
opportunity to be elected to this body and to have been here 
now for 26 years. And what you do has never ceased to amaze all 
of us, as we have said here today.
    And what is critical in understanding for all of us on both 
sides of the aisle is why we come here and what the potential, 
because that is what this institution has, is great potential. 
And that great potential, if we push the edge of the envelope 
in the way that you push the edge of the envelope in your 
discoveries, and to provide--we have the power here to provide 
the resources to allow you to push the edge of that envelope 
and to save lives.
    That is pretty extraordinary with the mission of the United 
States Congress, and you take it seriously, we take it 
seriously. You don't have to comment on the budget, but we 
certainly have to comment on what it is and where we believe it 
needs to go.
    Thank you very, very much, all of you, for what you do.
    Thank you, Mr. Chairman.
    Mr. Cole. I am certainly not going to try and top that. And 
I can assure everyone in the listening audience, my friend does 
push the envelope on behalf of things in which she believes 
very, very extensively.
    So with that, again, our gratitude to all of you coming and 
testifying today. It is a very valuable committee. I think more 
profoundly it is very important to the American people to have 
an opportunity to hear both the possibilities and the 
challenges that you face and why this is a very worthy endeavor 
for them to invest their taxpayer dollars in, because, as you 
have each demonstrated in different ways today, the return to 
them and their families and, frankly, people all over the world 
is astronomical.
    So, again, we thank you for your work, and we appreciate 
your time today.
    The hearing is adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    


                                           Wednesday, May 24, 2017.

                        DEPARTMENT OF EDUCATION

                                WITNESS

HON. BETSY DEVOS, SECRETARY, SECRETARY OF EDUCATION

             Introduction of Foster Youth Shadow Day Guest

    Mr. Cole. Good to have you here, Madam Secretary.
    Before we begin formally, I want to recognize Ms. Roybal-
Allard for the purposes of an introduction.
    Ms. Roybal-Allard. Thank you, Mr. Chairman, for this 
courtesy.
    I would like to introduce Tommy Diaz, who is a former 
foster care youth, who is shadowing me today for the Sixth 
Annual Congressional Foster Youth Shadow Day. Tommy is a 
resident of Downey, California, in my 40th Congressional 
District. His educational aspirations are to earn a master's in 
architecture and have a career in designing sustainable green 
houses in the community.
    I just want to thank him for coming to D.C. to help ensure 
that the voices of current and former foster care youth are 
involved in the child welfare reform discussion, particularly 
efforts to support the well-being, talents, and educational 
aspirations for every child involved in foster care.
    And Tommy is the one with the blue around him.
    Mr. Cole. Why don't you stand up real quick? Yes, stand up. 
[Applause.]
    There he is.

                       Chairman's Opening Remarks

    Good morning, Madam Secretary. It is genuinely my pleasure 
to welcome you here to the Subcommittee on Labor, Health and 
Human Services, and Education. We are looking forward to 
hearing your testimony.
    Madam Secretary, you have one of the most important jobs in 
Washington, and that is ensuring that all young people will 
have access to the education they need to be successful in 
coming decades. And frankly, I know it is a cause that you have 
devoted your life to quite selflessly.
    Many of our schools do fantastic jobs, some need some 
support, and others are in need of significant improvement and 
reform. But one fact remains, and that is we need to do the 
right thing for all America's children, and your job is to 
ensure that that happens.
    The budget blueprint that came out in March was further 
detailed yesterday and proposes some dramatic shifts in the way 
your agency does business. It has a goal of opening doors for 
more educational choices to families, whether those schools be 
regular public schools, charter schools, or private schools.
    I applaud your investment in high-quality charter schools 
as a way to give options to many students who have had no 
options in the past. I support high-quality education options 
for all students, and I believe the neediest among us have the 
most to gain from an excellent education. I have long supported 
programs that help level the playing field for Indian children, 
for disabled children, first-generation college students, and 
poor children. I think that is a common objective on this 
committee.
    Today, I will have some questions about how your school 
choice proposals would work and how they would mesh with the 
reauthorization of the Elementary and Secondary Education Act 
that was just completed over a year ago and was nearly a decade 
in the making.
    I also appreciate that your budget aims to protect the most 
vulnerable populations--students with disabilities, English 
language learners, and Minority Serving Institutions. It is 
unfortunate that the timing of the final consolidated 
appropriations bill and the production of the full budget 
coincided such that the final fiscal year 2017 budget figures 
were not known at the time your funding proposal decisions were 
finalized. And I understand that makes apparent--or makes 
sometimes cuts appear that, frankly, were not intended to be 
cuts at all.
    In many cases, it is obvious that the policy of your 
administration was to maintain current funding for programs. 
But Congress increased for particular programs, sometimes after 
the fact, such that your proposal would appear to be a cut 
when, in fact, that was not the intention at all. We simply 
need to carefully explain ourselves when discussing proposed 
increases and decreases today.
    Your budget also shifts the way higher education student 
financial assistance flows by proposing dramatic changes in the 
Supplemental Educational Opportunity Grant (SEOG) and college 
Work Study programs. I look forward to learning more about how 
you believe these reforms will increase student access to and 
completion of college programs.

                  Chairman's Opening Remarks Continued

    Your budget consolidates and proposes over 20 programs for 
elimination. Many of these are cited as being duplicate, 
ineffective, or not a key Federal mission. I look forward to 
discussing those, and your budget also proposes cuts in TRIO 
and GEAR UP, which, frankly, I will advise you I have a 
different point of view on. But I will be interested in 
discussing this with you and learning your rationale.
    I will also have questions about your proposed funding 
levels for individuals with disabilities, particularly in light 
of the recent Supreme Court decision, which found that schools 
must provide a meaningful education opportunity to all children 
with disabilities and not just a bare minimum level of 
services. And again, I want to commend you for making a special 
effort to protect these populations in your budget.
    Finally, ultimately, this subcommittee needs to know the 
specific details of how your cuts impact schools and students 
and how new programs would be implemented. The budget provides 
some of these details, and I know some are still being 
developed, but we look forward to hearing what you are able to 
share with us today.
    As a reminder to the subcommittee and our witnesses, we 
will abide by the 5-minute rule so that everyone will have a 
chance to get their questions asked and answered. Obviously, we 
have both the big Chairman and the Ranking Member here. So I am 
going to move next to my Ranking Member, but we will certainly 
be calling on them for whatever remarks they care to make as 
well.
    Ms. DeLauro. Thank you very much----
    Mr. Cole. I recognize the gentlelady from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And I want to welcome the Secretary. I will take one 
second, if I will, because like my colleague Congresswoman 
Roybal-Allard, I, too, have a young woman who is shadowing me 
today. Justina Rosario, from the City of New Haven, 
Connecticut, who, as with Tom, is part of the program that is 
dealing with foster children and making it through the system, 
which they both have.
    So I want to welcome her. Thank you, Justina. [Applause.]

                    Ranking Member's Opening Remarks

    Ms. DeLauro. Again, thank you, Secretary DeVos, for joining 
us today and offer my congratulations to you. But let me launch 
right in as we spoke about recently.
    I believe the proposals contained in President Trump's 
budget are alarming, and quite frankly, this puts us on a path 
towards the privatization of public education. This budget 
intends to shift public school funding and to advance an agenda 
that transfers taxpayer dollars out of local community schools.
    Education is the great equalizer in our country. At the 
signing ceremony for the original Elementary and Secondary 
Education Act, President Lyndon Johnson described education as 
``the only valid passport out of poverty.''
    Decades later, he is still right. The economic benefits 
that are accrued for the individual and society are 
indisputable. That is why our Government must be committed to 
providing every child with access to a high-quality public 
education. We need to focus our policies on strengthening 
public schools, reducing class sizes, supporting the teaching 
profession, providing more one-on-one attention, boosting 
student enrichment opportunities, supporting parental 
involvement, and making high-quality preschool available to 
all.

                 ACHIEVEMENT GAP IN HIGH-POVERTY AREAS

    We have an achievement gap in this country, and it is worse 
in high-poverty areas, both urban and rural. Yet these are the 
very areas we would starve with this budget. I note that a 
concerted Federal investment has helped students of color and 
low-income students make gains since the Department of 
Education was created.
    National Assessment of Educational Progress (NAEP) reading 
and math scores have improved. I won't go into it now, but 
later in the hearing will read you the success percentages of 
our students with the NAEP scores.
    At the same time economic inequities grew, high-poverty 
districts received less funding. Their students are more likely 
to be taught by novice teachers and less likely to take an 
Advanced Placement (AP) course for which they have shown 
potential.

                    FUNDING FOR PUBLIC SCHOOL CHOICE

    Ninety percent of our kids are in public schools. We need 
more resources to help them succeed. You can't do more with 
less. You do less with less. And we certainly should not be 
siphoning off taxpayer dollars to pay for vouchers. Vouchers, 
in my view, will destabilize not only our schools, but our 
communities, and I will fight at every step against any attempt 
to take public money away from public schools.
    Cutting funding for critical programs to increase Federal 
investments in charter schools also raises public 
accountability questions. I support charter schools, but I do 
not believe that they should supplant the public education 
system.
    Transferring limited resources from public schools to 
private schools is wrong. It creates a false choice for 
families. When Congress completed the bipartisan 
reauthorization of the Elementary and Secondary Education in 
2015, it soundly rejected efforts to decimate neighborhood 
schools, and we expect the administration to implement the new 
law as written.
    The Trump budget request includes $1.4 billion in new 
funding to expand so-called choice. At the same time, the 
budget puts $9.2 billion in cuts on the table, slashing or 
eliminating funding for many programs that benefit kids in 
public schools to pay for this ill-conceived proposal.
    Despite budget documents and rhetoric claiming the request 
maintains funding for core formula grant programs, it cuts $578 
million from Title I and $114 million from the Individuals with 
Disabilities Education Act (IDEA).
    The budget also eliminates $1.2 billion for after school 
enrichment programs that help keep nearly 2 million kids safe, 
$2 billion for teacher professional development and class size 
reduction, which would result in more than 7,000 teachers 
losing their jobs.
    Literacy is a mark of a civilized society. We spend money 
to spread literacy internationally. Yet we are eliminating $190 
million from the largest reading program for low-income 
children and youth and $96 million from grants that help low-
skilled adults become literate.
    Despite promises by the administration to champion the 
American worker, the budget slashes funding by 15 percent for 
Career and Technical Education programs that help prepare high 
school and community college students for in-demand jobs. The 
list goes on and on.

                        CUTS TO HIGHER EDUCATION

    The budget also proposes deep cuts to or eliminations of 
programs that help students access and succeed in higher 
education that have enjoyed bipartisan support, and bipartisan 
support on this subcommittee, for many years. Ten percent cut 
to TRIO, which would end academic support services for more 
than 130,000 college students.
    Fifty percent cut to work study, which would punish 
thousands of students who are working their way through 
college. The complete elimination of both the SEOG, 
Supplemental Education Opportunity Grants, that 1.5 million 
students rely on, grants that allow schools to tailor programs 
to students' needs, and the Strengthening Institutions program 
that helps nearly 200 community colleges and other institutions 
serve working-class students.
    The budget calls for an end to Public Service Loan 
Forgiveness (PSLF) for police officers, teachers, nurses, and 
raids $4,000,000,000 from Pell without taking any steps to help 
students access the economic freedom they deserve, such as 
increasing the maximum Pell award.
    Those in the administration claim to support Historically 
Black Colleges and Universities (HBCUs) but refuse to admit or 
simply ignore the fact that these disastrous budget proposals 
would harm the very programs that HBCUs and their students rely 
on.
    I want to be clear. Fraught and painful history of 
segregation in this country, HBCUs were not the product of 
school choice. They were a product of our Nation's racist 
segregation.

       PROTECTING STUDENTS FROM POOR QUALITY FOR-PROFIT COLLEGES

    Aside from your budget, I have questions about how you plan 
to protect students from low-quality, high debt, for-profit 
colleges. These companies prey on low-income students--students 
of color and the honorable men and women who serve in our 
military and sacrifice their lives for this country.
    Students at for-profits represent only about 1 in 10 of the 
total higher education population, yet they represent more than 
a third of all Federal student loan defaults, calling into 
question the quality and the value of education provided by 
this sector. The borrower defense and gainful employment 
regulations are critically important steps in reining in these 
abuses. That is why I am alarmed that one of your first actions 
as Secretary was to delay the gainful employment rule.
    Failure to fully implement this regulation will not only 
hurt students, it would be expensive. The Congressional Budget 
Office estimated a $1.3 billion cost over 10 years to 
taxpayers.
    President George H.W. Bush once said, and I quote, ``Think 
of every problem, every challenge we face. The solution to each 
starts with education.''
    We owe it to the future of our society to make a commitment 
to all of our children that they get the best start in life 
possible, and that cannot happen if we make misguided cuts to 
education.
    I look forward to a robust discussion today, and I thank 
you for being here.
    And I thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    And we are very privileged to have the distinguished 
chairman of the full committee here today. So, Chairman, we 
would love to hear whatever opening remarks you would care to 
make.
    Mr. Frelinghuysen. Well, thank you, Chairman Cole.
    And I also want to welcome Madam Secretary DeVos here to 
the Appropriations Committee. We look forward to your testimony 
and hearing your frank and candid views on any number of 
issues.

                Chairman Frelinghuysen's Opening Remarks

    Today's hearing is an important part of the oversight 
duties of this committee. Now that we have formally received 
the administration's budget request, the committee will 
undertake a thorough analysis of each and every budget. We will 
go through each and every budget line, question every witness, 
and demand credible spending justifications, and only then will 
we make our own determinations on the best use of those tax 
dollars.
    We intend to put forward a complete set of appropriations 
bills that adequately fund important programs while working to 
reduce and eliminate waste and duplication. I will work with 
Mrs. Lowey, Chairman Cole, Ranking Member DeLauro to move 
rapidly in the coming weeks and months to complete the fiscal 
year 2018 appropriations bills.
    Again, today's hearing is part of a process we follow to 
determine the best use of taxpayers' dollars. After all, the 
power of the purse lies in this building. It is the 
constitutional duty of Congress to make spending decisions on 
behalf of the people we represent at home.

                    ACCESS TO HIGH QUALITY EDUCATION

    We owe it to our young people to ensure that they have 
access to the best education possible, and your Department is 
vital in keeping that promise. Many programs administered by 
the Department of Education, like Pell Grants and those 
established by the Individuals with Disabilities Education Act 
(IDEA) ensure young people receive a quality education.
    I visit many wonderful schools in my district in New 
Jersey, some of the best in the Nation, throughout the school 
year, and I hear from students, teachers, and parents on a 
range of issues. In middle schools and high schools, I often 
hear about the benefits of a well-rounded education that is 
afforded by the Every Student Succeeds Act, which allow 
students to pursue interests in the arts, music, and physical 
education, as well as science, technology, engineering and math 
(STEM) education and English.
    In colleges and universities in my district, many students 
remind me that they would not have the opportunity to attend 
without programs like Pell and Federal Work Study. I am eager 
to hear how your Department will ensure opportunity for these 
students under proposed reductions, including the elimination 
of the Supplemental Education Opportunity Grants.
    Further, these goals can only be met by ensuring the next 
generation of teachers have access to quality higher education 
and the necessary tools in their careers. We need to work, as 
we have in the past, in a bipartisan way to ensure that every 
child in America is well educated.
    In conclusion, Madam Secretary, I welcome you. I look 
forward to working with you and this committee to make sure 
that we have the best possible legislation possible.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you, Mr. Chairman.
    And again, we are very fortunate to have the ranking member 
of the full committee, my good friend from New York is 
recognized for whatever remarks she cares to make.
    Mrs. Lowey. And I want to thank Chairman Cole, and it is 
good to have Chairman Frelinghuysen here, my partner. And 
always good to have my friend Congresswoman DeLauro here. Thank 
you both for holding this hearing. And I am very pleased to 
welcome Secretary DeVos before this subcommittee for the first 
time.
    Madam Secretary, I will get right to it. I believe that 
your budget proposal would do great harm to students in every 
facet of education, from kindergarten through graduate school 
and, for those with student loan debt, years beyond. It is just 
another example of the broken promises in the Trump budget that 
would harm hard-working Americans and set us back in preparing 
a 21st century workforce.

                PROPOSED CUTS TO DEPARTMENT'S 2002 LEVEL

    To me, this budget reflects the views that do not represent 
the majority of people in my district and people throughout the 
country. Your budget would cut $9.2 billion from the Department 
of Education, a cut of 13.6 percent, taking us back to 2002 
levels.
    It would siphon money from public schools to pay for 
private school vouchers, eliminate more than 22 education 
investments, including teacher training and after school 
programs, leaving 1.6 million children without a safe 
enrichment environment. And I want to say that has always been 
one of my favorite programs because if you can't convince 
people that they are enriching their children, at least they 
are keeping them safe while their parents are both working.
    It would make higher education more expensive by cutting 
Federal Work Study in half, eliminating Perkins Loans for needy 
students; preventing inflationary increase for Pell Grants, 
robbing its surplus; ending Public Service Loan Forgiveness; 
and more.
    In my district, Rockland Community College is currently 
taking part in a Department of Education initiative that 
provides childcare for low-income parents taking college 
courses, allowing students to earn a degree and enter the 
workforce more quickly with less debt. Your budget would 
eliminate this program, destroying the dreams of these hard-
working people who are trying to build a better life for 
themselves and their children.
    And I hope, by the way, before this budget is completed, 
you would come to the district, meet these families, meet these 
parents who are working jobs, going back to school so they can 
have a positive, bright future.
    This budget reflects the views of an administration filled 
with people who, frankly, never had to worry about how they 
were going to pay for their children going to college. And yet 
I am most upset that this budget would undermine our public 
education system and the working families who depend on them by 
reallocating funding for disadvantaged students, including the 
Pell surplus and Title I funding through private school 
vouchers.

                EVIDENCE BASE AND RATIONALE FOR VOUCHERS

    Study after study shows these vouchers go to families who 
would likely send their kids to private school anyway, yet this 
budget would deplete public schools to fund them. It is clear 
to me that you do not have the necessary understanding of our 
education system, between this proposed budget and your 
comments referring to public schools as a ``dead end'' and 
public school teachers as being in ``receive mode.''
    Please come. Come spend some time in schools in my school 
district, where the teachers I know don't stop working when the 
final bell rings. They work for hours every night getting 
prepared for the next day. Many of these teachers and 
administrators are on the front line, identifying the best way 
to reach each student and at times being a parent, counselor, 
teacher, and more.
    And I am not saying that it is all perfect, but let us 
improve the system rather than destroy the system. The teachers 
I represent were angered and demoralized after hearing your 
statements on public education. I hope that as you lead the 
Department, you will see the hard work and good that most 
public school teachers do every day and do better than this 
budget proposal to empower them to succeed.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.

                      Introduction of the Witness

    And Madam Secretary, again, it is a genuine pleasure to 
have you here. You are recognized for whatever opening remarks 
you care to make.

        Opening Statement of Secretary of Education Betsy Devos

    Secretary DeVos. Thank you, Mr. Chairman, Chairman 
Frelinghuysen, Ranking Member Lowey.
    Mr. Chairman, Ranking Member DeLauro, and members of the 
subcommittee, thank you for this opportunity to testify on 
behalf of the administration's budget proposal for fiscal year 
2018.
    I look forward to talking about how we can work together to 
improve educational opportunities and outcomes for all students 
while also refocusing the Federal role in education. While 
today's hearing is meant to focus on the numbers and mechanics 
of the budget, I hope we will all remember our goal and our 
purpose, how to best serve America's students. Allow me to 
share just one example.
    I recently met a young man, Michael, whose story truly 
spoke to me. Michael grew up in East Hartford, Connecticut, in 
a low-income neighborhood. He was an average student throughout 
elementary and middle school, but all that changed when he 
reached the district high school.
    Michael described a school where students were the real 
ones in charge of the class, and they would make it impossible 
for the teacher to teach. He was constantly bullied to the 
point he was afraid to even go to the school's bathroom, and 
this constant fear made him hate school. He described the 
school he was assigned to as, and I quote, ``nothing more than 
adult daycare, a dangerous daycare.''
    But even though he was failing his classes, the school 
simply passed him along from year to year, giving him Ds and 
sending the not-so-subtle message that they didn't think 
Michael would amount to much. Michael got a diploma, but not an 
education.
    Michael followed the path he thought he was destined for, 
working in a low-skill, low-wage job. But with the 
encouragement of his wife, Michael took a course at the local 
community college to see what was possible for him. He found an 
environment that was invested in his success, and much to his 
surprise, Michael earned an A.
    He thought it was a fluke. So he took more classes. Lo and 
behold, he earned more As. He is now in the school's honors 
program with the goal of working as an emergency room nurse. 
His success is America's success.
    Access to a quality education is the path to the American 
dream. So I ask you to keep Michael and countless other 
students like him in mind as we go about our shared work to 
support America's students. No student should feel they attend 
a dangerous daycare. No child's dream should be limited by the 
quality, or lack thereof, of the education they receive.

              EQUAL OPPORTUNITY AND DECENTRALIZING CONTROL

    This budget lays out a series of proposals and priorities 
working toward ensuring every student has an equal opportunity 
to receive a great education. It focuses on returning decision-
making power and flexibility to the States, where it belongs, 
and giving parents more control over their child's education.
    Parents deserve that right, and frankly, that right has 
been denied for too long. We cannot allow any parent to feel 
their child is trapped in a school that isn't meeting his or 
her unique needs.
    The budget also reflects a series of tough choices. If 
taxpayer money were limitless, we wouldn't need a budget at 
all. But by its very definition, a budget reflects the 
difficult decisions of how best to appropriate the limited 
taxpayer dollars we have. This budget does so by putting an 
emphasis on the programs that are proven to help students while 
taking a hard look at programs that are well-intended, but 
simply haven't yielded meaningful results.
    This is why the President's fiscal year 2018 budget would 
reduce overall funding for Department programs by $9 billion or 
13 percent. I have seen the headlines and I understand those 
figures may sound alarming for some. However, this budget 
refocuses the Department on supporting States and school 
districts in their efforts to provide high-quality education to 
all our students. At the same time, the budget simplifies 
funding for college while continuing to help make a higher 
education more accessible to all.

                     PRINCIPLES GUIDING 2018 BUDGET

    I would like to outline the principles that guided our 
decision-making. First, our request would devote significant 
resources toward giving every student an equal opportunity for 
a great education. It emphasizes giving parents more power and 
students more opportunities.
    Second, the administration's request recognizes the 
importance of maintaining strong support for public schools 
through longstanding State formula grant programs focused on 
meeting the educational needs of the Nation's most vulnerable 
students, including poor and minority students and students 
with disabilities.
    Third, our request maintains funding for key competitive 
grant programs that support innovation and build evidence of 
what works in education. This also means strong support for the 
research and data collection activities of the Department.
    Fourth, our request reduces the complexity of funding for 
college while prioritizing efforts to help make a college 
education accessible for low-income students. As Congress 
prepares to reauthorize the Higher Education Act, I look 
forward to working with you to address student debt and higher 
education costs while accelerating and improving student 
completion rates through such efforts as year-round Pell and 
reducing the complexity of student financial aid.
    And fifth, consistent with our commitment to improve the 
efficiency of the Federal Government, our request would 
eliminate or phase out 22 programs that are duplicative, 
ineffective, or are better supported through State, local, or 
philanthropic efforts. Six additional programs were already 
eliminated in the reauthorization of the Elementary and 
Secondary Education Act. All told, taxpayers will save $5 
billion.
    In total, the President's budget fulfills his promise to 
devolve power from the Federal Government and place it in the 
hands of parents and families. It refocuses the Department on 
supporting States in their efforts to provide a high-quality 
education to all of our students.
    Research shows that increasing education options can have 
positive effects on students generally and an even greater 
impact on poor and minority students. If we truly want to 
provide better education to underserved communities, then we 
must start with giving parents and students the power to select 
high-quality schools that meet their needs.
    We want to unleash a new era of creativity and ingenuity in 
the education space. My hope is that working in concert with 
each of you, we can make education in America the envy of the 
rest of the world.
    Thank you again for the opportunity to share the 
administration's vision for improving education across the 
country. I look forward to respond to your questions.
    [The information follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Cole. Thank you, Madam Secretary, and I am delighted 
again to have you here and appreciate your testimony.
    Let me begin with the first of the many unfair questions 
you are going to get. Unfair in this case because you will have 
had so little time in your Department to react to it.

     MEANINGFUL OPPORTUNITY MANDATE FOR STUDENTS WITH DISABILITIES

    But as I am sure you are well aware, we recently had a 
Supreme Court decision, Endrew F. versus Douglas County School 
District, an 8-0 decision, which found that school districts 
must provide a truly meaningful level of educational 
opportunity for students with disabilities and not simply more 
than a de minimis level of basic services.
    I think it is early, obviously, to tell what the full 
ramifications and implications of this are. But as you know, 
this is a tremendous cost to local school districts. Obviously, 
it is a major item in your budget as well, which, again, I 
appreciate you defending.
    Have you had a chance to think about what the impact of 
this decision will be on local school districts and, obviously, 
you know, how the Department might be able to assist the local 
areas in addressing it?
    Secretary DeVos. Well, thank you, Mr. Chairman, for that 
question.
    And this is an issue about which I have definitely become 
aware and followed closely. Let me just begin by saying how 
important I believe it is--the Federal Government's role is to 
support the IDEA program supporting students with special 
needs, with disabilities, and this budget does, in fact, 
anticipate level funding IDEA.
    What the implications are of this decision, obviously, 
remain to be seen. We are looking closely at the decision and 
the directive to help provide guidelines and are in the process 
of working through that now.
    But I would come back to, I think, the original reason for 
the case, and that was that these parents felt their son was 
not getting the kind of education that he needed. And they, as 
any parent would do, fought hard to make sure that their child 
was getting the support that he needed.
    And I think that this is an area that is very ripe for 
broader discussion around empowering parents more in these 
decisions around their children.
    Mr. Cole. This has been an area that this committee has 
really focused on. As a matter of fact, with all due respect to 
the last administration, they flat funded IDEA in their last 
couple of budgets, and it was this committee, honestly, that 
put more money for IDEA than either the Senate or the House. So 
as you develop your strategies, it is a scenario that we are 
going to want to visit with you about again. Because, again, we 
know this is a challenge for a lot of districts, and obviously, 
we want to make sure these young people are well taken care of.

                  PROPOSED TRIO AND GEAR UP REDUCTIONS

    Let me also ask you and give you an opportunity, and in 
full disclosure, I am a big TRIO fan. I have seen the impact in 
my district. And it is a program, actually, I first found a lot 
about when I was an academic back in the 1970s. It has been 
around a long time. It is a Great Society-era program.
    But it has produced over 5 million college graduates. So it 
has served its purpose well. And again, that is an area that 
had been flat funded, and this subcommittee has been the leader 
on restoring funding there.
    So I know you have proposed some reductions to that--and to 
GEAR UP, if you care to address it in the time we have got. I 
would love to have your thinking on this and your assessment of 
the program.
    Secretary DeVos. Thank you. Agreed there are portions of 
the TRIO program that have been very effective and very 
important for students who are aspiring to go to college who 
may not have had that opportunity.
    The focus of this budget and the portion of the TRIO 
program that we are proposing to be eliminated are the McNair 
Scholars and the Education Opportunity Center (EOC) portions. 
McNair being focused on postbaccalaureate program students and 
not--you know, sort of outside of the original intent of the 
TRIO programs to begin with. And then the EOC program being 
more of an ancillary activity to help support or market the 
TRIO program.
    So we felt that, again, with tough choices to be made, that 
these were areas that probably were not really focused on the 
original intent, as Congress intended the TRIO programs 
originally. So we have proposed those be eliminated but 
continue to fund the Upward Bound Program, Talent Search, and 
the Student Support Services Program.
    Mr. Cole. I appreciate that very much, and we will continue 
to have a dialogue. I think you will find, if you look at 
McNair in particular, it has helped a lot of students get 
graduate school that otherwise couldn't because, again, they 
are quite often coming from families of very limited means.
    Secretary DeVos. Granted, it is just a high cost per 
student in terms of its application.
    Mr. Cole. And you are absolutely correct. It is much more 
expensive per student, but that is partly because it is a 
graduate degree as opposed to an undergrad. But you are correct 
in your assessment in the cost.
    With that, let me go to my good friend the ranking member.
    Ms. DeLauro. Thank you very much, Mr. Chairman.

                   TITLE II--A TEACHER TRAINING FUNDS

    Madam Secretary, you have previously stated that funding 
designated for professional development in Title II, Part A of 
the Every Student Succeeds Act (ESSA) is redundant and 
duplicative. Eliminating Title II, Part A sends the message 
that either teachers, school staff, and principals have hit all 
the benchmarks and they do not need to improve, or teachers, 
school staff, and principals are doing so poorly that there is 
no need to invest in them. Which category do you believe 
teachers, paraprofessionals, and principals fall into?
    Secretary DeVos. Well, Madam Congresswoman, first of all, 
the Title II-A program, we believe, has been spread--it has 
been spread very thinly. It has been more prescriptive in 
nature, and as the States go to implement their ESSA programs 
and plans, they have great latitude with how to use other 
funding sources and to devote them to the kinds of activities 
that IIA has been intended for.
    Twenty percent of the grants that have gone through that 
program are of $10,000 or less, and so the efficacy of them has 
been very much in question. We believe that with the 
flexibility granted to the States that they are going to be 
able to use the other funding streams in support of these 
programs, if that is what is right for the plan and programs 
and the students in their States.
    Ms. DeLauro. I don't know these days that States have a lot 
of leeway in other funding streams. I just point to the State 
of Connecticut, which is in very serious financial difficulty.
    Now when teachers feel prepared and supported, they stay in 
the profession. Standards and curriculum change based on 
research. Teachers need to improve and change as well. Do you 
believe that that is true?
    Secretary DeVos. Absolutely.
    Ms. DeLauro. Okay.
    Secretary DeVos. And that a good and effective teacher is 
invaluable.

          TITLEII--A CUTS AND POTENTIAL STAFF CUTS IN SCHOOLS

    Ms. DeLauro. And they need the resources to do it. Okay. So 
having the resources there is critically important in order to 
deal with teacher development.
    Many schools use their Title II, Part A funds to keep 
classes from being overcrowded. So parents do not want their 
first grader to be in a class of 30 with one teacher. 
Eliminating this funding could mean firing approximately 8,000 
teachers. How do you explain this decision to parents?
    Secretary DeVos. Well, again, we believe with the 
implementation of ESSA that States are going to be best 
equipped and best able, along with their local education 
agencies and authorities, to be able to make these decisions on 
behalf of students closer to the decision----
    Ms. DeLauro. Decisions, though, without resources.
    Secretary DeVos. Well, there is resources through Title I 
that are very flexible in that regard.

                  TITLE I--FUNDING FOR TEACHER QUALITY

    Ms. DeLauro. Well, we have got a serious shift in funds 
from Title I. We can get that in another round. Shifting of the 
money out of Title I to school choice. That is part of where 
you all want to go with Title I. So Title I isn't going to be 
at the level that it necessarily needs to be in order to be 
able to accommodate these efforts.
    You talked about in your fiscal year 2018 budget that it 
refocuses the Department's mission on supporting the efforts of 
States to provide high-quality education. My view that 
eliminating of Title II, Part A contradicts this mission. How 
do you square this circle?

             TITLE IIA--ELIMINATION AND DEPARTMENT MISSION

    Secretary DeVos. Again, we believe that these decisions are 
best made at the State and the local level, and their ability 
to target the resources to where the needs are for their State, 
for their students, and for their schools is the most 
important. The flexibility afforded through ESSA is a very 
important element in consideration of this whole budget 
process.
    Ms. DeLauro. Should every student--again, you can't do less 
with less. That is my view. I don't know what everyone else's 
view is. And we are cutting back significantly in the resources 
to education and dealing with the notion that we do not have to 
invest in teacher training or in reduced class size in order to 
help better to have kids learn.
    Should every student have access to a highly qualified 
teacher? I am sure your answer is----
    Secretary DeVos. Absolutely.
    Ms. DeLauro [continuing]. Absolutely. How does the 
eliminating Title II funding impact the belief? We know that 
the Supporting Effective Educator Development (SEED) exists, 
the Teacher Incentive Fund (TIF) exists. There are competitive 
grants that don't reach every State and every school district. 
So how do you--by eliminating Title II, how do you back up your 
view that every student should have access to a highly 
effective teacher?
    Secretary DeVos. Again, reprioritizing the dollars that go 
to the States for their flexibility to be used in the best 
manner--that they deem the best manner possible for--on behalf 
of the students they are serving.
    And just with respect to your question and comment about 
reducing class size, that portion of that program only was 
effective or implemented for 8,000 teachers out of more than 3 
million. So the number of teachers that are actually being 
benefited or impacted through that is really very minimal.
    Ms. DeLauro. Eight thousand. I guess if you are one of 
those 8,000, you don't see yourself as minimal.
    Secretary DeVos. Indeed.

                TITLE I--EXPENDITURES AT DISTRICT LEVEL

    Ms. DeLauro. Just one final comment. And you can--is there 
evidence that States and districts aren't spending all of their 
Title I money? Because you have claimed that they can use Title 
I.
    Mr. Cole. If the gentlelady would please----
    Ms. DeLauro. There is no room to accommodate elimination of 
these programs.
    Thank you for your courtesy, Mr. Chairman.
    Mr. Cole. And please, if you would care to respond?
    Secretary DeVos. That is okay.
    Mr. Cole. Okay. Thank you.
    And again, we will try and be generous with the clock, but 
please.
    Ms. DeLauro. Thank you.
    Mr. Cole. Okay. If we can, we next go to the full chairman. 
Mr. Chairman.
    Mr. Frelinghuysen. Madam Secretary, I visit some years as 
many as 80 schools, juniors and seniors in high school, seventh 
and eighth graders, some of whom may trek down here for their 
Washington trip, and elementary schools promoting obviously 
literacy, Read Across America, things that put a sort of a 
human face on what we do as Members of Congress to support 
public education.

            IDEA AND FULL AUTHORITY SPECIAL EDUCATION FUNDS

    I have had a particular focus, as has Chairman Cole on 
IDEA, and I am hugely impressed and actually in awe of anyone 
who teaches special ed. They are, should be ordained for 
sainthood.
    We have never met our full obligation. I think the law was 
passed in 1975.
    Secretary DeVos. Forty percent.
    The Chairman. Forty percent partnership. Could you talk a 
little bit about--where you are relative to greater 
participation in terms of that partnership? I think it is 
absolutely essential.
    And may I just say for the record, and maybe it is true of 
New York as well for Mrs. Lowey, that there are a number of 
people who come to New Jersey because of court decisions which 
require a thorough and efficient education for every child, 
regardless of their circumstance. And many families with 
disabilities, or who have children with severe disabilities, 
the whole spectrum of disabilities, come to our State.
    We have, obviously, a great public school system. We have a 
supportive number of other schools maybe dealing with autism, 
particular challenges. Where do you feel we are going, and how 
supportive does this budget represent?
    Secretary DeVos. Thank you, Mr. Chairman.
    I share your concern and heart for both these students as 
well as those who help teach them, and they have a tremendous 
dedication to a wide range of needs and a wide range of 
students. And your reference to the fact that when IDEA was 
originally passed, the goal was to fund it at or to support 40 
percent of the cost of it, if Congress were to actually fully 
fund it, it would be $31.5 billion for IDEA.
    We are--the budget and what you have traditionally funded 
it the last number of years is at about the 15 percent range. 
So you can see we are proposing to continue the budget funding 
as has been done in the last number of years.
    But I think, you know, it is a matter for robust 
conversation. If Congress believes that the commitment to this 
program should be at a much higher level financially, there is 
certainly an opportunity there.
    Mr. Frelinghusysen. I think at one point, Mr. Chairman, we 
were up to 18 percent, and now we are down to, I think, 15 
percent. I think we need to do better, and I just want to put 
my oar in the water because I think it is very important.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentleman.
    We will now go to the ranking member of the full committee.
    Mrs. Lowey. Thank you, Mr. Chairman.

            DIRECTING PUBLIC SCHOOL FUNDS TO PRIVATE SCHOOLS

    As you have heard, I am extremely disappointed that your 
budget proposes to take funding from public education and 
transfer it to private schools. In my judgment, we need to 
increase the resources. Remember, the Federal Government just 
provides about 9 percent of resources for public schools. Most 
of it comes from State and local taxes.
    So what we have to do is increase resources for public 
schools, not put an increased burden on the State and local 
and, again, continue to work together to improve them, not 
diminish them. So I think it is imperative that this committee 
and the American people really understand just what this 
proposal would do. So a couple of quick questions you can just 
answer yes or no.

              VOUCHER RECIPIENT RIGHTS TO IDEA DUE PROCESS

    Under your proposal, would a student with disabilities 
receiving a voucher for a private school have due process 
rights under IDEA?
    Secretary DeVos. Ranking Member Lowey, I thank you for the 
question and thank you for being here today. Before responding 
yes or no to your question, allow me to just address one of the 
things that you said earlier about shifting funding.
    We are not proposing any shifting of funding from public 
schools to private schools. In fact, all of the proposals that 
have been set forth in the budget continue to fully fund and 
commit to funding public schools as we have. And so I want to 
make sure that we are very clear on that, and if we are 
misunderstanding numbers somehow, let us talk about that.
    Mrs. Lowey. Aren't you talking about vouchers? Who is 
paying for the vouchers?
    Secretary DeVos. That is an additional program to the Title 
I funds that have been carried forward in the budget.
    Mrs. Lowey. Where----
    Secretary DeVos. The Title I funds in the budget are 
consistent from----
    Mrs. Lowey. This is clearly a misunderstanding, so maybe at 
another time, we could talk about that. If you are funding with 
vouchers private school, the money is coming from someplace, 
and there is an overall cut in the budget.
    Secretary DeVos. There is a small--there is a proposal for 
a $250 million investment in the innovation portion of the 
budget that would help fund some pilot test programs around 
school choice, and we talk about--everybody talks about 
vouchers. What we also have to understand is that there are 
many different mechanisms to provide parents choices, and 
vouchers are but one mechanism.
    The $250 million does not prescribe a method or a 
mechanism. That remains to be discussed and decided upon if 
that is funded as part of the appropriations process.

        PERFORMANCE AND ACCOUTABILITY IN PRIVATE VOUCHER SCHOOLS

    Mrs. Lowey. We will have to continue this discussion 
because I would be interested in knowing whether private 
schools funded with public taxpayer dollars will be held to the 
same performance standards as public schools, and do you 
believe that private schools that enroll voucher students 
should be accredited and have to provide evidence of the 
quality of their programs?
    Secretary DeVos. Each State deals with this issue in their 
own manner, and I can refer to the program in Florida where 
there are 40,000 parents whose children are deemed students 
with disabilities who have chosen to take what is called the 
McKay Scholarship and take it to a private school of their 
choice. Those parents are very happy with and satisfied with 
that decision. They have made that choice to do that.
    And I refer to that as a specific example of a State 
addressing an issue in a way that is working for the students 
and parents in their State. Each State has to deal with this, I 
believe, in their own way.

             CLARIFYING IDEA DUE PROCESS REGARDING VOUCHERS

    Mrs. Lowey. Maybe I misunderstood, but can you clarify, a 
student with disabilities receiving a voucher for a private 
school have due process rights under IDEA. What is the law unto 
that?
    Secretary DeVos. Due process rights with regard to----
    Mrs. Lowey. IDEA.
    Secretary DeVos [continuing]. IDEA. They--if a parent 
chooses to go to a school that is not a public school, then 
that is a decision made and a contract made with that private 
provider or that other provider.
    Mrs. Lowey. But what is--will they have access to IDEA? 
Will they have due process rights? Or is that--I mean, the 
public should know that it is optional. Correct?
    Secretary DeVos. The way that they handle it in Florida is 
one approach. But again, each State has to--I believe if they 
are going to offer choices to parents and to students, they are 
going to deal with those issues in the way that works best for 
their State.
    Mrs. Lowey. Let me just say I see I have no time left, but 
there are many questions I have--after school programs, Pell 
Grants. We have worked very, very hard on this committee to 
support public education all the way up, and I am very 
concerned, when the Federal Government only pays 9 percent of 
the budget, that you are supporting further cuts.
    So I think we need increased dialogue here because 
education for me is probably one of our most important 
responsibilities if we are going to have a workforce that is 
strong, healthy.
    Secretary DeVos. I couldn't agree with you more.
    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Cole. Certainly. We are going to go a little bit out of 
order, if we may, because our friend Ms. Herrera Beutler has 
another engagement. So Mr. Harris has graciously agreed to 
allow us to go to her, and then we will resume our normal 
rotation.

                        YOUTH SUICIDE PREVENTION

    Ms. Herrera Beutler. Very gracious. Thank you, Mr. 
Chairman. And I thank the good doctor from Maryland.
    So I will make it as succinct as I possibly can. In 2014, 
suicide was the second-leading cause of death among young 
people 13 to 19. And youth suicide is a problem in certain 
areas of my district and across the country, quite frankly, and 
I have made a commitment to helping our schools address this 
problem.
    I have a kind of a two-part question, Madam Secretary. The 
first one is, how does the Department plan on partnering with 
local school districts as well as other agencies to effectively 
and swiftly address the mental health crisis that we are seeing 
evolve in our Nation's youth?
    And secondly, the second part, in many cases, school 
resource officers, or SROs, play an important role in this 
effort. They engage with students on a daily basis. They get to 
know them and are critical in identifying depression and 
suicidal behavior among these school-age kids or young people.
    And for the last few years, the Community Oriented Policing 
Service (COPS) hiring program has given additional resources--
or additional consideration to SRO grant applications, so the 
school districts who make application for this. And I wanted to 
hear what your thoughts are on the practice of school-based 
policing through school resource officers, and is it something 
you will be supporting?
    Secretary DeVos. Well, thank you, Congresswoman.
    First, let me say I share your concern about this crisis in 
our youth, and I think, to start with, those issues, that 
crisis is best addressed at the most local level possible. And 
so to the extent that ESSA again allows States and local 
communities great flexibility in how to invest the resources, 
hopefully, that they will--in an area where that is a very 
specific issue in crisis, they will certainly devote the 
resources necessary.
    From the Department level, we do have a program, the Office 
of Safe and Healthy Students, that is involved with helping to 
meet some of these needs. But again, it is a very distant 
relationship there. And I think to the extent that local 
communities have this issue as very high on their radar screen, 
I hope and trust that States in implementing their plans will 
account for that and address those needs very specifically 
there.
    Ms. Herrera Beutler. Do you think the Department of Justice 
should continue to promote the hiring of school resource 
officers within the COPS program?
    Secretary DeVos. I am sorry. Could you say that again?
    Ms. Herrera Beutler. Do you think the Department of Justice 
should continue to promote the hiring of school resource 
officers within the COPS hiring program?
    Secretary DeVos. I think certainly school resource officers 
are a very viable and important solution in some places. And I 
think, again, that is best determined at the State and local 
level.

                      CHRONIC STUDENT ABSENTEEISM

    Ms. Herrera Beutler. Okay, with a little bit of time left, 
in a 2014 Department of Education report, over 6 million 
students were chronically absent or missed 10 or more percent 
of school days. And in my State, we have the highest rate of 
chronic absenteeism by school district in the Nation.
    And unfortunately, that the research shows that the student 
who is chronically absent is seven times more likely to drop 
out of school than their peers who are not. There are reasons. 
I had recently held a roundtable, and there are very important 
reasons around why students--it is not just a random student 
playing hooky, which is what we used to think of it. There are 
home environments. There are community environments.
    There are reasons, you know, I think in high school, when I 
think about some of the young men who dropped out, they dropped 
out because they go, get a better job, and they couldn't see 
the relevance of being in class, right? So there are a lot of 
issues here.
    And I have recently introduced the Chronic Absenteeism 
Reduction Act with Congressman Tim Ryan, which would give the 
school districts the flexibility to implement strategies that 
would combat the chronic absenteeism because it is different 
per region and what the needs are.
    And my question for you is how does the Department plan to 
empower the local school districts to address this issue 
effectively?
    Secretary DeVos. Well, thank you for that question. I mean, 
it is a very real issue in many areas. And so often it is a 
matter of the student and the school not being a good fit for 
one another, but yet the student doesn't have a choice or 
another alternative.
    And I think about a letter that the Department recently 
received from an individual who is in the correctional facility 
in Minnesota who really was lamenting the fact that he didn't 
have the kind of fit that he needed in school. He went down a 
bad path and ends up in jail and in prison. And now is getting 
an education, but saying----
    Ms. Herrera Beutler. With just a little bit of my time 
left, I agree. Sometimes it is the fit. I totally agree with 
you. But sometimes there are also extenuating circumstances.
    Secretary DeVos. And again, I think it goes back to the 
local districts and the State that really need to work together 
to address the issues at the local level, closest to the 
students that need the support and the help.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. I thank you 
again, Dr. Harris.
    Mr. Cole. You are certainly welcome.
    We will now go to my good friend from California, Ms. 
Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                LEGALITY OF TITLE I PORTABILITY PROPOSAL

    And welcome, Secretary DeVos. I want to go back to a topic 
that was raised by the ranking member, which is how your 
department treats Title I. Quite frankly, I was disappointed to 
see your budget request includes focus grants, which is, in 
essence, a $1 billion Title I portability proposal.
    This request for an unauthorized, unproven carve-out from 
Title I is alarming, especially in light of your request to cut 
$578 million from other parts of Title I. As you know, Title I 
portability was soundly rejected by Congress during 
negotiations for Every Student Succeeds Act.
    During the debate surrounding ESSA, numerous nonpartisan 
experts and stakeholders ranging from the Brookings Institution 
to the Association of School Superintendents concluded that 
portability would result in more funding for wealthier school 
districts at the expense of poorer districts.
    My first question is, in your view, should high-poverty 
schools receive more funding resources than schools that have 
lower levels of poverty?
    Secretary DeVos. Congresswoman, yes, I think the reality is 
that they do receive higher levels of funding.
    And if I could just actually refer back to one of 
Chairwoman--Ranking Member Lowey's questions or the question 
around Title I funding and the assumption that Title I funding 
for vouchers was going to be a part of Title I. It is Title I-B 
that is for a voluntary school choice program. It is not any 
kind of a mandatory or imposed program. I just wanted to make 
sure to clarify that.
    And with respect to the funding for Title I, let us make 
sure we are clear that the budget that we are working from was 
prior to the omnibus changes in April. So we are working from 
that, those funding levels, and the proposal is to carry 
forward the Title I funding the same level and to fully fund 
Title I around support to and through public schools.
    Ms. Roybal-Allard. Just to be clear, so that you do agree 
that high-poverty schools should receive more Federal resources 
than lower-level poverty schools? Was that your testimony?
    Secretary DeVos. I think--yes. I mean, I think that that is 
the case.
    Ms. Roybal-Allard. Well, as the ranking member said, they 
don't. But my next question is, then, do you accept the basic 
premise by experts that high-poverty schools face 
disproportionate challenges when compared to moderate income 
and wealthy schools?
    Secretary DeVos. Yes, I do.
    Ms. Roybal-Allard. Okay. Well, quite frankly, I am relieved 
that you do acknowledge that. And then based on your answer 
then, I find it curious that then you would endorse a proposal 
that shifts more funding away from highest-need schools. So I 
think there is a conflict there.
    Secretary DeVos. We actually are proposing to protect all 
of the Title I dollars to public schools, and the additional $1 
billion is for a voluntary program that would allow students to 
choose between public schools.
    Ms. Roybal-Allard. But that money has to come from 
somewhere, and we can--because of lack of time, we can maybe 
explore this a little bit further. But any shifts in money, 
given limited budget, have to come from somewhere, and it 
appears that it is coming from areas that could truly help 
these low-income kids and from programs that----
    Secretary DeVos. Yes, and the reality is that it is 
intended to help low-income kids, and it is intended to give 
some more choices to them and their parents in finding schools 
that fit for them.
    Ms. Roybal-Allard. I think where the disagreement comes in 
is that maybe the intentions are good, but the actual impact is 
not meeting those intentions.

              EFFECTS OF SCHOOL CHOICE ON SCHOOL DISTRICTS

    This administration has made clear that restoring local 
control is a major tenet of its approach to K-12 education. Yet 
your budget violates that premise. Instead, your request would 
incentivize districts to adopt portability in spite of warnings 
that portability would undermine local control in limiting 
districts from using the funds in ways they believe to be most 
effective.
    Has your Department considered the financial implications 
that portability will have on districts, and has the Department 
considered how it would mitigate the disruption a portability 
structure would impose for public school districts, if enacted?
    Secretary DeVos. Let me just say again, this is proposed to 
be a voluntary program, an opt-in on the part of States and 
local communities. And I would also kind of try to take us back 
to the notion that we are talking about students and their 
education, and I think we spend a lot of time talking instead 
about schools and buildings and systems. I think we should be 
focused on doing what is right for individual students.
    And if a school is not working for a student, and a parent 
doesn't have the economic means to do something different, I 
think we should help find them ways to be able to make that 
decision on behalf of their students and their children.
    Ms. Roybal-Allard. Well, perhaps a better way would be, 
though, is in these poor minority schools is maybe to invest 
more and to bring all the schools up to a level, rather than 
take away from schools that need these funds and putting them 
into wealthier schools.
    Secretary DeVos. Well, and you know, the Federal Department 
of Education has invested a lot of funds in trying to do just 
that. In fact, the last administration invested $7 billion in 
school improvement grants specifically targeted at the lowest-
performing schools and areas with zero results and zero 
improvement.
    So we have tried that. I think it is time to try something 
different.
    Ms. Roybal-Allard. We may have a disagreement on that.
    Mr. Cole. Well, the chair is going to gently admonish 
Members. Please don't ask a question at the end of your 5 
minutes. It puts the Secretary in a very difficult spot, and it 
will inhibit our ability to reach a second round, which I would 
like to do, a second shorter round.
    So, with that, I go to my good friend from Maryland, Dr. 
Harris, who was kind enough to delay his questions so that Ms. 
Herrera Beutler could ask hers. Thank you.
    Mr. Harris. Thank you very much, Mr. Chairman.

             EFFECT OF SCHOOL CHOICE ON STUDENT ACHIEVEMENT

    And welcome, Madam Secretary. It is a pleasure to have you 
in front of the committee.
    As you know, every Secretary I have questioned in the past 
few years, I have always made known my preference for giving 
parents the choice of where to send their students. Because in 
the end, the parents are the taxpayers. The parents are the 
ones who probably know best.
    With that, I just want to read a sentence from your 
testimony. I am sorry I wasn't here for your testimony, but you 
said, ``In part, my support for educational choice is based on 
my strong belief in the power of markets and competition as 
drivers of educational quality and accountability.''
    Well, let us start with educational quality. I am sure you 
are aware that in international testing, the OECD nation tests 
done, I guess, in 2015 or 2016, in math, reading, and science, 
we didn't crack the top 10. In fact, we didn't crack the top 
15. In fact, in math, we didn't crack the top 25.
    So I think there is no question that we don't get a bang 
for our buck in the American educational system. Because we see 
education spending going up, we think that, I guess, the 
measure on how effective education is how much money you spend 
on it, and yet in all these objective tests, we are failing in 
a global education economy.
    And I welcome things like the Opportunity Scholarship 
Program in D.C. It is interesting because, and I might ask for 
a brief comment from you on it because they said, well, you 
know, the latest report is that, well, the people--the children 
in those schools don't do as well compared to the ones in 
public schools in the latest one. Because, of course, the study 
several years ago showed the graduation rate much higher, 
things like that.
    One possible explanation is, you know, competition actually 
works. That actually when you do give people the choice, that 
the public school system actually figures they better--they 
better turn out a better product because now there is 
competition. So, I mean, is that a reasonable reading of those 
results?
    Secretary DeVos. I think it is, indeed, Congressman. I 
think that the NAEP scores for all of the District and the 
students in the traditional schools in the District have shown 
remarkable improvement in the last few years. And I think it is 
directly relatable to the fact that there are robust choices 
now within the District for all of the students.
    Mr. Harris. There certainly are. I wish it were more robust 
because the new scholarship awards for school year 2016 and 
2017, as you are probably aware, was only 234 students. Now 
interestingly enough, there were 2,349 applications for those 
234 slots, a 10:1 ratio.
    So these are parents deciding, you know, 10 times more than 
slots are available, which actually correlates to what a really 
good university gets in terms of its applicant to accept, you 
know, an Ivy League kind of thing. So to somehow suggest that 
these parents have no idea what they are talking about, and we 
know better--you know, Federal Government knows better--is kind 
of crazy. So I hope you are a strong advocate of the 
Opportunity Scholars Program (OSP) and fully fund it.

               FEDERAL IMMIGRATION ENFORCEMENT IN SCHOOLS

    There are just two other things I wanted to bring up. One 
is because Federal funds do flow directly to institutes of 
higher education is this trend that I think is waning now of 
these higher education institutions that come to the Federal 
Government for billions of dollars, declaring themselves 
sanctuary campuses. So we want the billions of dollars, but you 
know, we are not going to comply with Federal immigration 
authorities.
    And I hope that you follow the lead of the DHS, Department 
of Homeland Security, in their budget and write things or 
request things written into law that suggest that, you know, if 
you are coming to the Federal Government for dollars, you 
better cooperate with our Federal immigration--with our Federal 
law enforcement for immigration because in the end, that is the 
only immigration enforcement we have at the Federal Government.
    State and local governments are not given the authority to 
write immigration law and have to cooperate with Federal 
authorities, again, if they expect Federal largesse.

                     RELIGIOUS TITLE IX EXEMPTIONS

    The very last thing I want to bring up and will submit some 
letters to the question is that there are Title IX exemptions 
from religious institutions I think before the Department, and 
I don't think action has been taken on these. And I will submit 
QFRs on this.
    I would hope that the Department realizes that the freedom 
of religion is an important freedom. It is a First Amendment 
freedom, and that there are legitimate reasons to ask for 
exemptions from Federal regulations, including Title IX, and 
that the Department take action on those.
    And with that, Mr. Chairman, I am actually going to yield 
back the last 20 seconds.
    Mr. Cole. You are an example to the committee. I thank the 
gentleman. [Laughter.]
    Next, on the basis of order of arrival, we will go to Mr. 
Pocan from Wisconsin. The gentleman is recognized.
    Mr. Pocan. Great. Thank you, Mr. Chairman. Appreciate it.

              FOR-PROFIT CHARTER ELIGIBILITY FOR VOUCHERS

    And I thank you, Secretary. I have really been looking 
forward to today.
    I come from Wisconsin, one of those States that, 
unfortunately, has had a failed experiment in taxpayer-funded 
voucher schemes and for-profit charters, and I know that 
recently you saw there were some researchers showing that in 
Indiana and Louisiana, Ohio, Washington, D.C., that students 
receiving vouchers saw their test scores drop.
    I think you were asked recently about this, and I know you 
were on your way out and you didn't have a chance to answer. So 
I am glad that today we have got a chance to ask some of these 
questions.
    But you know, my experience in the 14 years I was in the 
legislature in Wisconsin was during almost the entire growth 
period of this program. They turned down--kids with 
disabilities don't get into these programs, left to be in the 
public schools. They can turn down students who are gay or 
lesbian within these schools. My rural areas often don't have 
an alternative for people to go to. So they don't see that.

                 EFFECTIVENESS OF VOUCHERS IN WISCONSIN

    But yet the one thing I would really disagree with you, in 
Wisconsin anyway, those public dollars do go to the private 
vouchers. So they are losing their money in rural schools to go 
to this experiment, which hasn't worked.
    But let me just read you a couple things on the Wisconsin 
experience because, really, I know this inside and out. 
National Public Radio did a story on the Milwaukee voucher 
program. ``Over the years, much of the research found test 
scores flat, lower in some cases, or slightly improved in 
others.''
    Milwaukee Journal Sentinel, ``On average, students in 
Milwaukee's private school voucher program still performed 
lower than students in the city's traditional public school 
system.''
    Again, Milwaukee Journal, another article, Right Step, 
Inc.--I don't know if you are familiar with that school--a 
taxpayer-funded voucher school in Milwaukee. They are being 
sued by parents right now that the reports indicate that only 7 
percent of their students tested at English language 
proficiency and zero percent in math.
    So this is our public dollars going to these schools. I 
just would ask you, would you send your kids to a school where 
they have 93 percent of the students who aren't English 
proficient, and zero percent are math proficient?
    Secretary DeVos. Would I? Congressman, thank you for the 
question.
    And I am really glad to hear you are from Wisconsin, and 
you have had some of the experiences in Wisconsin. I was just 
recalling the history of the program in Wisconsin----
    Mr. Pocan. Since I only have 5 minutes, I appreciate that. 
But----
    Secretary DeVos. I know, but I want to remind you that 
Polly Williams, a Democrat city councilwoman, was the one who 
first introduced the Milwaukee program.
    Mr. Pocan. And who now says it has not lived to its 
promise.
    Secretary DeVos. And who is no longer living.
    Mr. Pocan. Right. Before she passed away said it does not 
live up to its promise. You are familiar with that, right?
    Secretary DeVos. But 321 students originally, and now 
28,000 students in the City of Milwaukee.
    Mr. Pocan. She said it didn't live up to the promise of 
what the creation was. But the question is would you send your 
children to a school with 93 percent not proficient in 
English----
    Secretary DeVos. Today, 28,000--28,000 students in the City 
of Milwaukee are being sent there by their parents.
    Mr. Pocan. Okay. Well, I guess you are not going to answer 
that question either. So let me, if I can then, Madam 
Secretary, if I can take my time back, if you are not going to 
answer the question, let me ask a different question that you 
might be willing to answer.
    So the last expansion in Wisconsin of this program, 75 
percent of the kids--the parents who got this money, their kids 
already attended the school, and two-thirds of the money that 
went in the tax vouchers to the folks who received this were 
making more than $100,000.
    So, largely, this is tax policy. This isn't education 
policy. This is making sure people who are already attending 
these schools. Do you think that your Federal program will 
support this sort of thing? So it is not to encourage new 
outlets in education. It is simply to give money to people who 
already attend those schools.
    Secretary DeVos. Well, I really applaud Milwaukee for 
empowering parents to make the decisions that they think are 
right for their students and their children. And I go back to 
what I said earlier about the fact that I think we need to 
shift our conversation----
    Mr. Pocan. So will the Federal program--I guess, maybe I am 
sorry if I wasn't clear. Under what you are doing, there are 20 
programs zeroed out, from arts to foreign language, mental 
health, Special Olympics. They are zeroed out under the budget 
proposal. But you have got new dollars for this failed 
experiment that I can tell you after 14 years in the 
legislature, we have had these dismal results.
    My question is, will the path of the new dollars you are 
putting in for the Federal Government go down the failed path? 
In Wisconsin, it is going to people who already attend the 
schools. So there is nothing new about education. This is tax 
policy. It should be before the Ways and Means Committee.
    Is that the intention of the new program expansion that you 
have?
    Secretary DeVos. I know the 28,000 students that are 
attending schools by the choice of their parents in Milwaukee, 
that is a success for those students because their parents have 
decided----
    Mr. Pocan. So are you going to hold any accountability----
    Secretary DeVos. Their parents have decided that is the 
right place for their children.
    Mr. Pocan. For example--Madam Secretary, seriously, you are 
not answering the question. So let me try one more. I have got 
40 seconds. Maybe my trifecta----
    Mr. Cole. I would remind the gentleman, please give her an 
opportunity to answer the question.
    Mr. Pocan. But she is answering a different question than I 
am asking, and I guess at some point, the 5 minutes----
    Mr. Cole. Please allow her to finish her answer.

              ACCOUNTABILITY STANDARDS FOR VOUCHER SCHOOLS

    Mr. Pocan. Sure. So will you have any accountability 
standards for these schools? So when we first started the 
program in Wisconsin, money went to someone who started a 
school who said he could read a book by putting his hand on it. 
And people bought Cadillacs with the dollars they got in the 
voucher program.
    Are you going to have accountability standards in the 
programs that you are offering new dollars to at the Federal 
level?
    Secretary DeVos. Wisconsin and all of the States in the 
country are putting their ESSA plans together right now. And 
they are going to decide what kind of flexibility they are 
going to allow. They have more freedom than ever because of the 
ESSA legislation to be creative and innovative, and our 
conversation needs to shift from talking about schools and 
buildings and institutions to what is right for individual 
students.
    Mr. Pocan. So I tried. I gave you 20 seconds. Will you have 
accountability standards was the question.
    Secretary DeVos. There are accountability standards. The 
States are required to have accountability standards.
    Mr. Pocan. Are you going to with the Federal dollars was 
the question.
    Secretary DeVos. That is part of the ESSA legislation.
    Mr. Pocan. Thank you, Mr. Chairman. I have got a second 
round. Thank you.
    Mr. Cole. Absolutely. We now go to, I think, a Member that 
is probably not a stranger to you, Madam Secretary, Mr. 
Moolenaar from Michigan.
    Mr. Moolenaar. Thank you, Mr. Chairman.

                        SEXUAL ASSAULT ON CAMPUS

    And Secretary DeVos, thank you for being here with us 
today, and I also want to thank you just for stepping up and 
being a leader for our kids in education in our country at this 
important time.
    And from your message today, I think it is an important 
message of trusting parents, trusting our local and State 
educators, and really keeping the focus on kids and what is 
best for them. So I very much appreciate that message.
    I wanted to bring up a specific topic to you that I had a 
recent listening session at Central Michigan University, and 
students in my district came forward with concerns regarding 
the rise of campus sexual assault across the Nation. And it has 
been recently reported that 1 in 5 women and over 10 percent of 
the student population will be a victim of sexual assault.
    My understanding is you recently met with the First Lady of 
Michigan, who has recently unveiled a program to combat this 
growing issue by creating a campus sexual assault workgroup 
called Let's End Campus Sexual Assault.
    I guess what I am wondering is what--is there a role for 
the Federal Government in this, meeting this challenge? And I 
appreciate the fact that you are working with State officials 
in addressing this concern. And I promised the student who 
asked me this question that I would ask you directly in a 
hearing. So thank you for being here.
    Secretary DeVos. Thanks, Congressman. It is great to see 
you.
    And let me just say I share the concern that you and many 
others have about the rise in this issue on campuses, as well 
as many other issues on campuses. But the Office for Civil 
Rights (OCR) at the Department of Education is very committed 
to investigating complaints that reach the Office for Civil 
Rights, and we are invested in fully funding OCR.
    I think--I know that there are a number of viewpoints on 
how the rules surrounding this have been implemented, and we 
are looking at those very closely. I have been meeting with a 
number of stakeholders, including First Lady Snyder from 
Michigan, and we take this issue very seriously.
    It is--it is certainly an issue for the Office for Civil 
Rights to be engaged with and for the Department of Education 
to grapple with. But we are not at a point where we can 
communicate any change in direction or any new information at 
this point.
    Mr. Moolenaar. Okay. Well, thank you for that. And I would 
like to keep in contact with you on that, and I know----
    Secretary DeVos. I would welcome that.
    Mr. Moolenaar [continuing]. That the students across the 
country, that is a concern.

               ENCOURAGING CAREER AND TECHNICAL EDUCATION

    Another area that is a concern, in fact, I have heard as 
recently as today from business leaders about the need for 
skilled labor and career and technical education as a huge 
priority and the opportunity for jobs in this area in the 
future. I know there are different ideas. The Federal 
Government has a role, and I appreciated your year-round Pell 
Grant statement.
    Are there partnerships or things that we can be doing at 
the Federal level to encourage career and technical education, 
and what thoughts do you have on that?
    Secretary DeVos. Well, this clearly is an area that is of 
great focus on behalf of the President and this administration. 
And I have had the privilege and opportunity to visit three 
different community colleges since I have been in this job and 
all of them taking a really unique approach to partnering with 
local businesses that have great needs for skilled workers in 
skilled trades and really very high-skilled, high-paying jobs.
    I think that the way we can best support it is to, in a 
very targeted manner, focus the dollars to help support 
community colleges in this pursuit--community colleges and 
other institutions of higher learning. I think we have done our 
young people a disservice over the last few decades by 
suggesting that a four-year college or university is the only 
way you can really be a success in life and that we have to 
have a much broader conversation around multiple pathways and 
multiple options for higher education, including, you know, 
layered credentialing.
    And some of these programs that are being implemented at 
the community college level that are really meeting immediate 
needs, students are getting the training and education that 
they need and into a very well-paying job, can go back again a 
year or two or three later and get additional credentialing.
    We have many, many jobs going unfilled in this country 
today that could be filled and addressed if there is that 
partnership. Again, it comes down to really a local level 
partnership with businesses and their needs.
    I saw an amazing program in Salt Lake City, one in the 
Orlando area, and another one in Miami, all meeting very 
different needs for very different directions. But many of them 
STEM focused, and that was a common theme. And so I think that 
another area that we can play a role is to really highlight 
some of the best practices and some of the successes that are 
happening.
    Mr. Moolenaar. Thank you.
    Mr. Cole. We next go to the gentlelady from Massachusetts.
    Ms. Clark. Thank you, Mr. Chairman.

        LOAN FORGIVENESS FOR AMERICAN CAREER INSTITUTE STUDENTS

    And thank you, Madam Secretary, for being with us today.
    First, a quick question from home. We have 4,500 
Massachusetts students who attended the now-defunct American 
Career Institute. On January 18th, your Department told them 
that their loans would be forgiven. It should be completed 
between 90 and 120 days.
    We are past the 120 days. Parents, our Massachusetts 
attorney general, and students are not getting a response from 
your Department. Can you reaffirm that you are moving forward 
with this loan forgiveness?
    Secretary DeVos. Thanks, thank you, Congresswoman.
    Indeed, those to whom we have made a commitment, we are 
going to make good on that commitment, and that is in process. 
With regard to that regulation, that is something that we are 
studying carefully and looking at, and we will have something 
further to say on that within the next few weeks.

                   STUDIES, EVIDENCE AGAINST VOUCHERS

    Ms. Clark. Great. And it would be very helpful if you would 
get back to our attorney general and give some reassurance to 
our students.
    I want to go back to the discussion you were having with my 
colleague from Wisconsin. You were recently in Indiana, where 
you called opponents of school choice flat-earthers. And I 
assume that you mean by that a flat-earther is someone who 
doesn't look at evidence, doesn't look at data, isn't willing 
to embrace innovation, creativity, just keeps believing what 
they always believe.
    But we have had some major studies in. As you are proposing 
a $250 million increase in pilots that would include vouchers 
for private schools, the studies from Louisiana, from Indiana, 
from Ohio, all show that students who choose private schools in 
voucher programs have experienced ``significant losses in 
achievement.''
    And the studies also show that if we want to achieve good 
outcomes for students, those come through nonprofit schools 
that are open to all and are accountable to State and/or 
Federal authorities.

        ENSURING CIVIL RIGHTS OF STUDENTS WITH PRIVATE VOUCHERS

    You have talked a lot about the flexibility of States as 
being preeminent. So I want to go back to Indiana, to 
Bloomington in particular, and look at the Lighthouse Christian 
Academy. The Lighthouse Christian Academy currently receives 
over $665,000 in State vouchers for students to attend their 
school.
    They are also clear in their handbook and their guidance 
that if you are from a family where there is homosexual or 
bisexual activity--their word, not mine--or practicing 
alternate gender identity, you may be denied admissions. If 
this school, which obviously is approved to discriminate 
against LGBT students in Indiana, if Indiana applies for this 
Federal funding, will you stand up that this school be open to 
all students?
    Secretary DeVos. Thank you, Congresswoman, for your 
question with regard broadly to school choice and----
    Ms. Clark. It is actually kind of narrow because I have 1 
minute left.
    Secretary DeVos. And I would like to refer back to your 
question about the comment about those who are resistant to 
change----
    Ms. Clark. I am sure you would. I want to ask particularly, 
is there a line for you on State flexibility? You are the 
backstop for students and their right to access a quality 
education. Would you, in this case, say we are going to 
overrule, and you cannot discriminate--whether it be on sexual 
orientation, race, special needs--in our voucher programs? Will 
that be a guarantee from you for our students?
    Secretary DeVos. For States who have programs that allow 
for parents to make choices, they set up the rules around that. 
And that is----
    Ms. Clark. So that is a no. Do see any circumstance where 
the Federal Department of Education under your leadership would 
say that a school was not qualified? What if they said we are 
not accepting African-American students, but that was okay with 
the State, does the State trump? Do you see any situation where 
you would step in?
    Secretary DeVos. Well, again, I think the Office for Civil 
Rights and our Title IX protections are broadly applicable 
across the board. But when it comes to parents making choices 
on behalf of their students----
    Ms. Clark. This isn't about parents making choices. This is 
about use of Federal dollars. Is there any situation, would you 
say to Indiana that school cannot discriminate against LGBT 
students if you want to receive Federal dollars, or would say 
the State has the flexibility in this situation, yes or no?
    Secretary DeVos. I believe States continue to have 
flexibility----
    Ms. Clark. And so there is----
    Secretary DeVos [continuing]. in putting together 
programs----
    Ms. Clark. So if I understand your testimony, I want to 
make sure I get this right. There is no situation of 
discrimination or exclusion that if a State approved it for its 
voucher program, that you would step in and say that is not how 
we are going to use our Federal dollars? There is no situation 
if the State approved it that you would put the State 
flexibility over our students. Is that your testimony?
    Secretary DeVos. I think--I think a hypothetical in this 
case----
    Ms. Clark. It is not a hypothetical. This is a real school 
applying for----
    Mr. Cole. The gentlelady's time has expired, but I am going 
to allow the Secretary to answer.
    Secretary DeVos. I go back to the bottom line is we believe 
that parents are the best equipped to make choices for their 
children's schooling and education decisions. And too many 
children today are trapped in schools that don't work for them. 
We have to do something different.
    We have to do something different than continuing a top-
down, one size fits all approach. And that is the focus, and 
States and local communities are best equipped to make these 
decisions and framework on behalf of their children.
    Ms. Clark. I am shocked that you cannot come up with one 
example of discrimination that you would stand up for students.
    [Gavel sounding.]
    Mr. Cole. You are not required to answer. We will go now to 
the gentleman from Idaho, Mr. Simpson.

                  CONGRESSIONAL INTENT AND TRIO FUNDS

    Mr. Simpson. Thank you, Mr. Chairman. I am sorry I had to 
step out and finish a hearing over on the other side. But we 
have got hearings going on all over the place here.
    You mentioned--I am a big supporter of TRIO just like you 
are in your comments, your answer I think to Senator Collins 
during your confirmation. As the Chairman is and I think most 
members of this program are.
    And as you have said, you dropped the McNair and EOC 
programs because you thought they were outside of the 
Congressional intent of what we had planned for TRIO. If we 
fund those programs, would they then be within Congressional 
intent?
    Secretary DeVos. If that is how you defined it, I guess 
they would be. I am giving you the rationale for what we have 
proposed in the budget, and we believe those programs fall 
outside of the scope. And again, we have made some tough 
choices and decisions with presenting our appeal for the 
budget.
    Mr. Simpson. And I understand that, and we will have those 
discussions, and there are always differences between what any 
administration proposes and what Congress wants to do. Those 
are fairly, I think, well-supported programs within Congress, 
and you will probably see funding in there.

                 2017 UPWARD BOUND APPLICATION PROBLEMS

    In the fiscal year 2017 omnibus appropriations legislation, 
the subcommittee included a directive that encouraged you to 
use your discretion as the Secretary to review and score more 
than 77 applications to the Upward Bound program that were 
rejected for minor formatting issues like failure to double 
space and typographical errors in the budget narrative.
    Would you please update the subcommittee on your 
Department's actions in response to that directive and also 
please outline what steps the Department will take to provide 
the opportunity for the rejected grant applications to be 
considered for funding.
    Secretary DeVos. Thanks for that question, Congressman.
    As you know, this grant application process was under the 
purview of the previous administration. The process was opened 
and closed prior to my coming into the job.
    And because it was when we found out about the issue with 
regard to formatting errors, it was after the competition had 
closed, and we looked at all viable legal remedies to try to 
address it and did not find any. Since then you have seen fit 
to appropriate $50 million. And going back and looking at it 
again, we believe that that has materially changed our 
available options, and so we are going to use those funds, the 
$50 million, to reconsider those applications that were 
considered not viable because of the formatting errors.
    And so that is going to be our remedy, but let me just say 
that this issue apparently has been going on through four 
different Secretaries unaddressed. The moment I found out about 
it, I issued a Department-wide policy indicating that we are 
not going to reject applications for any competitive bid 
process based on formatting, that this is a bureaucratic 
requirement that we should be rid of now, and we are.
    So anything going forward from here will not be held to 
those same formatting requirements. But with regard to this 
issue, which if you had any idea how much time it has chewed up 
internally for us, you would be amazed.
    But we are--we have, because of that material change with 
the new appropriation, have found a way to be able to address 
that particular issue.

                       PROPOSED CUT TO IMPACT AID

    Mr. Simpson. Thank you. I appreciate that.
    Your budget also puts $1.2 billion in for Federal Impact 
Aid, which is a $67 million cut below Impact Aid payments 
currently for Federal property and States in States like Idaho 
and, in fact, States across the country that have Federal 
facilities that impact school districts. What is your 
justification for the cuts in the Impact Aid Program?
    Secretary DeVos. So the portion of the Impact Aid Program 
that we have proposed to eliminate is one that is not tied to 
any students at all, and so there are no students being 
supported in that particular Federal land area. And since those 
locales have had about 40 years to consider this, we thought it 
might be appropriate that they could have figured it out by 
now.
    Mr. Simpson. Okay. I appreciate that answer. That will be 
interesting to look at.
    Anyway, thanks for being here. I appreciate your testimony 
and look forward to working with you.
    Secretary DeVos. Thanks, Congressman.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentleman.
    We now move to my good friend from California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.

                    FEDERAL CIVIL RIGHTS ENFORCEMENT

    Before I begin, I would like to introduce Latrenda Leslie, 
who is our foster youth shadow from Oakland, California. 
Latrenda, her oldest daughter will be
    starting----
    [Applause.]
    Ms. Lee. She will be starting kindergarten this fall. And 
so as we deliberate today, let us keep in mind the young 
families who will be affected by our decisions. And I am 
really--Madam Secretary, good to see you--kind of hurt, quite 
frankly, that she heard your response to Congresswoman Clark's 
question with regard to discrimination against students.
    It has been the Federal Government that allowed me to go to 
school, okay? And so when you say that it is up to the parents 
and local communities, even if young people are being 
discriminated against, that it is the parents and schools, and 
to take the Federal Government's responsibility out of that is 
just appalling and sad.
    I see in your budget it reflects exactly what you said. You 
are cutting $1.7 million from the Office for Civil Rights. To 
me, it is outrageous.
    And again, I have to go back to your statement when you 
said that HBCUs, historically black colleges and universities 
are real pioneers when it comes to school choice, which 
completely ignores the fact that for many black students, HBCUs 
were their only choice.
    Secretary DeVos. I know that.
    Ms. Lee. For too long, black students weren't allowed to 
enroll in predominantly white institutions, even at public 
schools in their own States. I could not go to public school, 
Madam Secretary. And so for you to sit here and say, as our 
Secretary, that it is okay if parents and local communities can 
discriminate, it is very sad, shocking, and disappointing.

             PROPOSED ZEROING OUT OF HBCU MASTER'S PROGRAM

    Now I see in your budget you say that HBCUs, the President 
said HBCUs are critical for black students. But I don't think 
you really mean that because you don't increase the funding for 
HBCUs, and you actually zero out the Strengthening Master's 
Degree Programs at HBCUs that we funded in fiscal 2017, which 
is extremely important for HBCUs.
    And so I am wondering why are you doing that? What is that 
about, and why would you do that? As well as--and I just have 
to say cut so many programs, 24 programs that minority students 
and low-income students rely on. Twenty-first Century Community 
Learning Centers, that is after school programs for low-income 
students.
    You are cutting, you are zeroing out, American history and 
civic academics. You are leveling out Preschool Development 
Grants. I mean not leveling. You are cutting them. You are 
eliminating them.
    You are eliminating Special Olympics, $12.6 million. You 
are just wiping out Special Olympics for disabled students. For 
the life of me, I got to understand what your thinking is about 
this budget and low-income students, vulnerable students, 
minority students, students who really deserve a shot at a 
good, quality public education.
    Secretary DeVos. Thank you, Congresswoman. A lot of 
questions or a lot of issues there.
    Ms. Lee. Well, they are all wrapped around this budget and 
a reflection of what you see being our values.
    Secretary DeVos. Okay. Let me just start by saying I want 
to be very clear. I am not in any way suggesting that students 
should not be protected and not be in a safe and secure and 
nurturing learning environment. They all should have that 
opportunity, and I have continued to talk about that need for 
all students to have a safe and secure and nurturing learning 
environment.
    Ms. Lee. That is not the issue. It is----
    Secretary DeVos. And the Department--the Department is 
going to continue and will continue to investigate any 
complaints or any issues surrounding, you know, allegations of 
discrimination. We have no proposal to change any of that.
    So as we talk about States assuming more authority and 
flexibility in their--in their, you know, how they implement 
their programs for their students, nothing about that changes 
our desire to ensure that students have a safe and secure and 
nurturing learning environment.
    With respect----
    Ms. Lee. Madam Secretary? Referring to----
    Secretary DeVos. With respect to your question around 
HBCUs----
    Ms. Lee [continuing]. Congresswoman Clark's, well, can you 
answer her question real--very quickly?

             COMMITMENT TO HISTORICALLY BLACK INSTITUTIONS

    Secretary DeVos. Well, I would rather talk about the HBCUs 
and how our commitment, our continued commitment to HBCUs by 
continuing to fully fund at previous levels and----
    Ms. Lee. I don't think that is what the HBCUs have 
requested. In fact, they need to see a small increase in their 
funding to make sure that black students have those educational 
opportunities, and then the cut in the Strengthening Master's 
Program at HBCUs is just wiping out. I mean, you are 
eliminating that for the most part with HBCUs. So you are 
really--it is eliminated.
    Comment pertains to rows 1766-1822: Technically, the 
Strengthening Master's Degree Programs at HBCUs is not a ``new 
program'' as it was first funded in FY2009 for 6 years through 
FY2014. Funding was not requested in FY2015 or FY2016. In 
addition, the President's 2017 budget did not request funding 
for this program; however, Congress appropriated $7.5 million 
in the 2017 appropriations bill after decisions had already 
been finalized for the President's 2018 budget request to 
Congress. So, in essence, the Department didn't consider the 
program in our 2018 budget because we didn't request funding 
for it in our 2017 President's budget.
    Secretary DeVos. It is--yes, okay. It is a new program that 
hasn't been part of this budget. So it is not eliminated 
because it hasn't been funded yet.
    Ms. Lee. Wait just a minute. We did fund that at $7.5 
million, the Strengthening Master's Degree Program, and you are 
eliminating that.
    Secretary DeVos. We are working from the budget numbers 
that were available to us prior to your omnibus in April. That 
was just a few weeks ago.
    Ms. Lee. So you are not eliminating it, or you are 
eliminating it?
    Secretary DeVos. No.
    Ms. Lee. You are not?
    Secretary DeVos. The figures in the budget that we are 
working from were all put together prior to the omnibus 
legislature.
    Ms. Lee. Okay. So you are going to restore the $7.5 million 
in the strengthening master's degree program?
    Secretary DeVos. Well, I think that is going to be up to 
Congress to decide how to handle that anomaly.
    Ms. Lee. So you are cutting it?
    Mr. Cole. Well, to be fair, let the chair interject here. 
And with all due respect, the gentlelady's time is up, but I 
will certainly allow her to respond. I pointed this out at the 
beginning. This is simply a case where Congress said we were 
pretty late getting our omnibus done. That is on our fault.
    And frankly, they had gone ahead and developed their 
budget. So they didn't have the guidance there. So we will have 
to revisit that ourselves, and I suspect the gentlelady 
probably would be pretty pleased with the decision that gets 
made, depending on the allocation.
    But again, in fairness to the Secretary, they didn't have 
that information, and they did not know Congress had authorized 
that program at the time they were putting together their 
budget. So it puts her in a difficult spot here, and nobody's 
fault, but it is just we have sort of overlapping documents 
here, and it creates some discrepancies on occasion.
    Ms. Lee. I thank the chair, but I expect to see the $7.5 
million. [Laughter.]
    Mr. Cole. I have a great deal of respect for my good friend 
from California, and I always listen to the point she makes. 
And a lot of these decisions will depend on what our allocation 
is, which we don't know. But I think the gentlelady knows we 
have worked together on a variety of these issues before, and--
--
    Ms. Lee. And I appreciate that.
    Mr. Cole [continuing]. Look forward to continuing that.
    Ms. Lee. And I hope we can restore some of these programs--
--
    Mr. Cole. Absolutely. With that, we will go to Mr. Womack, 
distinguished vice chairman of the committee.
    Mr. Womack. Thank you, Mr. Chairman, and a great 
discussion.
    Madam Secretary, welcome. And it hasn't been said since I 
have been here, but probably deserves to be said. We are 
beginning to see the early stages of a much-needed robust 
discussion about how we begin the process of getting our 
Federal budget under control. And the inescapable fact that 
many of the programs that we are talking about here are on the 
discretionary side of the budget, and it is being squeezed by 
runaway entitlement programs and the inability to address 
those, which becomes a very difficult political problem for the 
Congress, I understand that. But it is the truth.
    And I am sad that we haven't taken up that particular 
discussion, but we will save that for another day.

             PRE-COLLEGIATE CAREER AND TECHNICAL EDUCATION

    Pretty good discussion with my friend from Michigan on 
career and technical education, and that is where I want to 
focus my question with you. The response that you gave Mr. 
Moolenaar was geared toward what we should be doing with our 
community colleges. But you had just made a statement that I 
completely agree with about--about what we have suggested to 
previous generations about a pathway to success, that that 
pathway has to be through a college degree.
    I am of the strong opinion, based on my travels in my 
district and in my conversations with my job creators, that a 
lot of the really good opportunities out there exist today for 
young people who could leave high school, maybe not even 
without attending, darkening the doors of a college 
environment, and go right to work with proper training and 
proper skills and proper certifications, right to work with 
really good-paying jobs, a fulfilling opportunity at a great 
career in emerging technologies.
    And so I believe in my heart that a lot of this training 
should be happening long before the decision is made to go or 
not to go to college. I have in my mind that that is probably 
somewhere in that late junior high stage, based on aptitude.
    But, so I am going to ask you, where is that time in a 
young person's educational life, given the tremendous demand 
for jobs today, skills today that a lot of our graduates do not 
possess? Is this something that we should be doing in our high 
school curriculums?
    Secretary DeVos. Thank you, Congressman.
    The whole area of career and career preparedness and 
understanding the wide range of options that one has is, I 
think, an area that definitely needs a lot more discussion and 
a lot more energy around it. You know, today a lot of the 
funding for things that support these efforts are kind of 
bifurcated. Many of them, you know, in the Labor Committee or 
the Labor Department, and some in the Department of Education.
    But the notion that there are many, many different 
opportunities for students beyond high school is not really 
addressed at an early enough age. And I think I agree with you 
that a couple of the places that I visited that have really 
great dual enrollment programs have started to address this, 
but I think there is an opportunity to have young people 
exposed to some of these opportunities much earlier. And 
apprenticeships and internships, we should be talking about how 
to encourage and support the growth of these in a major way.
    I had opportunity to visit a really unique high school 
yesterday, one of the Cristo Rey schools. I don't know if you 
have heard about this, but these are Catholic high schools 
that, as a way to help support and fund the operations of the 
school, the students actually go to work in a business one day 
a week and, through doing so, gain a whole lot of personal 
experience and confidence, but also help to support their 
education. And they come out of high school, really, with a 
much broader understanding of the professional world, the work 
world, and options and opportunities they have.
    Those kinds of unique and innovative approaches to exposing 
young people to a wide range of possibilities early on are 
things we should be encouraging. And I go back to this notion 
that, again, States and local communities are best equipped to 
try these things. They are the best laboratories of democracy, 
and we should be highlighting those that are working well and 
encouraging others to emulate them.
    Mr. Womack. Yes, we may choose to agree or disagree on 
certain matters regarding budgets. But on that particular 
subject, we are in total agreement.
    And I yield back my time.
    Mr. Cole. I thank the gentleman, and just for informational 
purposes for my friend and the Secretary, we would love to have 
you visit Oklahoma, where we actually do have a great 
interlocking career tech and high school system where young 
people literally in late junior high, early high school go back 
and forth and get exposed to technical kinds of career that may 
be more appropriate for them.
    But Ohio has a similar system, and I think we are two 
unique systems in the country. And it is well worth coming to 
see if you ever have an opportunity. We would invite you both.
    Now with that, I want to go to my good friend from 
Tennessee, who has had to shuffle back and forth and do a lot 
of hearing. Mr. Fleischmann, you are up next.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And Madam Secretary, it is a privilege to have you here 
before us today. I represent the people of the great Third 
District of Tennessee. That is Chattanooga and Oak Ridge. And 
as the chairman alluded to, I was over at the Energy and Water 
Subcommittee this morning, so was a bit delayed.
    First of all, I would like to mention how impressed I was 
with the emphasis that you placed on school choice. I think it 
is absolutely imperative that we give parents the options they 
need to ensure their children are properly prepared for the 
future. So I thank you for that position.
    I was also especially impressed with the building evidence 
around innovation section of the budget. I think we really need 
investment in research activities that will allow school 
districts to identify what works and what doesn't.

                  COMPUTER SCIENCE CUTS UNDER TITLE IV

    On an area of concern, as you may know, I am an advocate 
and I view myself as a champion for computer science education, 
computer science literacy, and I think there is tremendous 
bipartisan support for this endeavor. I was a little concerned 
about the Department's proposed cuts to Title IV, Part A grants 
authorized under ESSA.
    In last year's appropriations bill, we worked hard to 
ensure that States would be able to use some of this money for 
computer science education. There are a half million computing 
jobs currently unfulfilled in the United States. However, our 
country only graduated and sent into the workforce 42,969 
computer science specialists last year.
    It is estimated that between 2016 and 2020, it is projected 
that there will be 960,000 job openings in computer science. If 
current graduation patterns continue, only 344,000 graduates 
will fill them.
    So my question is, do you agree with me and colleagues from 
both sides of the aisle that we need partnerships with the 
private sector, which is looking to hire Americans for computer 
science jobs, and schools from kindergarten through high school 
to help ensure students from all walks of life are prepared for 
the computer science jobs that need to be filled now and in the 
future? And if so, how can we work to ensure that we prepare 
students for these jobs?
    Thank you.
    Secretary DeVos. Thank you, Congressman.
    I definitely share your interest in ensuring that students 
have exposure to STEM subjects and, in fact, have opportunity 
to pursue really robust programs in that area. I would just as 
an anecdote refer to the high school that my husband started, a 
charter high school focused on aviation that has a very 
distinct STEM focus and has been really doing an amazing job of 
attracting kids that would have not been likely to be a part of 
a high school like that.
    But with regard to specifics in the budget, this budget, 
again, was developed before the continuing resolution was 
addressed. But we do have a $20 million experimental grant in 
for STEM competition, and I think that is a good place and, you 
know, good role for the Department. I think an important place 
for the focus to be placed around STEM is really, again, at the 
State level because they are putting the ESSA plans together. 
They have the opportunity to really customize it for the 
students in their States and their local communities.
    And I had an interesting conversation I think it was last 
week with a number of superintendents from one from a rural 
district, one from a very large urban area, another from kind 
of a medium-sized city, and then the other one was actually a 
statewide superintendent, how they have implemented coding 
programs in their districts. And I believe the organization 
that they have partnered with on that has now entered 20 
percent of the school districts in the country.
    I think we need to continue to encourage that. I hesitate 
to say we should mandate it from the Federal level, but we 
should try to actually encourage and support those activities 
as States are putting their plans together.
    Mr. Fleischmann. Madam Secretary, I thank you, and I agree 
with you. I have engaged in some of those coding opportunities 
in the schools, particularly in some of our inner-city schools 
in Chattanooga, which have been traditionally underserved, and 
it was inspiring to go there and see high school students all 
the way down to the second graders engaging in coding. And I 
just look forward to working with you on this computer science 
literacy and with my colleagues on both sides of the aisle as 
we reach out to all American students in this regard.
    Secretary DeVos. Likewise. Thanks.
    Mr. Fleischmann. Thank you.
    Mr. Cole. I thank the gentleman. We will now move to my 
good friend from Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Chairman.
    And thank you, Madam Secretary, for being with us today. It 
is good to see you again. I am really looking forward to 
working with you and your Department through the oversight of 
this committee.
    And let me say thank you for your service to our country. I 
want to convey my appreciation on behalf of all of the students 
and parents and educators in the State of Alabama.

                  STATE AUTONONY AND FEDERAL OVERREACH

    It was about a year ago when your predecessor was here and 
sitting right where you are now, and we had a good exchange 
about the role of the Federal Government in decisions 
concerning standards and curriculum for the classroom. So let 
me back up for a minute and just give you some background on my 
involvement in this issue.
    Back in 2013, I introduced a bill called the Defending 
State Authority Over Education Act that prohibited the Federal 
Government from making special funding grants and coveted 
regulation waivers contingent upon whether a State is using 
certain curriculum or assessment policies. For 3 years we 
worked to get this language included in the comprehensive 
rewrite of No Child Left Behind, which is now the law E-S-S-A, 
ESSA.
    Thankfully, we finally succeeded, and our strong State 
authority language was included in the Every Student Succeeds 
Act. So back to my exchange with your predecessor, which was 
taking place during the very critical implementation process of 
ESSA. What I was trying to get a straight answer on then was 
whether the officials within the Department of Education would 
simply ignore the law and continue their old habit of 
exercising undue and inappropriate influence over State 
education decisions.
    You have to remember that that kind of thing was 
commonplace under the previous administration, and I believe 
that the former Secretary King and I got to a good place. But I 
think we can get to an even better one today. So let me ask 
you, Madam Secretary, number one, do you acknowledge that the 
law now expressly forbids the coercion of States to adopt 
certain education standards and curriculum, including Common 
Core?
    Secretary DeVos. Absolutely.
    Mrs. Roby. And will the Department follow the letter and 
spirit of the law?
    Secretary DeVos. Absolutely, it will.
    Mrs. Roby. I appreciate that answer, and so to be clear, 
you can definitely count on me among those who believe that my 
State of Alabama and all States should, indeed, set high 
standards that challenge students and build critical thinking 
skills. I am glad that our State has made an effort to raise 
its standard in recent years when we lagged behind for so long.
    And I certainly welcome collaboration with other States to 
share best practices. However, the intrusion of the Federal 
Government into that process directly or indirectly is 
inappropriate, and it invariably comes with a political agenda 
from Washington. This has bred a lot of confusion and distrust. 
And in many States, it has contributed to a volatile policy 
environment.
    And so I appreciate your commitment and your forthrightness 
on this issue, and any other comments that you want to make 
about this I am welcome to hear.
    Secretary DeVos. Well, thank you, Congresswoman.
    We share that concern, and you have my commitment that the 
Department is going to implement and follow the law that you 
have set out through ESSA. I would, frankly, love to see a 
competition on the part of all the States to outdo one another 
on how high they set their standards and how high they shoot. 
We should be shooting for excellence across the board, but in 
no way should it be a top-down, one size fits all solution from 
the Federal Government.
    And my hope is that with the States' flexibility in 
opportunities here that they do, indeed, shoot high and that 
they are very ready to point out to others when they are not, 
you know, living up to the task of preparing all of our 
students for a great future.
    Mrs. Roby. Thank you so much for your commitment.
    Mr. Chairman, I yield back.
    Mr. Cole. I thank the gentlelady, another model of turning 
back time. I appreciate it.
    I know the Secretary has a hard stop at 1:00 p.m. So we are 
not going to be able to do a second round. I regret that. But 
we had both the ranking member and the full chairman here, and 
I think we all stretched our time a little bit beyond 5 minutes 
anyway.
    But I do want to allow my good friend the ranking member to 
make any comment or closing statement or question she cares to, 
and then I will do the same.

                    Ranking Member Closing Statement

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And again, thank you, Madam Secretary.
    Let me just try to correct the record in some instances 
here with my time. I think it is wonderful that we talk about 
career and technical education. You may have seen the Pew 
Research Center and Markle Foundation's ``The State of American 
Jobs,'' which talked about 70 percent of American adults do not 
have a 4-year degree.
    And while we can talk about it and give a lot of lip 
service to it, the fact of the matter is, and this was not a 
continuing resolution issue, there was a decision made for this 
budget to cut the career and technical education program by 15 
percent, $168 million. This is not--and you can't talk out of 
both sides of your mouth. You are either going to put the money 
where we believe we are going to make the best possible bang 
for the buck, or we should just be silent about it. Don't talk 
about it and do something about it.
    Let me talk about vouchers for a moment. Gold standard, 
Institute of Education Sciences, gold standard evaluation of 
Washington, D.C., the only federally funded voucher program, 
found that vouchers negatively impacted student achievement. 
D.C. students using vouchers performed significantly worse on 
math in the first year they used the voucher. In the early 
grades, they performed worse in both math and reading. Similar 
results from Louisiana, Ohio, and Indiana, as my colleagues 
have pointed out.
    Madam Secretary, you continue to say that Title I has not 
been cut. Title I has been cut by $578 million. The fact of the 
matter is, is that with all due respect, on May 5th, we signed 
an omnibus bill. I don't want any process piece here, and that 
affects what my colleague Ms. Lee talked about, these are cuts 
to programs.
    So the fact is that the budget proposes cuts that, if 
enacted, would impose real harm on our country's students. And 
I have to make the point again with regard to vouchers and 
children who are disabled or disabilities. You referenced the 
McKay Scholarship Program, and I will tell you that in that 
program, with information that I have, and we looked into it, 
no due process rights under IDEA. They give up due process 
rights granted by the individuals if you accept a Federal 
voucher.
    No accountability for the participating schools. They do 
not have to be accredited. They do not have to provide any 
evidence of the quality of their programs. No evidence of 
student success. Because students do not take standardized 
tests in private schools, it is impossible to hold private 
schools accountable or compare their performance with public 
schools. Key NAEP scores have declined or flat between 2009 and 
2015.
    Now I make those corrections because we can't--if we are 
going to have a robust conversation about education, then let 
us put the facts on the table and go from there. This is a 
budget, and I characterized it, Mr. Chairman, in the Ag 
Appropriations Committee this morning, it is cruel. It is 
inhumane, and it is heartless. A $9.2 billion cut to education.
    And fact of the matter is when my colleague talked about 
there is 10 percent, there is less money going to high-poverty 
areas. The teachers are more likely to be novices in these 
places. Those underserved areas are going to be hurt.
    None of us in here are going to be hurt. We are going to be 
fine. Our kids and our grandkids are going to be okay. But 
millions of kids around this country are going to suffer what 
has been done with a $9.2 billion cut to our education 
programs, which are supposed to serve our youngsters, make sure 
they have a good future and a bright future.
    And I am going to fight this budget, Mr. Chairman, with 
every fiber of my body because it is wrong to do this to our 
kids.
    Mr. Cole. I have no doubt. [Laughter.]

                       Chairman Closing Statement

    Mr. Cole. Madam Secretary, I just want to thank you very 
much for being here today. I want to thank you for your 
testimony, for your professionalism.
    I particularly love the emphasis on choice and, frankly, 
trying to give as many options to young people as we possibly 
can, and you certainly laid that out robustly in your budget. I 
know you have had to make some tough decisions. We actually 
have three Cabinet-level jurisdictions here, and we are given 
an allocation, and we end up having to make a lot of tough 
decisions, too.
    So we certainly have a great deal of sympathy for that, and 
I want to assure you, you see this is a committee that is a 
pretty spirited committee. And we appreciate you engaging with 
us today. We look forward for other opportunities to do that, 
and I know every member of this committee, on a bipartisan 
basis, if they can assist you in any way, want to do that. We 
want to see you succeed because we think your success 
represents the success of America's students.
    We know you care about that deeply. You have demonstrated 
that over a lifetime. We know the President cares about that, 
and we look forward to working with you in that common endeavor 
as we go forward.
    Secretary DeVos. Thank you, Mr. Chairman. Thanks for the 
opportunity.
    Mr. Cole. Thank you very much, Madam Secretary.
    Secretary DeVos. Thank you to the ranking member.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                                   Wednesday, June 7, 2017.

                          DEPARTMENT OF LABOR

                                                          WITNESSES
HON. R. ALEXANDER ACOSTA, SECRETARY, DEPARTMENT OF LABOR

                    Opening Remarks by Chairman Cole

    Mr. Cole. Good morning, Mr. Secretary, and welcome. It is 
my pleasure to welcome you to the Subcommittee on Labor, Health 
and Human Services, and Education. We are looking forward to 
the hearing today.
    I happened to notice when I was reading your biography that 
you were sworn in on April 28. That happens to be my birthday. 
I hate to tell you it is also Saddam Hussein's birthday, but I 
still consider it an auspicious date in human history, so I 
know we are going to have a good relationship.
    This hearing is to review the Department of Labor's fiscal 
year 2018 budget request. The committee understands that the 
Department had a target level of funding in this budget and 
that significant cuts needed to be proposed in many areas to 
achieve that. The committee's task is to carefully consider the 
budget request and to make recommendations for the funding 
needs of critical programs at the Department, including job 
training, worker safety, labor statistics, and others.
    The committee also appreciates the Department's focus on 
job training and employment needs of hard-to-serve populations, 
including youth, Native Americans, formerly incarcerated 
citizens, and the Nation's veterans, particularly the 
Department's requested increase for the Homeless Veterans' 
Reintegration Program. I hope the Department will continue to 
work with the committee and the Congress to eliminate veterans' 
homelessness and to better serve all of these populations.

                        COMBATING THE SKILLS GAP

    An issue I view as critically important is the skills gap. 
According to the Bureau of Labor Statistics, there are 
currently over 5 million open positions for which employers are 
unable to find qualified candidates. Many of these are high-
paying jobs, and I believe the skills gap is a very significant 
opportunity cost for workers and for the economy overall. I 
look forward to hearing your views on how job training programs 
at the Department of Labor can better meet the needs of these 
employers and reduce the skills gap.

                     DOL WORKER PROTECTION PROGRAMS

    The committee also recognizes that enforcement is an 
important part of the Department's worker safety programs, but 
we continue to believe that worker safety should be the 
principal goal. It has been difficult to ignore the previous 
administration's adversarial and punitive pursuit of labor 
enforcement. I believe most employers want to do the right 
thing for their employees and have been understandably 
frustrated by their partnership with these agencies at the 
Department of Labor.
    Beyond the shift of resources from enforcement to 
compliance assistance, I would suggest that the culture at some 
of these agencies needs to change. Inspectors and safety 
experts must view their roles as cooperative partners of the 
employers and employees to advance worker safety across the 
Nation's industries. Hardworking Americans deserve to know that 
the Federal Government has their back, both ensuring that good 
jobs are created and that safety is ensured.

                        FISCAL YEAR 2018 BUDGET

    It is unfortunate that the final consolidated 
appropriations bill for fiscal year 2017 was not enacted prior 
to the time that funding decisions for your fiscal year 2018 
budget request had to be finalized. In many cases, if the 
policy of the administration was to maintain current funding 
for a program that Congress increased in fiscal year 2017, the 
budget request would appear to be a reduction when, in fact, 
that was not necessarily your intention. We will simply need to 
carefully explain ourselves when discussing proposed increases 
and decreases in those categories today.
    Finally, the subcommittee needs to know the specific 
details for how the proposed cuts in the Department's fiscal 
year 2018 budget would impact job training programs and the 
programs that target hard-to-serve populations. The budget 
provides some of these details. I know that some are still 
being developed. But we look forward to hearing what you are 
able to share with us today.
    I am sure the members of the subcommittee will have many 
questions about the budget and policy issues, including the 
fiduciary rule. So, without further delay, I would like to 
remind members and our witnesses that we will abide by the 5-
minute rule so that everyone will have a chance to get their 
questions asked and answered.
    But before we begin, I would like to yield 5 minutes to the 
full--well, to the gentlelady--okay, to the----
    Mr. Frelinghuysen. To your ranking, please.
    Mr. Cole. Well, we normally would do our ranking, so to the 
ranking member of the full committee. Then obviously, we will 
move to the full committee chairman for any remarks he cares to 
make.
    Ms. DeLauro. Thank you very much, Mr. Chairman of the 
subcommittee and Mr. Chairman of the full committee. I 
appreciate it.
    Good morning, Secretary Acosta, and welcome to the 
committee and to, I guess, your first appropriations hearing.
    I would select the chairman's birthday as a date to focus 
on versus Saddam Hussein anyway.
    Mr. Secretary, as we did speak, I will be blunt. I do not 
have anything complimentary to say about this budget request. 
In fact, I think it is a disaster for American workers and for 
their families. In your written testimony, you say that, quote, 
``We are going to do more with less.'' Mr. Secretary, you 
cannot do more with less. You can only do less with less. And, 
in my view, that is exactly what this budget proposal will do, 
less for American workers.

                CUTS TO EMPLOYMENT AND TRAINING PROGRAMS

    The budget request for the Department of Labor would 
decimate the employment and training system by cutting more 
than $2,000,000,000, roughly 40 percent of its funding, 
eliminating services for seven to eight million Americans who 
need help to find a job or move to a better-paying career.
    The biggest economic challenge of our time is that too many 
families do not make enough money to live on. They are in jobs 
that don't pay them enough to live on. They are struggling 
today. And we need to enact policy that ensures that everyone 
can benefit from the economic recovery and that everyone has 
the training they need to get good jobs with fair wages.
    By 2020, two out of three jobs will require training beyond 
the high school level. It is up to us to meet the need. This 
budget would cut Job Corps by about $250,000,000, leading to a 
shuttering of Job Corps centers around the country. Thousands 
of at-risk youth would lose access to important skills 
training.
    Your testimony says the budget eliminates programs that are 
less effective. In fact, it zeros out programs that are known 
to be very effective. The Senior Community Service Employment 
Program exceeds the Department's own performance targets in 
entered employment, employment retention, average earning. 
Migrant and Seasonal Farm Worker Training places participants 
into employment 90 percent of the time, increases wages 
threefold.
    Through this committee, we have the opportunity to make 
important investments in job training that we know work, like 
providing the first-ever Federal appropriation to expand the 
apprenticeship model throughout the country. And if we are 
serious about job training, we would be making investments like 
we did through the TAACCCT, the T-A-A-C-C-C-T program, which 
provided $2,000,000,000 to more than half of all community 
colleges nationwide.

               IMPACT OF PROPOSED CUTS IN FY 2018 BUDGET

    The President proposes to cut or eliminate programs that 
help low-income and working-class families, and yet, we are 
awaiting or at least we have an outline of a budget that 
includes a massive tax cut for corporations and for 
millionaires, a similar scenario that we saw with the 
healthcare bill, the underlying purpose being to cut taxes for 
the wealthy while cutting back on programs for middle class 
families.
    It was on the campaign trail that the President claimed 
that he would be tough on trade. Yet, in his first budget he 
proposes to eviscerate the office whose mission is to identify 
cheating on trade deals. He wants to cut the Bureau of 
International Labor Affairs, known as ILAB, by almost 80 
percent. It is the lead agency for investigating labor 
violations and trade agreements with our trading partners. It 
compiles annual reports on products that are made with child 
labor and with forced labor.
    And the budget request should focus on modest increases to 
compliance assistance programs. And while I agree that there 
needs to be a balance between compliance assistance and 
enforcement, I am concerned that you plan to scale back on 
enforcement activities, which results in less oversight on 
those who are out there. Yes, most employers want to do the 
right thing, but, in fact, we do have bad actors, and you know 
that, particularly when it has dealt with wage theft over the 
years. This deprives workers of honest wages, exposes them to 
dangerous health and safety hazards.
    OSHA, only enough funding to inspect every workplace under 
its jurisdiction every 159 years. Yet, the budget proposes to 
eliminate funding Susan Harwood Training Grants that protect 
and educate workers in the most dangerous jobs.
    The budget also proposes to cut funding for the Women's 
Bureau, $10,000,000, eliminates 70 percent of its staff. This 
is a critical function to improving work environments and 
opportunities for women. Pretty much unacceptable to slash its 
budget when today women make 80 cents on the dollar.
    Taken as a whole, the President is proposing to cut the 
Department of Labor by $2,300,000,000. It is a reduction of 19 
percent.

         MAINTAINING LABOR PROTECTIONS FOR THE AMERICAN WORKER

    Mr. Secretary, I think we need to know today whether or not 
you agree that your Department should be cut by $2,300,000,000. 
We also need to know if you are going to fight to defend the 
protections for safe workplaces that your Department has made 
in recent years, regulations to limit exposure to silica, 
beryllium, coal dust that will save thousands of lives.
    We need to know if you are going to protect the financial 
safeguards to retirement savings that were put in place by the 
fiduciary rule. And I hope that you do agree that financial 
advisers should make recommendations in their clients' best 
interests, not in the interests of advisers.
    The New York Times had a front page story this week 
alleging an upcoming rollback of worker protections. It says: 
At the request of industry lobbyists, the Department is 
planning to weaken regulations across the board, including 
regulations on silica, beryllium, which are known carcinogens. 
I hope that you will tell us, Mr. Secretary, that the report is 
wrong and that you plan to enforce the Department's worker 
protections.
    Again, disappointed about the proposal to eliminate the 
Office of Federal Contract Compliance, OFCCP, by absorbing it 
into the EEOC, another area in which you have had experience. 
The OFCCP actively ensures that Federal contractors are held to 
a higher standard in their hiring practices, given that 
contractors are entrusted with taxpayer dollars. So I strongly 
oppose this proposal.

                      PAID PARENTAL LEAVE PROPOSAL

    Final note, the administration has proposed what I view as 
a paltry 6-week parental-only paid leave scheme in their 
budget, despite the fact that more than 75 percent of people 
who take family or medical leave do so for reasons other than 
parental leave. Moreover, the intention is to fund its proposal 
through the overburdened State Unemployment Insurance Programs, 
which are insufficient to sustain the program and would erode 
access to unemployment benefits should another recession hit.
    The President's proposal does not reflect the reality that 
workers face. We need a real family and medical leave policy 
nationwide, funded responsibly and sustainably, without cuts to 
essential programs.
    To close, let me share a quote from one of my heroes and 
the longest-serving Labor Secretary in our Nation's history, 
Frances Perkins. She said, and I quote: ``The people are what 
matter to government, and a government should aim to give all 
the people under its jurisdiction the best possible life.''
    That is how I view the mission of this Department. I hope 
that that is the way that you view the mission of this 
Department and that you will assure us that you intend to 
improve the lives of working people.
    Thank you very much, Mr. Chairman.
    Mr. Cole. Thank you.
    And now my pleasure to go to the chairman of the full 
committee, and a great privilege to have the distinguished 
gentleman from New Jersey, Chairman Frelinghuysen, for any 
opening remarks he cares to make.

                   Remarks by Chairman Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    And welcome to the appropriations process, Mr. Secretary.
    Today's hearing is an important part of the oversight 
duties of this committee. Now that we formally have received 
the administration's budget request, the committee will 
undertake a thorough analysis of yours and every budget. We 
intend to put forward a complete set of appropriations bills 
that adequately fund important programs while working to reduce 
or eliminate waste or duplication.
    This hearing is part of a process we follow to determine 
the best use of taxpayers' dollars. After all, the power of the 
purse lies in this building. It is the constitutional duty of 
Congress to make spending decisions on behalf of the people we 
represent at home.

                  REGULATORY BURDEN ON SMALL BUSINESS

    When I travel across my congressional district in New 
Jersey, meeting with small-business owners and employees, I 
often hear about how excessive government regulations are 
hampering growth. According to The National Small Business 
Association, the average small-business owner is spending 
$12,000 annually dealing with regulations. That is why we must 
work together to reduce these types of burdens, especially the 
Department's fiduciary rule, and cut red tape, which often 
requires resources that could be better utilized for other 
purposes.

                    DECREASING VETERAN UNEMPLOYMENT

    May I also say that, like many of my colleagues, I host an 
annual veterans job fair in my congressional district with 
local employers to directly advertise their employment openings 
and retraining opportunities to those who have returned from 
the war front. I am pleased to learn that the national 
veterans' employment rate fell to 3.7 percent in April, which 
remains below the national average. I know you will continue to 
promote veterans' employment and training service programs and 
many other programs, as these are critical investments directly 
resulting in improved quality of life for veterans and their 
families.
    Welcome to the committee.
    And I appreciate the time that the chairman has given me. 
Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    And, with that, Mr. Secretary, we will go to you for any 
opening comments you care to make.

                 Opening Statement by Secretary Acosta

    Secretary Acosta. Well, Mr. Chairman, thank you. Mr. 
Chairman and Ranking Member DeLauro, members of the 
subcommittee, thank you for the invitation to appear today.
    And perhaps let me begin on a note of bipartisanship. The 
people are what matter, and I couldn't help but note that in 
all the opening remarks the focus was on the people. And I 
think if we keep that front and center, that is a great place 
to start.
    It is an honor to appear before this subcommittee to 
outline the administration's vision for the Department of Labor 
in fiscal year 2018 and beyond. Supporting the ability of all 
Americans to find good jobs and safe jobs is a priority for 
President Trump and for myself. And, to be clear, a good job 
and a safe job are not and should not be mutually exclusive. It 
should be both, and we can have both. I am proud and I am 
humble to lead the Department in this critical work.

                         COMBATING UNEMPLOYMENT

    Last week, the Department announced the U.S. unemployment 
rate. It is at a 16-year low, 4.3 percent. It hasn't been that 
low since 2001. This is amazing news. What is, I think, as 
important but less talked about is that there are now 6 million 
job openings. That is the highest number of job openings that 
we have had since we started keeping this statistic in the year 
2000.
    We can get most Americans that are unemployed back to work 
if we can simply match those job openings with who is looking 
for a job. And to facilitate this match, we need to better 
align job training, job education, and the skills the 
marketplace demands. And the evidence tells us that effective 
job education programs prepare workers for high-growth jobs 
that actually exist. There has to be a focus between the job 
that exists and the educational program that is preparing the 
worker.

                        FOCUS ON APPRENTICESHIPS

    And one approach to preparing workers for these high-growth 
jobs are apprenticeships. It is a proven strategy that works. 
High-quality apprenticeships--and the emphasis on high 
quality--enable workers to be involved in the training of their 
future workforce so they can be sure that new hires possess the 
skills that are needed for the job. Apprentices receive wages 
and, just as importantly, skills, and along the way they earn 
while they learn. And that is just as important, because that 
means they are not saddled with debt.
    Apprentices earn nationally recognized certificates of 
completion leading to long-term career opportunities. Many 
registered apprenticeship programs also afford apprentices the 
opportunity to earn college credit toward their degree.
    Last week I met with three apprentices at the Ford Rouge 
plant complex in Detroit, Michigan, and it was wonderful to 
meet with them. They were excited. They thought that they were 
learning, that their careers were expanding. They receive 600 
hours of classroom instruction separate and apart from their 
job.
    Upon completion of the program, the apprentices will have 
gained the skills to work in any department within the plant. 
They will have transferrable skills from department to 
department that will travel with them, irrespective of whether 
they stay at Ford or they go elsewhere. And as importantly, 
after the completion of the program, I was told that they only 
needed three additional classes to get their degree.
    High-quality apprenticeship programs are a huge win for the 
apprentice and for the employer. The employer gains skilled 
trained workers and the workers themselves have a wonderful 
start to a prosperous career.

                       STREAMLINING DOL PROGRAMS

    Getting Americans back to work also requires limiting 
programs that are less effective at helping the American 
worker. There are many programs intended to help Americans find 
jobs or train for jobs, but some of them are duplicative or 
less necessary or unproven or less effective. The Department is 
committed to streamlining or eliminating programs based on 
rigorous analysis of available data to access and to improve 
program effectiveness.
    When we match Americans who are looking for work with 
available jobs, we want to ensure they are good and that they 
are safe jobs, as I said previously.
    The Department believes that a vast majority of employers 
across the Nation are responsible actors, as was mentioned 
earlier, but we also understand that that is not 100 percent, 
and so we are fully committed to enforcing worker protection 
laws, as we have been doing. The budget includes funding 
increases of about $16,000,000 to the Department's worker 
protection agencies to support this goal, with an emphasis on 
compliance as well as enforcement.
    We are going to do more with less, as was noted, and we 
have to do more with less. We are going to focus the Department 
on its core mission by making smart investments in programs 
that work. The budget makes hard choices, and they are hard, 
but they are responsible choices that have to be made.
    Americans want good and safe jobs. The Department is here 
to support Americans' desire to gain and hold these jobs, to 
support Americans' desire to have skills that are transferrable 
and that will set them on a career path that will ensure their 
future. The budget restores the Department to this fundamental 
vision, investing in programs that we know are successful. The 
proposals are evidence-based and reflect the seriousness with 
which this administration takes its responsibility.
    I look forward to working with you, and I would welcome 
your questions. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                    THE TRIBAL LABOR SOVEREIGNTY ACT

    Mr. Cole. Thank you very much, Mr. Secretary. It is, again, 
very good to have you here.
    Let me begin with an issue that I mentioned to you a moment 
ago when we had a chance to visit. And just to provide a little 
context, when the National Labor Relations Act was passed in 
the middle of the 1930s, the National Labor Relations Board was 
not given any jurisdiction over governmental employees, 
Federal, State, local.
    The original legislation was silent about Indian tribes, 
but for 60 years the Department exercised no jurisdiction over 
tribes. In 2004, on its own, without a request from the 
Congress or, as far as I can determine, without a request from 
the administration at the time, they simply decided they would 
draw a distinction--an artificial distinction, in my view--
between what they called governmental employees, law 
enforcement, healthcare, and the like, and people that were 
employed by tribes in commercial ventures, gaming obviously 
being the most prominent, but lots of other areas as well.
    That was universally and violently resisted by tribes all 
across the country. There has been a lot of litigation about 
it. There has been a lot of legislation about it. Actually, 
last year the House of Representatives actually passed 
legislation called the Tribal Labor Sovereignty Act that my 
friend Mr. Rokita from Indiana carried, bipartisan majority, to 
take that jurisdiction away from the National Labor Relations 
Board.
    The Senate failed to act, but this year the Senate actually 
has already moved that legislation through the Indian Affairs 
Committee, so there is at least a good prospect. And I think 
certainly if that legislation comes to the floor here, it would 
pass again.
    So I wanted to give you an opportunity to at least, if you 
have any thoughts about that, if you have a concern, because it 
is something we have placed at least in the House-passed 
version of your appropriations bill before. So this is apt to 
be a legislatively live round, so to speak, in the coming 
months.
    Secretary Acosta. Mr. Chairman, thank you for the question. 
As you know, I served on the National Labor Relations Board in 
2003, so your question brings back memories that are more than 
a dozen years old at this point.
    You know, during my days as a U.S. Attorney something that 
I was very sensitive to is understanding that there is a 
sovereign-to-sovereign relationship between the United States 
and tribes, and that is something that I tried to respect as 
U.S. Attorney when engaging in law enforcement activities with 
the tribes.
    I haven't read the decision that the NLRB issued, it was 
after my time on the NLRB, and I haven't seen the statute. But 
at a general level, I would say this: That the United States 
has made commitments that we would respect the sovereign-to-
sovereign nature of tribes, and that those commitments should 
not be violated unless there is clear language to that effect.
    And so I don't know where the NLRB found that language. But 
ultimately, I think that Congress should carefully consider 
this. And unless there is good reason, the sovereign-to-
sovereign relationship that we have with tribes is something 
that goes beyond any one area and that has sort of been a 
fundamental tenet of the relationship that we hold with those 
entities.
    Mr. Cole. Well, I appreciate that answer. And I would hope 
that if you have time that you take a look at this issue, 
because it is something that, again, we will be dealing with 
probably on the floor of the House, certainly within the 
confines of this committee.

                         JOB CORPS BUDGET CUTS

    Let me ask you in the time that I have left, obviously--and 
this was raised by a number of members--you have proposed 
pretty serious cuts or substantial cuts in the Job Corps 
program. Could you give the committee some idea about the 
criteria you would use in making the decisions whether closures 
were involved, how you see redistributing the funds that you 
would have left, and, again, where you think there are areas 
that could be reduced without costing us any effectiveness in 
training young people to go into the labor market?
    Secretary Acosta. Certainly, Mr. Chairman. As you are 
aware, the Job Corps program encompasses many centers. Some of 
them are quite effective, some of them much less so. And there 
are formulas in place to measure Job Corps effectiveness.
    At a personal level, I have looked at those formulas, and 
one concern that I have with respect to those formulas are do 
they focus on the end result. The Job Corps center is there to 
teach skills so that individuals could get jobs. And my 
question is, are they getting jobs?
    And I think that is a very easy criteria in one sense, and 
a very complicated criteria in another sense, because in some 
hard-to-serve communities, if 50 or 75 percent of the 
individuals find a job, that is a big win, because in some 
hard-to-serve communities, given the population that Job Corps 
serves, that is an outstanding result.
    And so I think it is important that any decision on Job 
Corps first be based on what the budget ultimately provides or 
what the appropriations ultimately provide.
    Second, it looks at the cost of running individual centers. 
There are some centers that may need repair to maintain them. 
That would be very expensive.
    And thirdly, it looks on a rigorous data-based, evidence-
based, using evidence-based methodology, at ultimately are the 
participants getting jobs, compensating for the fact that some 
Job Corps programs serve hard-to-serve communities and what may 
on its face be a less effective program may actually be quite 
effective, given the community that it serves.
    Mr. Cole. Thank you very much, Mr. Secretary.
    I am going to go next, if the gentlelady has no objection, 
to the full committee chairman, because I know he has many time 
constraints.
    So, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Just one comment and then a question.

                     FOCUSING ON VETERAN EMPLOYMENT

    As you look at our workforce, three of us on this 
committee, on this panel, serve on the Defense Appropriations 
Committee. I chaired that over the last couple of years. There 
is an enormous need for welders out there. It is a tough job. I 
think you know many of those in that type of occupation are 
second or third generation. I do think as we look at sort of 
opportunities, there could be more of a focus, which would be 
beneficial to veterans and others.
    And the other area, which is quite different but does 
require particular skills, mostly found in the young, a cyber 
workforce that is capable to meet sort of the challenges we 
have today.

                      STATUS OF THE FIDUCIARY RULE

    And so my question is unrelated. Where do we stand relative 
to the fiduciary rule? I mean, I have to say I think Members of 
Congress have been bombarded by a lot of their constituents 
over the last 3 or 4 years. I have probably had 2,500 letters, 
electronic and snail mail, on that issue. Could you just walk 
us through briefly where we stand relative to the fiduciary 
rule?
    Thank you, Mr. Chairman.

                    JOB TRAINING AND APPRENTICESHIPS

    Secretary Acosta. Mr. Chairman, I am happy to do so. And 
first, let me acknowledge the earlier point that you raised. 
Just this morning, I was talking with a major corporation that 
has entered into a cybersecurity partnership with the 
University of Maryland, where they are working with the 
University of Maryland on the curriculum so that Maryland will 
graduate individuals trained in cybersecurity, educated in 
cybersecurity, ready for jobs.
    And on the welder point, let me note that apprenticeships, 
according to our data, on average, when they complete it, enter 
professions where they earn an average of $60,000 a year, which 
is an amazing salary for an entry level job, quite honestly, 
higher than a lot of lawyers. And it is something that I think 
individuals don't hear enough about.

                      UPDATE ON THE FIDUCIARY RULE

    Going to your question on the fiduciary rule. As you are 
aware, the fiduciary rule was adopted by the prior 
administration. It was postponed for 60 days. The effectiveness 
of part of it was postponed for 60 days to analyze it. This 
administration looked at whether it should be postponed further 
and concluded that there was no basis to postpone the effective 
June 9 date any further.
    The rule is being looked at. Just this morning at the OMB 
website, at the OIRA website, a request for information went 
public asking industry, asking consumers a number of questions 
about the rule, about how the rule is being implemented, about 
the impact that the rule has, and that is the first step in 
this administration's review of that rule. But we need that 
information and we need that data in order to decide how to 
proceed.
    Mr. Frelinghuysen. Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    With that, we will go to my good friend, the ranking 
member, the gentlelady from Connecticut.

              CLOSING THE SKILLS GAP UNDER PROPOSED BUDGET

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Mr. Secretary, in your testimony you note that with 6.9 
million unemployed Americans, and there are 6 million job 
openings, that we need to do a better job equipping workers 
with in-demand skills and matching them with businesses that 
are hiring.
    So, as I pointed out earlier, I find it perplexing that as 
you advocate to address the skills gap, your budget proposal 
slashes $2,300,000,000 from job training. Forty percent, 
$1,100,000,000 cut to the Workforce Innovation and Opportunity 
Act, WIOA grants. Job Corps, my colleague asked about, 15 
percent, $256,000,000. I was interested to hear your comment.
    In terms of these cuts which are being proposed, you 
reference an evaluation process that must go into 
decisionmaking. I don't know, what was the decisionmaking 
process that went into the evaluation of $256,000,000 to cut 
Job Corps, $256,000,000 to cut the employment service, 
$10,000,000 to cut Reintegration of Ex-Offenders, $5,000,000 to 
the apprenticeship program.
    Yes, apprenticeships, Germany, U.K., over the top on what 
they are doing with apprenticeships. We added money in the 
omnibus bill, which is a good thing. Why aren't we going back 
to the program that we had and looking at the TAACCCT program, 
$2,000,000,000, which went to community schools in order to be 
able to close that skills gap and to be able to apply for 
apprenticeships? You can't cut a program and say that you are 
for the program.
    Complete elimination, job training for migrant and seasonal 
farm workers, $82,000,000; Senior Community Service Employment 
Program, $400,000,000. These are all job training programs that 
have been proven.
    How do we provide workers with the skills we know they need 
under your budget proposal?
    Secretary Acosta. Well, I thank the ranking member for the 
question, and it is an important one. As you noted, the skills 
gap is real. Just this morning I was at a meeting of 
businesses----

                        CRITERIA FOR BUDGET CUTS

    Ms. DeLauro. How does your--I am sorry and I don't mean 
to--I have very limited time, as it turns out, always on this 
committee, because everybody comes. There is such good stuff we 
deal with here.
    How do you propose, with the cuts that have been proposed 
in worker training, to go where you want to go, and what was 
the process of evaluation of these programs with the initial 
cuts that we see here? Who evaluated them? What were the 
criteria that said we should cut Job Corps $256,000,000, we 
should eliminate this program?
    Secretary Acosta. So let me take your questions seriatim, 
if I could.
    With respect to what was the evaluation process, I think 
what I was referencing is that there has to be an evaluation 
process that is data-based and that is rigorous in order to 
implement those reductions that are ultimately determined to 
take place on programs like Job Corps, that it shouldn't simply 
be we don't cut it because it's in this Member's district or 
that Member's district, but it needs to be data-based. And I 
was referencing the formula and thoughts on how to engage in 
that evaluation process in order to implement the cuts that--I 
am sorry?
    Ms. DeLauro. All I just want to say is, I understand, we 
understand evaluation here. We have program integrity dollars 
where we look into what is fraud, waste, and abuse, all of the 
above. I have no idea, and if somebody could tell me and get 
back to me on what were the criteria that went into the cuts 
that are here, $2,300,000,000, and the cuts to programs that 
have been proven effective.
    We all on this committee understand Job Corps to a fare-
thee-well. We have said close down those that don't work. I 
don't know where you come up with $256,000,000 and what is 
going there.

         SHIFTING RESPONSIBILITY TO STATE AND LOCAL GOVERNMENT

    The other piece of this which was interesting to me is, do 
you really believe that States and localities are going to pick 
up the slack on this effort? We are looking at, if I look at 
overall of what the administration's proposals are, new costs, 
you gut Medicaid, SNAP, TANF, LIHEAP, to name a few, and the 
higher education spending per student is down by about 18 
percent and we are going to get that to the States. How are we 
going to do that?
    Secretary Acosta. So, Congresswoman, I can't comment as to 
the higher education spending, but what I can say with respect 
to an important element of this budget is there are 37 
different programs at DOL, many of those that flow down to the 
States. And one element that I think will be helpful to the 
States is increased flexibility in how to spend the money that 
they have rather than line item each to a particular program.
    Ms. DeLauro. They don't have the money, and we are cutting 
further back in what they do. I just look to the State of 
Connecticut. In no way could they take up the slack on these 
programs.
    Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Cole. I thank the gentlelady.
    Next, based on the order of arrival, we move to the 
distinguished vice chairman of the committee, the gentleman 
from Arkansas.
    Mr. Womack. Thank you, Mr. Chairman.

                      REVIEWING THE FIDUCIARY RULE

    Thank you, Mr. Secretary, for your service and your 
testimony here this morning.
    The overall chairman asked about fiduciary. I want to go 
back to that for just a minute because on Friday the rule takes 
effect. But you said in your testimony two things: That OMB has 
published a request for information and that you will continue 
to look at it. What does ``look at it'' actually mean to the 
average person?
    Secretary Acosta. So, Congressman, let me be precise. I 
think what I said was that OMB--it appeared on the OMB website, 
and any request for information still needs to go through the 
OIRA process.
    Mr. Womack. I see.
    Secretary Acosta. And so it has not yet been published.
    So, as I tried to indicate--and I have to be very careful 
because this is an ongoing litigation--as I tried to indicate, 
this rule was enacted under the Administrative Procedure Act. 
And through that act, Congress provided a methodology for 
administrations to enact rules.
    And I guess if I was talking to the average person, I would 
say, when Congress enacts a law, you need a new law to change 
the old law, and that new law needs to go through the same 
process as the old law. When a rule is enacted, you need a new 
rule to change the old rule, and that rule needs to go through 
the same process as the old rule. And this is an 
oversimplification to try to address your request, to sort of 
oversimplify.
    And so if there were to be a change, that change would have 
to be based on information that is obtained through a record 
process, the first step of which is a request for information 
that establishes the beginning of additional information in the 
record. And based on that information and if that information 
supports it, then the administration could look to a new rule 
that could change the previous rule, just like Congress, as it 
gets new information, could say, we want to enact a law that is 
somewhat different.
    Now, that sounds cumbersome and that sounds--some have said 
it is about process. But it is not about process, it is how the 
democracy works. And no one in government should be able to 
snap their fingers and undo laws or undo rules, because that is 
not a respect for fundamental democracy.
    Mr. Womack. There are concerns about inhibiting job growth, 
job creation, cost-benefit questions, impacts on, say, younger 
generation who are just now beginning to save for retirement.
    Is it not obvious that this is going to limit their 
options? Does it have some far-reaching effects that would be 
counterproductive to particularly younger generation saving 
opportunities?
    Secretary Acosta. Congressman, there are concerns. Those 
concerns were voiced in the original rulemaking process. And 
the prior administration made a decision that those concerns 
were outweighed by what the prior administration wanted to do.
    At this point, the Administrative Procedure Act and 
administrative law prohibit me from prejudging a rule. And so I 
need to be careful. I will acknowledge those concerns, but we 
need the data to substantiate those concerns, because the 
decisions have to be based on the record or else it becomes 
prejudgment. But those concerns certainly surfaced the first 
time around and, unfortunately, they were not heard, and that 
is what happens.
    Mr. Womack. I hope they are heard in the next review.

                   CONSOLIDATING GOVERNMENT PROGRAMS

    In the time that I have left, I do want to congratulate you 
for attempting some consolidation to save money, because we do 
operate under a finite resource environment. But specifically, 
the OFCCP and the EEOC, are there other opportunities out there 
to consolidate and create some economies of force, if you will, 
among our departments?
    Secretary Acosta. Well, Congressman, I do think an area of 
consolidation, referencing the ranking member's question 
earlier, we have, I believe, 37 different job education 
programs just at the Department of Labor alone, and that 
doesn't include the job development programs that we have at 
Veterans Affairs, at the Department of Education and elsewhere.
    And ultimately, we all want to provide job education. We 
really, really do. Everyone wants to see the unemployment rate 
remain low, everyone wants to see the job openings filled, and 
that is something I think we can all share. The question is, is 
that best done with the 50 or more programs throughout 
government or is that best done with a handful of programs that 
are highly successful?
    Mr. Womack. Thank you.
    I yield back.
    Mr. Cole. Thank you.
    We now go to my good friend, the distinguished lady from 
California, Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Acosta. Good morning.
    Ms. Lee. Good to meet you.

             IMPACT OF CUTS TO WORK FORCE TRAINING PROGRAMS

    I want to follow up with regard to the cuts as it relates 
to workforce training. But first let me just say there have 
been several estimates about the overall Trump budget as it 
relates to job losses, even though, unfortunately, we heard the 
President talk about putting America First and creating jobs in 
America. But I know one estimate has the overall budget 
totaling a 1.4 million job loss by 2020, given this budget. 
Your agency has a large part of this job loss responsibility, 
quite frankly.
    With regard to the workforce training, for example, the 40 
percent cut under Title I for adults, youth, and dislocated 
workers, it is really shameful, especially when you look at 
what, for example, other departments are requiring in terms of 
work requirements as eligibility for food stamps, for example. 
Yet you are cutting the very work training programs that would 
help people get jobs. And yet, on the other end, the Trump 
administration is saying, but if you don't have a job, you are 
not eligible for food stamps.
    These cuts are outrageous as it relates to communities of 
color. And I want to go and hear your understanding of why the 
unemployment rate is still twice, for example, in the Black and 
Latino community, 4.3 percent nationally, 7.5 percent in the 
African American community, 5.2 percent in the Latino 
community.
    So investments in workforce training, in reintegration of 
ex-offenders, you are cutting 12 percent out of that account. 
You are cutting the 5 percent out of the apprenticeship 
programs.
    What is your analysis as it relates to communities of 
color? And don't we need--and do you believe we need targeted 
investments in communities of color where this unemployment 
rate is still twice what the national average is?
    Secretary Acosta. Congresswoman, thank you. Thank you for 
the question.
    Let me start off by saying I don't know where the data came 
from regarding the job impact of the budget, but----
    Ms. Lee. Economic Policy Institute is one organization that 
has indicated about a 1.4 million job loss by 2020 by the Trump 
budget.

             FOCUSING ON JOB TRAINING WITH A LEANER BUDGET

    Secretary Acosta. So I will have my staff pull that 
information. But let me say, I am exceedingly focused on jobs, 
jobs, and jobs. That is a very clear, a very, very clear 
priority. And so I hear everything you are saying.
    You know, just a few days ago I found out that--I was told, 
and I don't know if it is factual or not, but I was told that 
the Bureau of Prisons doesn't open--doesn't allow access once 
individuals are moving into the community and starting to 
reenter into apprenticeships, private sector apprenticeships. 
And I directed my staff to call over and start finding out why, 
because that does have a disproportionate impact on communities 
of color.
    And just this morning I was talking about the cybersecurity 
apprenticeship program at the University of Maryland, and one 
of the----
    Ms. Lee. Mr. Secretary, I want to go to your budget, in 
terms of the cuts and the impact on communities of color, 
especially given the unemployment rates and given the cuts in 
workforce training in Job Corps and employment services and 
apprenticeship services as it relates also to the work 
requirements of other programs.
    Secretary Acosta. And that is where I was trying to go. The 
point I was making about the apprenticeship program at the 
University of Maryland is that they were telling me that it 
disproportionately helps communities of color, because it is a 
cohort program that provides a community and a support system. 
And so I think your points are very, very important.
    I think one of the issues raised by the budget and one of 
the themes that I am hearing that I would push back against a 
little bit is the notion that it is all about just how much you 
spend. The budget overall makes very, very hard decisions. And 
as part of that, we are going to have to reallocate the money 
from some programs that are less effective to some programs 
that are much more effective.
    Ms. Lee. Mr. Secretary, how do you then allocate Department 
of Labor cuts, in terms of workforce training, to create the 
type of job training programs that everyone who is unemployed 
who is trying to get a job needs with those cuts? And I 
specifically ask because in communities of color you are 
looking at 7.5 percent unemployment rate in the Black community 
and 5.2 percent in the Latino community.
    And so specifically, with regard to those cuts, how do you 
create the skill sets and the eligibility requirements for 
people to get these jobs that exist yet aren't filled?
    Secretary Acosta. Congresswoman, and that is why I was 
referencing programs like apprenticeships and others, where you 
do not saddle individuals with debt, where you help them gain 
job skills, and where particularly communities of color can 
benefit and have been shown to benefit from gaining these jobs.
    Ms. Lee. Mr. Secretary, there is a $5,000,000 cut in your 
apprenticeship programs. And so what I am concerned about----
    Mr. Cole. I would ask the gentlelady and the Secretary to 
please--we are at time, and I want to give everybody a second 
round if we can.
    Ms. Lee. Okay. Thank you, Mr. Chairman.
    But I still don't quite understand when you cut 
apprenticeship programs and workforce training programs how you 
help create a pathway to middle class jobs for people.
    Mr. Cole. I appreciate that very much.
    And now we will go to my good friend, the distinguished 
doctor from Maryland, Dr. Harris.
    Mr. Harris. Thank you very much.
    Thank you, Mr. Secretary, for being here. Congratulations 
on your appointment.

                     PRIORITIZING FEDERAL SPENDING

    Look, I agree with the framework of the President's budget. 
The bottom is, we do have to finally prioritize spending. We 
have a $500,000,000,000-a-year deficit, a $20,000,000,000,000 
debt, and the last President never presented a budget that 
ever, ever balanced. Now, no family can do that. No business 
can do that. It is about time the Federal Government doesn't do 
that.
    So we do need to prioritize spending to undo the defense 
rollback of the last administration and to reduce our deficit 
and eventually balance the budget. So I support the President's 
framework, no question about it.
    With regards to the Economic Policy Institute, I wouldn't 
spend too much time looking into what they do. It is a union-
backed organization that--look at their website, look at the 
front page--that is just a President-bashing site. I get it, I 
understand there is division in the country, but their 
alternative facts are just not correct.

                          H-2B VISA CAP RELIEF

    Let me talk about two specific issues very important to 
Maryland and my district. First is H-2B cap relief. We have 
industries in my district, specifically the seafood processing 
industry, that simply cannot find American workers to do those 
jobs. Those jobs exist for only 4 or 5 months out of the year. 
My idea of full American employment is not having every 
American have a job that lasts 4 or 5 months if we can do that 
with temporary foreign workers.
    As you know, the omnibus bill did authorize up to an 
additional 69,000 temporary worker visas, but after 
consultation between DHS and DOL.
    So I just want to ask you, what is the status of those 
consultations and are we going to begin to see an increase in 
the numbers of H-2B visas processed this year, especially for 
the summer season, so important in my district?
    Secretary Acosta. Congressman, thank you. Thank you for the 
question.
    And first, let me clarify, as the chairman mentioned 
earlier, one of the confusions here is that, because there 
wasn't a budget and there had to be a midyear change, the 
increases and the decreases are difficult to measure.
    But with respect to apprenticeships, the budget is being--
there is reduction in apprenticeship spending. It is the same 
level as the 2017 continuing resolution.
    Now, moving to your question on H1Bs. I am very sensitive 
to your question and the concern. H1Bs generally I think fall 
into----
    Mr. Harris. H-2B.
    Secretary Acosta. I am sorry. H-2Bs generally fall into two 
categories, what I will call the truly seasonal worker, such as 
you are referencing, and that is a very specific industry and a 
specific geography and a more general worker. And something 
that I think we need to look at are long-term fixes in a few 
areas.
    First, employers have to apply for jobs no more than 3 
months in advance, but there is a 6-month window. And so if you 
have to apply 3 months in advance for a 6-month window and the 
caps are reached almost immediately in January, unless you are 
starting employment in April, you are locked out of the system. 
And that has an impact on a few geographical locations where 
they are, in essence, locked out of the system. And my staff 
has already started talking to staff about ways to address 
that, possibly breaking down the number in a more logical way 
that doesn't disadvantage certain geographies over others.
    I think the second question that needs to be addressed is, 
how do you address the needs of certain geographies that have 
extreme peaks in demand that are seasonal for a short period of 
time? And how do you address those without opening the program 
broadly? Because for those geographies with extreme peaks, that 
demand simply cannot be met by the local workforce or even a 
workforce that is brought in.
    And so those are two very complicated fixes that I very 
much hope to work with Congress on a long-term solution.
    As to the shorter-term solution, we are in discussions with 
DHS that has the ultimate authority on this. And what I can say 
is I am sensitive to your concerns, but there is also the 
concern that raising the overall cap may not really address 
what is a unique situation in your State and about half a dozen 
other States throughout the country.
    Mr. Harris. Thank you. Obviously, you understand the issue 
and hopefully maybe this can be a bridge to solving it.

                             OVERTIME RULE

    I just want to in the remaining few seconds just mention 
that the overtime rule is very significant for educational 
institutions, and in the University of Maryland system, it 
would increase cost between $16,000,000 and $40,000,000 in a 
year. So I would urge you to look at that cap and perhaps just 
do an inflation adjustment instead of raising it as far as it 
is, because it is so important to our educational institutions.
    Thank you. I yield back.
    Mr. Cole. Thank you.
    We will now go to my good friend from Wisconsin, Mr. Pocan.
    Mr. Pocan. Thank you very much, Mr. Chairman.
    And nice to meet you, Mr. Secretary.

                       FOCUSING ON APPRENTICESHIP

    I am very encouraged to hear what your personal goals are 
around apprenticeship. I strongly believe that too. I wish we 
had apprenticeship programs in technology and healthcare and a 
whole bunch of other areas. I think that would be very useful.
    And we do have a bill that was introduced, the LEARNS Act, 
you might want to take a look at. We haven't reintroduced it 
yet this Congress. It was bipartisan in the Senate. It talks 
about some initiatives around that. But a strong supporter of 
apprenticeships and glad to hear your commitment, and I know 
you made comments when you came back from Germany.

          MAINTAIING THE ADVISORY COMMITTEE ON APPRENTICESHIP

    The questions I have, hopefully, are fairly brief, just 
trying to get some idea. One is, are you going to maintain the 
Department's Advisory Committee on Apprenticeship?
    Secretary Acosta. Congressman, I have no current plans not 
to. I think advisory committees are very, very helpful.
    Mr. Pocan. All right, thank you.

                   CRANE OPERATION CERTIFICATION RULE

    Second, I know there is a rule, a promulgated rule around 
crane operation certification, crane operator certification, 
and I know that there is some consensus around the industry. I 
know they would like to talk to you about some changes. Are you 
open to talking to them? I think there seems to be a consensus 
among the industry, and if we could just make some changes, the 
rule might turn out to be a little stronger for everyone.
    Secretary Acosta. I love talking to both industry and 
representatives of workers. I have already started outreaching 
to many different organizations, and I would welcome the 
opportunity for them to come in. And if your office or your 
staff would provide the contacts, I would welcome that.
    Mr. Pocan. Thank you. Appreciate that.

                   WAGE THEFT ENFORCEMENT STRATEGIES

    On the Wage and Hour Division, you know, in the past they 
have used a lot of the tools and penalties in order to have 
some strategic enforcement around wage theft issues. Do you 
intend to pursue similar enforcement strategies regarding wage 
theft?
    Secretary Acosta. And so I am not----
    Mr. Pocan. Independent contractors especially.
    Secretary Acosta. So I am not certain exactly what you are 
referencing, but let me tell you at least my approach. 
Something that when I was U.S. Attorney that I tried to find is 
the high-impact cases. And there are different ways of 
measuring effectiveness. One is, how many cases do you bring? 
And another one is, do you bring what I will call impact cases? 
And impact cases are larger cases that have broad-based impact, 
and it is not just on the individual worker in this context, 
but it is also the deterrent effect that it has.
    And I do think there is a high value to bringing impact 
cases, but that also has to be balanced with you can't give a 
free pass to the small actor. And so while you are focusing on 
the large impact cases, you also have to recognize that you 
need to bring a reasonable amount of smaller cases so that the 
small actor that is behaving wrongly doesn't feel that they 
have a free pass.
    Mr. Pocan. I would just encourage you to look. I think some 
of the past actions were very helpful. When we met with the 
Department of Labor last session when I was on Education and 
Workforce, they are estimating up to 70 million people might be 
independent contractors right now. Clearly, that is not the 
realistic case that is out there. I have been an employer for 
three decades. So if you can continue to look at that, we would 
really appreciate that.

               ELIMINATION OF SUSAN HARWOOD GRANT PROGRAM

    Another question, a lot of concerns around the OSHA 
outreach program that is being cut, the one that kind of does 
work directly with workers, the Susan Harwood Training and 
Education Grant Program. Could you just talk about that cut 
briefly?
    Secretary Acosta. Certainly. The Susan Harwood grants are 
being cut. At the same time, though, there is a budget increase 
of, I believe, $4,000,000 for compliance assistance. And so our 
approach to that is we recognize that the money for the grants 
around compliance will be reduced, but at the same time our 
intent is to invest in providing that training and that 
compliance assistance ourselves directly.
    Mr. Pocan. Okay. We might just want to follow up with you a 
little bit on that.
    Secretary Acosta. Happy to do that.
    Mr. Pocan. Appreciate you looking at that.

                    PRIORITIZING LOW-INCOME WORKERS

    Also, how are you going to prioritize helping low-wage 
workers? Specifically, I think one of the concerns we had last 
session is people could be making $24,000 a year and then 
working way beyond the 40 hours a week without any 
compensation. Can you address how you are going to take a look 
at that?
    Secretary Acosta. Well, do you mean within the wage and 
hour context or more generally?
    Mr. Pocan. Wage and hour context.
    Secretary Acosta. Well, let me answer both. How is that? 
Within the wage and hour context, we are going to enforce, and 
we are going to enforce vigorously. You know, just this week we 
announced some really interesting enforcement actions that I 
will provide----
    Mr. Pocan. Excuse me, Mr. Secretary. I think broader, you 
are right. I am sorry. How are you going to look at it? Because 
the one thing the last administration, they were targeting that 
$24,000 figure, just because it seemed so low, you shouldn't 
have to work beyond the 40 hours for no extra compensation. If 
you could just address that maybe more generally then, how you 
are going to deal with it.
    Secretary Acosta. Certainly.
    So I think for lower income, there are two parts. One is, 
where the law is being violated, we need to look at it and we 
need to look at it carefully and vigorously.
    And just this week, we announced two cases, one of which I 
thought--I am a little over time--but I thought it was very 
interesting because it involved what I will call severe 
mistreatment of individuals that were here on visas. And we 
will provide your staff with that.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    But the kind of working conditions that no one should have 
to work under. They were being asked to sleep in a bus that was 
un-air-conditioned, you know, so that they could be by the work 
site.
    And so, as far as I am concerned, we are going to enforce 
all that.
    More broadly, going back to the skills gap, it is not just 
about enforcement. You have to provide people a pathway out. 
And I hate to sort of be one note on this, but particularly for 
lower-income folks, providing those skills is, I think, 
critical.
    Mr. Pocan. Thank you.
    Mr. Cole. We will next go to the distinguished member from 
Michigan, my good friend, Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman.

                           H-2B VISA PROGRAM

    Mr. Secretary, thank you for being here with us today. And 
I wanted to build on some of the discussion that you were 
having with Dr. Harris about the H-2B visas. And I strongly 
support the points that he made, and I appreciated your 
understanding of this issue and also the idea that there are a 
few things you are able to do in the short term to look at some 
of the timing issues and also geographies with extreme peaks. 
And also it may require more complicated legislative solutions, 
and I would just offer to work with you on that in any way I 
can be helpful.
    Secretary Acosta. I appreciate it.
    Mr. Moolenaar. You know, in Michigan the H-2B visa program 
is extremely important to seasonal employers, and resorts and 
other seasonal businesses throughout my district in northern 
Michigan rely on the H-2B program to operate, especially during 
the summer tourism season. And right now there are dozens of 
businesses in northern Michigan, especially on Mackinac Island, 
facing the prospect of limiting hours that they are opening--or 
not opening at all--due to labor shortages and the early 
exhaustion of H-2B visas.
    And I don't know if you are familiar with that situation, 
but it is something that I do want to bring to your attention. 
And I was pleased that you have been consulting with Homeland 
Security and would just want to raise that issue, because it is 
a jewel of Michigan and I have heard repeated concerns about 
the lack of workers that are projected.
    Secretary Acosta. Congressman, if I could just--I am not 
sure that was a question--but if I could just reemphasize my 
comment. You know, I think it is very important that we look at 
a way to address the truly seasonal demand and separate that 
from the broader, because I understand and feel for those 
businesses that are engaged in the truly seasonal demand, but 
the current program does not separate those.

                     POSTPONING THE FIDUCIARY RULE

    Mr. Moolenaar. Okay. And then just as a follow-up, you have 
talked some about the fiduciary rule as well. And I understand 
the point you are making about not wanting to prejudge. My 
concern is that as we approach this June 9 timeline, I wonder 
if you do have the ability to postpone it going into effect 
until you are able to review it or if you have considered that. 
I know that is something that would--if you were able to 
postpone it until the review was done and any recommendations 
you have, I think that would clarify and eliminate some of the 
confusion on this issue.
    Secretary Acosta. Congressman, thank you.
    We looked very carefully at whether we could postpone it. 
And to sort of fall back on the earlier analogy, when Congress 
passes a law, the executive branch can't just postpone 
implementation of that law. And when a rule is adopted, the 
executive branch cannot--with very, very narrow exceptions--
just postpone implementation of that rule.
    And if the executive branch was allowed to do that, then 
that would be an immense power that the executive branch would 
have. And so one of the difficulties is folks may say, well, 
sometimes the executive branch takes upon itself power that it 
shouldn't have, but that is not what the law says, and rules 
can't just be postponed even if there are concerns.
    So we have looked at it, we have looked at it very 
carefully, attorneys at various levels have examined this, and 
we have come to the conclusion that there simply is no basis to 
postpone the June 9 date.
    I should add that the full rule does not come into effect 
on June 9. Several important provisions of the rule do not come 
into effect until January 1. So the prohibition on arbitration 
doesn't go into effect until January 1 and the State law causes 
of action do not go into effect until January 1.
    But as to the June 9 date, which is what is before us now, 
we have looked at it very carefully, multiple attorneys have 
looked at it, and the conclusion has been that there is no 
basis to postpone the rule.
    Mr. Moolenaar. Okay. Thank you.

                    PRIORITY APPRENTICESHIP PROGRAMS

    And then just one last question, on the skilled trades and 
some of the things you learned while you were in Michigan, the 
apprentice programs. Are there certain apprenticeship programs 
that you think should be at the top of the priority list?
    Secretary Acosta. So I think particularly the skills trades 
are looking at a shortage. And something that concerns me--I 
mentioned earlier that apprentices make an average of $60,000 
starting wage and joked that that is higher than a lot of 
lawyers, and it is, as a factual matter. But if you look at 
welders, if you look at carpenters, if you look at so many 
others, these are professions that aren't attracting as many 
youth, and these are professions that pay really good money at 
the end of the day.
    And we need to figure out a way to work through 
apprenticeship programs and others. And these are also 
professions, I should add, that have established apprenticeship 
programs that are very effective. So the first thing is don't 
break what is working, right? But let's find ways to increase 
and scale what is already working, because we need folks, 
particularly with the upcoming infrastructure, we knows folks 
that know how to build.
    Mr. Moolenaar. Thank you.
    Mr. Cole. The chair is going to gently admonish the panel, 
please don't ask the second question 7 seconds before the end 
of your time. Not very fair to the Secretary. Not very fair to 
the next people in line. And I do want to give people an 
opportunity to ask as many questions as possible.
    With that, my other good friend from California, Ms. 
Roybal-Allard is next.
    Ms. Roybal-Allard. Welcome, Mr. Secretary.

                     JOB TRAINING BUDGET REDUCTIONS

    Before I ask my question, I just want to say that I am 
equally confused about your emphasis on the dire state of the 
skills gap and then what your budget proposal does to impose a 
staggering 40 percent cut to WIOA State formula grants, which 
would actually shatter the successful sector partnerships and 
career pathways that currently benefits businesses at the local 
level. And I just want to point out that it is estimated that 
your budget would result in the loss of job training programs 
for over 31,000 workers in California alone.

              REVOKING FAIR PAY AND SAFE WORKPLACES ORDER

    As you know, President Trump signed an executive order to 
revoke the 2014 Fair Pay and Safe Workplaces order, which 
required Federal contractors to give wage statements detailing 
pay and hours to employees to guard against wage discrimination 
and reduce the wage gap between men and women. The Fair Pay and 
Safe Workplaces order also stopped companies with government 
contracts from using forced arbitration clauses to keep sex 
discrimination claims out of the courts and off the public 
record. I am deeply concerned by the President's elimination of 
these protections.
    In the absence of the Fair Pay and Safe Workplaces order, 
what are your plans to protect workers from Federal contractors 
who violate labor and civil rights laws?
    Secretary Acosta. Well, Congresswoman, let me answer your 
question broadly and specifically.
    First, let me say that the revocation of any particular 
order is not intended to lessen enforcement. And more 
specifically, let me go to the OFCCP and the responsibilities 
that it has, as well as the Women's Bureau, where we are going 
to--we have authority over Federal contractors, and we will use 
that authority and we will use that authority fully and 
vigorously.
    The Women's Bureau, as well, is I think an important part 
of DOL. And one of the areas that I think it is important for 
the Women's Bureau to pursue is to look at these issues and to 
make recommendations within DOL and within government as to 
what can be done to address issues that are of importance to 
women, issues that impact women disproportionately. I am glad 
that the Women's Bureau is within this budget because it will 
allow the Department of Labor to focus a particular entity on 
exactly these issues.

      MAINTAINING PROTECTIONS FROM FAIR PAY AND SAFE WORKPLACES EO

    Ms. Roybal-Allard. Okay. If this executive order is not 
intended to lower enforcement, you said, then what is the 
purpose of this executive order in revoking the safety measures 
that are in the pay equity of Fair Pay and Safe Workplaces?
    Secretary Acosta. So, Congresswoman, I think there are 
different ways things are measured, and sometimes effectiveness 
is measured by dollars and sometimes effectiveness measured by 
outcome. And sometimes protections are measured by process and 
regulation, and sometimes effectiveness is measured by outcome.
    And a reduction in process or a reduction in regulation 
does not as a matter of necessity imply, nor should it be read 
as, a reduction in protections. You can protect without having 
the regulations that overburden or that require excess 
disclosure.
    Ms. Roybal-Allard. My colleague here just points out that 
the Women's Bureau is cut by $9.6 million and 29 FTEs. So you 
continue to cut the very programs that are meant to do exactly 
what you said, and that is oversight and protection.
    Let me just ask you this. What actions will you take to 
prevent millions of dollars of Federal contracts from going to 
companies that partake in labor and civil rights abuses, 
particularly in pay equity?
    Secretary Acosta. So, Congresswoman, let me answer your 
question differently. The Fair Pay and Safe Workplaces EO that 
you are referencing was the so-called--some in the media called 
it a blacklisting provision. A CR was passed by this Congress 
on that matter. We are still going to go after the bad actors 
irrespective. We still have debarment authority. We have 
enforcement authority. And we intend to use those fully.
    Ms. Roybal-Allard. Can I just ask you, based on what 
information? If this information isn't being provided, then 
what are you going to use as a basis to go after these bad 
actors?
    Secretary Acosta. So my understanding of this is that the 
information is available. The question is whether there is a 
list that is kept that sort of automatically bars or prevents 
without additional process or additional safeguards. And that 
is different from enforcement. The United States engages in all 
sorts of enforcement activity without keeping lists of 
potential bad actors.
    Ms. Roybal-Allard. Do you believe that companies----
    Mr. Cole. The gentlelady----
    Ms. Roybal-Allard. Just yes or no, do you believe that 
companies with government contracts should be able to use 
forced arbitration clauses?
    Secretary Acosta. Congresswoman, I believe that when 
engaging in contracting the government has the authority and 
right to look at what is appropriate in any particular contract 
situation. I believe it is the policy of Congress, as enacted 
by legislation and, thus, the policy of the United States, to 
favor arbitration as a general matter.
    Ms. Roybal-Allard. Sorry, Mr. Chairman, I thought it was 
going to be a yes-or-no answer.
    Mr. Cole. Well, the gentlelady got extra time, but only 
because the next gentleman asked for an untimed personal 
announcement that he wanted to make.
    Mr. Simpson. Yes. We have an announcement that we would 
like to make. I spent the last 2 nights--this has absolutely 
nothing to do with this hearing, but it is very important 
anyway.
    Mr. Cole. Yes, it is.
    Mrs. DeLauro. Fire away.

                MISCELLANEOUS COMMITTEE MEMBER COMMENTS

    Mr. Simpson. I spent the last 2 nights watching two 
incredible women's softball teams playing for the national 
championship. Monday night's game went 17 innings. And I turned 
on to watch the Nationals play the Dodgers, but it just kept 
going and going and going. It was an incredible game to watch.
    And last night the Oklahoma Sooners won the national 
championship for the second time in a row, fourth time in their 
history. And I am really getting tired of saying this, I want 
to congratulate my chairman and his Oklahoma Sooners for the 
women's national championship softball game.
    Mr. Cole. Third time in 5 years.
    Mr. Simpson. Yep. It was an incredible game to watch.
    Ms. DeLauro. Do they get paid as much as the men get paid?
    Mr. Simpson. In college they do.
    Mr. Cole. Since you brought it up, just for the record, the 
OU men's golf team won the national title 2 weeks ago, and for 
the second year in a row, we are the only school to ever have 
the men and women's gymnastic team claim the national title in 
the same year. So for those of you who think we just play 
football, we actually do other things very well.
    Ms. DeLauro. Or those of us in Connecticut just play 
basketball.
    Mr. Simpson. The question is, did they do any educational 
services, too?
    Mr. Cole. These are brilliant young women. These are 
brilliant young women. The men's golf team, maybe not so much. 
But they are awfully a special bunch. But thank you very much.
    Mr. Simpson. Thank you.
    Mr. Cole. My friend is recognized for a normal round of 
questioning.
    Mr. Simpson. Thank you, Mr. Secretary. And thanks for being 
here.

                OVERTIME RULE'S IMPACT ON SEASONAL WORK

    I want to talk for just a minute about this overtime rule 
that was proposed by the Obama administration, and this has had 
a disproportionate impact on seasonal recreation businesses 
operating on public lands, like guides and outfitters. They are 
required to obtain a permit to operate on public lands, 
including in national parks and forests, and that permit makes 
them a Federal contractor.
    The regulations promulgated as a result of this executive 
order is pushing these businesses off public lands. For an 
experienced guide, he or she is really on the job 24/7 during 
the season that they are working, and a week-long trip now 
becomes prohibitively expensive. In fact, I have talked to many 
college students who used to have great jobs working in the 
summer as an outfitter or a guide or working with an outfitter 
or a guide who now work in a Burger King, because the outfitter 
or guide can't hire them anymore because of the overtime rule.
    Does the Department have any plans to review and propose 
changes to this regulation that has been promoted?
    Secretary Acosta. So I am not certain what your question 
is. Let me ask answer both possibilities that I think it may 
be.
    So we do have plans to look at the overtime as a general 
manner, the overtime rule, as I mentioned at my confirmation 
hearing. I think that any rule that has a dollar amount that 
isn't updated for as long as this has been is a problem, 
because life gets a lot more expensive. But I also think that 
the way it was done created a shock to the system. And the 
Department is in the process of drafting a request for 
information that I think will be filed probably in the next 2 
to 3 weeks asking for public information and public comment on 
the overtime rule.
    With respect to the more narrow question of how this 
applies to public lands, that is something that I would have to 
look into more carefully, and that certainly may be part of 
that request for information.
    Mr. Simpson. There are people who believe that the Forest 
Service, as an example, shouldn't have to comply with this, 
because they are just getting a permit to operate on public 
lands, so they don't qualify as a contractor. But the Forest 
Service feels that they have to comply with this. So that is a 
question that needs to be resolved.

                       CONSOLIDATING DOL PROGRAMS

    Secondly, when you are talking about jobs and consolidating 
programs and finding those that work and stuff, we have talked 
about this on this panel, I suspect there are, in different 
areas in different States, different programs work differently. 
And some are successful in one area, where they might not be in 
another.
    I will tell you one that works very well in Idaho. I had 
the opportunity to visit a few weeks ago the Community Council 
of Idaho's YouthBuild Program. It does incredible work with 
young people that they are working with, giving them the skills 
for the future. And so I hope you would work with this 
committee as you look at trying to make these programs as cost 
effective as possible.

                     IMPROVING THE EEOICPA PROGRAM

    Lastly, I need to ask a question for Congressman 
Fleischmann, who was ill today and couldn't be here, and he 
asked me to ask this. It says: ``I strongly support a 
Department of Labor program that partially compensates workers 
who contracted serious illnesses from harmful substances and 
radiation exposure as a direct result of their national 
security work. The government, nor its workers who were 
diagnosed with radiation-related cancers, chronic beryllium 
disease, and other life-threatening diseases did not fully 
understand the risk of their weapons-related work during World 
War II and the Cold War. While major improvements were made 
last year to implement the Energy Employees Occupational 
Illness Compensation Program, more needs to be done.''
    He has two requests. ``Will you personally review this 
program to understand its importance along with examining the 
two recent sets of recommendations by the Advisory Board?''
    Secretary Acosta. Yes.
    Mr. Simpson. And secondly, in addition, will you encourage 
your staff to meet with his staff to work on these issues? We 
work closely with workers in our districts--actually in my 
district also--and need a good relationship with your 
Department.
    Secretary Acosta. I see no problem with that, absolutely.
    Mr. Simpson. Okay. Thank you.

              OFCCP COMPLIANCE ASSISTANCE AND ENFORCEMENT

    Since I have got 51 seconds, and I won't go to 7 seconds, 
the Department of Labor's Office of Federal Contract Compliance 
Programs is tasked with the mission of protecting Federal 
contractors and subcontractors by promoting diversity in 
enforcement of the law. In some instances there be 
opportunities for the OFCCP to partner with industries and 
companies who are already working to create equitable and 
inclusive workplaces.
    How can the Federal Government be a better industry partner 
to create these equitable workplaces, share best practices, and 
work with contractor communities to further programs? In fact, 
we put language in our last bill that was Senate language 
relative to that issue.
    Secretary Acosta. Congressman, so as a general matter, I 
think compliance assistance alongside enforcement is very 
important, and part of compliance assistance certainly is 
highlighting best practices. I am happy to take that point 
back, and I believe they are already doing that, but I am happy 
to take that point back and reemphasize it.
    Mr. Simpson. Thank you.
    Mr. Cole. I am inclined to be gentle with my friend because 
of his announcement, but for the record, you went to 9 seconds, 
and that is just not a big help.
    Mr. Simpson. I was trying to follow your instructions.
    Mr. Cole. Yeah. Okay.
    Now to my good friend, the distinguished gentlelady from 
Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman.
    And thank you, Secretary Acosta, for being with us today.

                  RESPONSES TO CONGRESSIONAL INQUIRIES

    I want to go back briefly, there has been some mention of 
the H-2B visa program, certainly a problem seasonally in New 
England as we go forward. But, specifically, on February 17 I 
sent you a letter regarding this program with 32 of my 
colleagues, all of whom happen to be Democrats.
    Last week it was reported that agencies have been 
instructed by the administration not to respond to letters from 
Democrats requesting oversight-related information. So my 
question is, is that why I have not had a response?
    Secretary Acosta. Congresswoman, I, you know, knowing that 
I was going to come before you all, I checked last week to see 
if we had responded to the letters that were submitted. And as 
of yesterday I am told that we have responded to all letters 
from all members of the subcommittee and the committee, the 
larger committee.
    And so I will--I see my staff writing furiously behind me. 
So we will check to see where that letter is. I believe it--I 
believe it has already gone out. But what we will do is we 
will, if it has not, we will get back and we will get you a 
copy of it as soon as possible.
    Ms. Clark. Okay. So the good news is my response may be on 
the way?
    Secretary Acosta. That is the good news.
    Ms. Clark. And is the better news that that report that you 
have been instructed not to respond to Democrats is a false 
report?
    Secretary Acosta. So I am not going to comment on reports, 
but I will say that we have responded to the members of this 
committee, and both the subcommittee and the full committee, 
and we are in the process of responding to the letters we have 
received.
    Ms. Clark. Were you ever told by the administration not to 
respond to Democrats.
    Secretary Acosta. I have not been told by the 
administration.

                        H-2B VISAS AT MAR-A-LAGO

    Ms. Clark. So I will look forward to my response. But in 
the meantime, I did want to ask you about that letter while I 
have you here. And one of our concerns was the H-2B visa 
program as it specifically applies to the 64 visas that are 
held at Mar-a-Lago.
    We have an unprecedented situation where the President has 
spent almost 40 percent--almost 30 percent of his time as 
President visiting one of his private businesses and has stayed 
almost 20 percent of his time as President at Mar-a-Lago where 
there are these H-2B visas.
    Given the security implications of having a President 
present, are you relooking at the issuance of visas for what 
the President deems his winter White House?
    Secretary Acosta. Congresswoman, I am sorry, I don't mean 
to be difficult. Are you saying are we treating any particular 
business differently because of the ownership of that business? 
Is that the question?
    Ms. Clark. I guess that is the question, because we are 
sort of in uncharted territories. I mean, would you consider--I 
would assume normally your answer would be no--but since it is 
now the President of the United States, with all the security 
issues that are raised, would you consider relooking at--these 
visas where issued before he took office.
    Would that be a particular concern where we now have a 
President of the United States sitting in a--staying at a 
private business entity with these visas? Do you see any 
national security concerns being raised?
    Secretary Acosta. So what the Department of Labor does is 
the Department of Labor does a wage certification with respect 
to any particular visa and sends it over to the Department of 
Homeland Security. Whatever security concerns may or may not 
exist I think should be addressed by the Department of Homeland 
Security.
    As to the Department of Labor, I think we need to process 
visas without picking and choosing which business we give 
preferential treatment to. And our job, which is a labor 
certification, is something that we should do and we do do 
expeditiously.
    Ms. Clark. And that certification says that there are no 
Americans that could fill those jobs. Is that the certification 
for H-2B, not enough workers who are able, willing, qualified, 
and available to do the work? Is that the process?
    Secretary Acosta. So the labor certification looks at the 
wage levels and does look at whether or not there are, 
depending on the program, in some cases, whether there are 
available workers in other programs. There is no requirement as 
to work availability, it depends on the type of visa. And so 
what the Department of Labor does, the Department of Labor 
processes it in its usual course irrespective of what business 
that would be, and I think that is the right approach.
    Ms. Clark. Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    And before we go to my good friend the gentlelady, the 
ranking member of the full committee, I just want to--number 
one, I want to tell you, I listened very carefully to the 
response you gave Representative Clark and appreciate it. I was 
very reassured about that in terms of your being forthcoming 
and responsive to inquiries.
    But just for the record, certainly the chairman, I think 
every member of this committee would be very upset if we ever 
saw some sort of systematic attempt to not respond to 
congressional inquiries on the basis of partisanship. And I 
thank you for making it clear that you do not. And I would 
hope--and expect, quite frankly--that other members of the 
administration would operate in the same forthright manner. So 
thank you for clearing that up.
    With that, let me go to my good friend, the ranking member 
of the full committee. The demands that the chairman and the 
ranking member have are extraordinary, so obviously she has 
whatever time she needs to make whatever statement she cares to 
and then to ask whatever questions she needs to.
    Mrs. Lowey. You are very gracious. And I do apologize for 
being late, but there are several hearings at the same time.
    And I think I will get right to the questions because I 
know that my colleagues have additional questions. So thank you 
for appearing before us.

              READY TO WORK PROGRAM (H-1B TRAINING GRANTS)

    I would like to begin by talking about the Ready to Work 
program. It is an impressive partnership that is a novel worker 
training initiative. It was created by the Obama 
administration. And it used funds from H-1B visa applications 
to finance job training for the long-term unemployed.
    Ready to Work does identify open jobs in a community and 
trains Americans to fill those jobs. My district fortunately 
received a $9,800,000 Ready to Work grant to fund a local 
program, Jobs Waiting. It is designed to provide 425 
individuals with intensive training for jobs in the healthcare 
and IT sectors.
    To date, 350 Hudson Valley employers are involved across a 
seven-county region, 152 participants have been hired for new 
jobs. Many more have gone on to additional trainings for 
specific skills. Job Waiting is set to exceed its initial 
enrollment goal by the end of June, more than 16 months early.
    For many participants, this training has been life 
changing, and it is an excellent example of the good that can 
come from leveraging federal investments in the local economy.
    Can you share with us the administration's plans for Ready 
to Work? Will you commit to using funding to support this 
initiative?
    Secretary Acosta. Congresswoman, thank you for the 
question.
    H-1B training grants, as a general rule, I think, target 
particular areas where, you know, we are bringing folks in 
because we are seeing there aren't enough Americans that hold 
those jobs. So alongside that we should work to find and 
prepare Americans to hold those jobs. A should follow B.
    And I can't talk with specificity as to that particular 
program in your district, but from what you are saying it 
sounds like a good program and a productive program, and one of 
the things that as we are looking at H-1B issues we would want 
to keep in the forefront, because ultimately if we are saying 
there aren't enough folks to fill particular needs, let's also 
try to find Americans that can be educated to fill those 
positions. That to me seems very logical.
    Mrs. Lowey. I am with you.

                        APPRENTICESHIP PROGRAMS

    Let me get on to something that I think is relevant, 
apprenticeships. It really does offer a ticket to the middle 
class. And research shows that 91 percent of those who complete 
apprenticeship programs find employment with average wages 
above $60,000. However, women are significantly 
underrepresented. And while women make up nearly half of the 
labor force in 2015, they comprise less than 10 percent of 
registered apprenticeships. And strangely enough, this 
statistic has not budged for the past 20 years.
    This committee helped create an apprenticeship grant 
program in 2016, increased funding in the fiscal year 2017 
omnibus. And the explanatory statement accompanying the omnibus 
included language that directs the Department to prioritize 
grant applications that recruit and serve women and 
underrepresented populations. Your budget proposal cuts 
apprenticeships, and the budget justification does not propose 
targeted funding to reach underrepresented populations.
    I would be interested to know how you arrived at a 
$5,000,000 cut. Maybe people working with you didn't explain 
how successful this program is. What research was done to 
explain this cut? And why should the American people pay for an 
unnecessary border wall while cutting funding for worker 
training and apprenticeship programs?
    Secretary Acosta. Congresswoman, thank you for those 
questions.
    First, as I referenced earlier, there is a confusion 
because there are sort of multiple base lines because of the 
budget process. But fiscal year 2018 has apprenticeships at 
$90,000,000, which is the same level as the 2017 continuing 
resolution. So from that perspective, I believe there is no 
cut.

            UNDERREPRESENTATION OF WOMEN IN APPRENTICESHIPS

    Let me address the broader issue that you raised because I 
think it is important. Women are underrepresented in 
apprenticeships, and I think that is important to address. In 
part, it is because currently many of the apprenticeship 
programs are in the building trades and women as a whole are 
underrepresented in the building trades.
    From my perspective, I think it is important to broaden 
apprenticeships far beyond the building trades to many other 
areas and professions. Just this morning I was saying, if you 
can see apprenticeships sort of from a big picture--you know, a 
physician is an apprenticeship. They get education and they get 
on-the-hands training and they are a resident. And so you could 
rename a resident an apprentice, right?
    And so I think it is important to reconceive 
apprenticeships broadly, because I think that would be good for 
industry, but that will also bring more women into the 
apprenticeship program. I also think it is important that 
existing apprenticeship programs focus on being accessible to 
diverse populations, both women and underserved populations, 
and we should be doing that within existing programs already.
    Mrs. Lowey. Well, I just want to say that this is such an 
important program, and it is very disappointing to me an as we 
are beginning to approach our focus on the 2018--I think the 
administration has called it the skinny budget--and there are 
30 days left before the end of this cycle, before August. So I 
do hope that you and your staff are really focusing on programs 
such as the apprenticeship program, which has been so 
invaluable, and not accept any proposed cuts in that program. 
In fact, we should really expand it.
    And I want to thank you, Mr. Chairman, for your 
graciousness. I am sorry, I was at another hearing. Thank you.
    Mr. Cole. Well, actually, we are sorry you were at another 
hearing. We always like you at this hearing.
    Well, since we are still in the first round, the gentlelady 
from Alabama has just arrived, and so I want to recognize her 
as next up.
    Mrs. Roby. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.

                   OSHA VOLUNTARY PROTECTION PROGRAM

    As you know, one of the most important functions of your 
Department is to ensure compliance with laws and regulations 
meant to keep the workplace safe. There are a lot of inherently 
dangerous jobs out there, and we need sensible rules to keep 
workers safe.
    The Occupational Health and Safety Administration, or OSHA, 
has broad authority when it comes to enforcing workplace rules. 
But for the last several years, industries in States like 
Alabama have felt targeted because of our Right to Work status. 
I hope you will agree with me that advancing a political agenda 
has no place in enforcing workplace compliance.
    I strongly support OSHA's Voluntary Protection Program, or 
VPP, which focuses on partnering with companies to bring them 
into compliance rather than targeting them with aggressive 
punitive penalties. I was happy to see in your budget request 
that OSHA will, quote, ``continue to recognize VPP sites and 
will continue to prioritize this activity in fiscal year 2017 
and fiscal year 2018.''
    Additionally, your budget request asked for an increase in 
resources for compliance assistance to increase both the number 
of outreach and compliance assistance activities and the number 
of participants in its signature cooperative programs, such as 
VPP.
    I have actually worked on legislation for a number of years 
to make the VPP program permanent. It just makes sense to help 
companies become compliant with workplace safety rules on the 
front end, to avoid costly fines and harmful penalties on the 
back end, unless, of course, your whole goal is to penalize 
businesses, which I suspect it is not.
    So, Mr. Secretary, can you please speak to your views on 
this issue? And will your Department prioritize its policy and 
funding toward partnerships and not penalties?
    Secretary Acosta. Congresswoman, thank you for the 
question.
    As a general matter, I think it is important that 
enforcement have both an enforcement component and a compliance 
assistance component.
    The VPP program is particularly successful. I have talked 
with Department staff about it, and they think it is quite 
helpful because it really partners with industry and leverages 
industry staff so that industry staff supports OSHA's work in 
bringing places up to compliance and then certifying that they 
are in compliance. And, in fact, the budget calls for an 
increase in the VPP program. That is something that this 
administration strongly supports, and that would be a positive 
from, I think, just about everyone's perspective.
    Mrs. Roby. I appreciate that, Mr. Secretary. And please 
know that I want to be a partner to help you broaden your 
Department's outreach compliance assistance activities in 
support to small businesses and employees in all types of works 
with compliance issues.
    So thank you, Mr. Chairman.
    And I appreciate, again, you being here today. Thank you so 
much.
    I yield back.
    Mr. Cole. I thank the gentlelady.
    And in the interest of time, if I can, I am going to move 
to like 2 minutes apiece so we have an opportunity to get more 
people in. And I will go first.

                      IMPROVING WORKFORCE MOBILITY

    We have had some discussion today, Mr. Secretary, about the 
skills gap, and I appreciate you focusing on that. As we all 
know, part of the problem is not just a training problem, quite 
often it is a location problem. We have people literally that 
are caught in inner cities or caught in depressed rural areas 
or Indian reservations where literally you can train them but 
the jobs that they need probably aren't going to be there.
    I am just curious as to what efforts can be made in 
addition to the training, in your view, to try and, if you 
will, match people with available jobs. It may sometimes 
require them to move. Those are tough personal decisions, given 
family considerations and those sorts of things, but sometimes, 
again, getting the training, there is not enough. So do we do 
anything or should we do anything that would actually make it--
facilitate a move for somebody if there is a job at the other 
end of it?
    Secretary Acosta. Well, Mr. Chairman, you raised an 
important issue because the workforce has become a bit less--
you know, I have seen information, I don't want to attest to 
its accuracy, but I have seen information that the workforce is 
a bit less mobile.
    This morning before this hearing I was at a breakfast and I 
was talking with some businesses that are engaged in 
apprenticeships. And one of the issues that we are talking 
about is now that we have online--increasing use of online 
education, is there a possibility that apprenticeships can 
start with some kind of online education so that individuals 
know if they move, they have a job. In other words, if you 
complete A, B, and C, and you then move, you have a job waiting 
for you.
    Because it is, I think, unrealistic to expect people to 
move in the hopes of a job, and it is hard for them to have a 
job in another locality without actually physically being 
there. So apprenticeships may provide, through the online 
education system, a mechanism for doing that.
    Mr. Cole. Well, thank you very much on that. And we would 
look forward to working with you on that kind of issue. I think 
it is an important thing to think through.
    With that, I want to go to the ranking member of the full 
committee for 2 minutes--oh, I am sorry, I misunderstood. So we 
will go to the ranking member of the subcommittee.
    Ms. DeLauro. Thank you very much, Mr. Chairman.

                        MERGING OFCCP WITH EEOC

    Mr. Secretary, the budget proposes to eliminate the Office 
of Federal Contract Compliance Programs, merging it with the 
Equal Employment Opportunity Commission, EEOC, which I said at 
the outset I am opposed to.
    OFCCP has an important mission. It ensures that taxpayer 
dollars do not support discriminatory employment practices. It 
ensures that Federal contractors are held to a higher standard 
in their hiring practices, given that contractors are funded 
with taxpayer dollars.
    I know you understand this because I have here, as when you 
were chair of the ABA's Hispanic Commission, you are familiar 
with the barriers that minorities and women encounter in the 
workplace and you have spoken eloquently about those issues.
    EEOC, on the other hand, responds to individual complaints 
of employment discrimination. There is now a backlog of 70,000 
cases. Adding the duties of the OFCCP, cutting its budget by 
$17,000,000, flat funding the EEOC, only exacerbates EEOC's 
backlog while eroding nondiscrimination in the Federal 
contractor workforce.

                    REDRAFTING EXECUTIVE ORDER 11246

    OFCCP enforces Executive Order 11246, prohibit employment 
discrimination on the basis of race, religion, color, sex, 
national origin, sexual orientation, gender identity. It 
ensures that employees can't be punished for discussing pay 
levels, which is important because many women and minorities 
aren't even aware that they are being paid less for doing the 
same.
    Now, the budget request calls for a redrafted Executive 
Order 11246. Know where that order is, whether or not it is 
being redrafted?
    But the questions that come to me from that: Are you 
planning to allow Federal contractors to discriminate in their 
hiring, using taxpayer dollars based on race or sex, religion? 
What about sexual orientation and gender identity? Are you 
going to remove or revise the requirement that Federal 
contractors take proactive steps to promote diversity and 
workplace fairness? Are you going to remove or revise 
protections for workers who discuss their pay with colleagues?
    Tell me what a redrafted Executive Order 11246 is going to 
include.
    Secretary Acosta. So, Congresswoman, there are multiple 
questions in there. I cannot predict what a redrafted order 
that I haven't seen a draft of, if there is, in fact, a draft, 
would include. But what I can tell you is, from my knowledge of 
the policy, the answer--the short answer to your question is 
no.
    Ms. DeLauro. Okay. I understand that and you said something 
about that earlier, I guess, to my colleague, Ms. Clark. But, 
Mr. Secretary, you are the Secretary of the Department of 
Labor. That redrafted executive order, if it is----
    Secretary Acosta. Congresswoman, with respect, I think--I 
think I said.
    Ms. DeLauro. Are you going to help to redraft it?
    Secretary Acosta. Congresswoman, with respect, I think I 
said the answer--the short answer to all those questions is no, 
it will not. So I think that----
    Ms. DeLauro. So we have your word----
    Mr. Cole. The gentlelady's time has expired.
    Ms. DeLauro [continuing]. That Federal contractors are not 
going to be able to discriminate based on the issues that are 
out there now.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    I now go to my good friend from Maryland, Mr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman.

                               H-2B VISAS

    I am kind of glad we brought up the issue of the potential 
security problems when Presidents are exposed to H-2B workers 
somewhere. It is kind of interesting.
    Just so you know, Mr. Secretary, and I will follow up with 
the Secret Service, but, you know, the last President in his 
last term played 47.5 rounds of golf per year--this is from 
Golf Digest--306 rounds total for his Presidency. But he 
actually accelerated things the second half.
    And the National Golf Course Owners Association has a place 
on their web page where they say: We really depend on H-2B 
workers because golf in some places is very seasonal. So I will 
follow up with the Secret Service to see if the President, 
while he was spending, roughly--by the way, 47.5 rounds per 
year is about 20 percent of your workday time over the course 
of the year on a golf course.
    I personally would rather have a President spending his 
time at what is deemed the winter White House. But other 
Presidents choose to spend 20 percent of their professional 
time on a golf course. I hope the last President wasn't 
threatening his security because H-2B workers are employed by 
golf courses.

                      OVERTIME RULE AND INFLATION

    Onto probably a more serious matter than whether the 
Presidents are exposing themselves to danger when H-2B workers 
are present. I just want to follow up a little bit about the 
overtime issue because I neglected to ask you your opinion on 
the inflation issue with regards to automatic inflator of that 
overtime threshold, because I don't think statute allows that. 
Does--thank you. I appreciate being allowed to ask questions 
without noise coming from the other side of the dais.
    Do you intend to adhere to statute and allow Congress to 
decide when that threshold should be increased, or could it do 
an automatic inflator? And with that, I yield back awaiting 
your answer.
    Secretary Acosta. Congressman, it is always my intent to 
adhere to statute. You know, again, as I said, it would not be 
appropriate for me to prejudge any future regulation, but it is 
always my intent to adhere to statute.
    Mr. Cole. Thank you, Mr. Secretary.
    With that, we go to the ranking member of the full 
committee.

                       WOMEN IN STEM OCCUPATIONS

    Mrs. Lowey. Well, thank you so much, Mr. Chairman.
    By the way, Dr. Harris, I don't play golf at all, but this 
President owns the golf course, not only in New Jersey, not 
only in the Bronx, but several in Westchester County, and 
certainly Mar-a-Lago. So I will stay away from the golf issue.
    What I would like to ask you is about women in STEM 
programs. By the year 2020, two out of three jobs will require 
education and training beyond high school. Women make up just a 
little over a third of growing middle-skill jobs, Those jobs 
that require less than a bachelor's degree but more than a high 
school diploma. And while STEM jobs are driving economic growth 
and offer jobs with family-sustaining wages, women are only 29 
percent of workers in information technology and they make up 
fewer than 10 percent of workers in advanced manufacturing or 
transportation, distribution and logistic occupations.
    So I really want to work with you to make sure that women 
have the access to these jobs of the future. But your budget 
cuts the core workforce development programs by a staggering 40 
percent. And given the magnitude of these cuts, how can the 
administration meet the needs of the workforce? And what impact 
would your budget have on women trying to gain the skills 
necessary for these middle-skill jobs?
    Secretary Acosta. So, Congresswoman, I was smiling when you 
started your question because it brought up a really nice 
memory. In our family we have something called Science Sunday. 
I have two wonderful little girls, and every Sunday we do 
something around science. So we started at ages 5 and 7 with an 
earthworm and proceeded all the way up to a frog dissection.
    And I do that because I think from really young it is 
important to expose them to science, because along the way I 
think society will push back, and I want to develop that as 
much as I can, as early as I can. And so it is something I am 
very personally committed to, and I think it is very important.
    The budget makes very hard choices, and the budget makes 
choices that are tradeoffs. And within those choices we are 
going to work, and we are going to work hard, to address the 
needs that you raise because they matter. And I should say, 
that is not just within the workforce, but that is starting at 
an early age, starting when someone is 5 years old, because 
that is when you really, really get them interested in these 
issues.
    And so I am with you. I agree with you. And that is 
something that we will do.
    Mrs. Lowey. Well, I appreciate that, and I also agree with 
you that it is starts early, because I visit schools all 
throughout my district on a regular basis, as I know many of us 
do, and I always ask the class about the science programs. And 
so much depends on the teacher. Not everyone is fortunate 
enough to have you as a dad.
    So supporting these programs, making sure we are supporting 
our schools in science training, in apprenticeship programs, 
all the issues we talk about, are important. So we don't really 
have to make those cuts, we can look very carefully, and I know 
we will work together with our chairman to prevent cuts in 
really important programs that we fund in this committee.
    Thank you.
    Mr. Cole. I thank the gentlelady.
    I think if everybody can stick to 2 minutes, everybody is 
going to get a second question. I think Ms. Clark would be the 
most grateful member here for that.
    Mr. Secretary, you will have a quick version of the 
political equivalent of Murderers Row, but they are 
professional and polite.
    With that, I am going to go with Ms. Roybal-Allard.

                           OFCCP ENFORCEMENT

    Ms. Roybal-Allard. Mr. Secretary, I want to go back to the 
question as to whether or not government contractors should be 
able to use forced arbitration clauses. I am concerned that 
allowing forced arbitration to continue as the President has 
done will conceal corporate cultures where sexual harassment, 
sexual assault, and discrimination may be rampant. What happens 
is when corporations are legally able to keep sex 
discrimination claims out of the courts and off the public 
record protections for victims are often weakened.
    In the absence of the Fair Pay and Safe Workplaces orders, 
what are your plans to protect victims of sexual harassment, 
sexual assault, and discrimination from retaliation by their 
employers?
    Secretary Acosta. So, Congresswoman, first, I think there 
are a few parts to that question.
    First, with respect to arbitration, I believe that it is 
Federal policy to favor arbitration as a general matter because 
arbitration results in fast resolution of issues, and that is a 
policy that has been in place for a number of years throughout 
administrations.
    Secondly, as to the Department of Labor-specific plans, we 
will enforce the laws and we will enforce them fully. OFCCP 
certainly has authority around gender issues and enforcement. 
There is also, beyond the Department of Labor, enforcement 
authority within contracting, disbarment is certainly an option 
for employers that are bad actors in the contracting process, 
which you referenced.
    And, finally, let me say that above and beyond that, we 
shouldn't necessarily assume that arbitration is going to 
result in bad results, because arbitration does have a long 
history. And, again, as a general matter, it is something that 
this Congress has favored.
    Ms. Roybal-Allard. The issue isn't just arbitration.
    Mr. Cole. The gentlelady----
    Ms. Roybal-Allard. The issue is about forced arbitration.
    Mr. Cole. The gentlelady will hold. I really am serious. I 
want to give everybody a chance that stayed here a long time.
    So with that, I want to go to Ms. Lee.

                          DOL BUDGET PROPOSAL

    Ms. Lee. Okay. Mr. Secretary, let me just say that, once 
again, it appears that most Cabinet members are okay with these 
huge cuts, including yourself, which, again, I have to refer to 
Steve Bannon's notion that you all are really deconstructing 
the administrative state. This budget shows that. A 16 percent 
cut is outrageous.
    Here now you are trying to merge the Equal Opportunity 
Commission, the EEOC, that enforces discrimination laws, with 
the Office of Federal Contract Compliance. And to merge these 
two and to reduce the budget overall, the NAACP and the U.S. 
Chamber of Commerce both oppose this. These entities usually 
don't agree with each other. And so why would you, again, 
reduce--merge these important agencies, given what we know 
about discrimination in America?

                         OFCCP AND EEOC MERGER

    Secretary Acosta. So, Congresswoman, the budget is making, 
as I said before, hard decisions. And as an administration, 
those are decisions that have to be made.
    With respect to the specific question regarding the merger 
of the OFCCP and EEOC, as it proceeds, one of the issues that 
we are going to have to look at--and it is going to require 
separate legislation, because they are agencies that have two 
different functions. They overlap in many ways, but they also 
have separate authorities.
    One proceeds from the contracting authority and is, in 
essence, an auditing agency. The other one is charged with 
antidiscrimination law enforcement and proceeds based on 
complaints. And that is a distinction that is important.
    So while overall there will be cost savings by the merger, 
and the budget shows that it actually doesn't reduce the 
enforcement, it reduces--the cost savings all come from 
streamlining a process by the merging, certainly in that 
process it is going to be important to, when it is legislated, 
if it is legislated, understand that there are different----
    Ms. Lee. So our Department of Labor is going to allow now 
discrimination to run rampant in the workplace in the country 
with Federal contractors, and it is outrageous.
    Secretary Acosta. Congresswoman, with respect, I don't 
think that is the case.
    Ms. Lee. I think it is.
    Mr. Cole. With that, we will move on to Mr. Pocan.
    Mr. Pocan. Great. Thank you, Mr. Chairman.

               WISCONSIN BIG STEP APPRENTICESHIP PROGRAM

    So with your sincere interest in apprenticeships, let me 
extend an invitation to you to come to Wisconsin. There is a 
program in Milwaukee and Madison called BIG STEP, it is part of 
the Wisconsin Regional Training Partnership that takes a lot of 
underserved populations to get them into the trades. They are 
doing a great job, they have been around for over a decade.
    When I was in legislature a decade ago I helped find them 
some funding. I think it could be a national example for you 
and I would love to show that to you. Summer is a good time to 
come to Wisconsin, not winter. I would love to have you there.

             MAINTAINING DOL STANDARDS AND 2018 BUDGET CUTS

    Two quick questions so I don't get into Ms. Clark's time. 
One, just would ask just to see if you could make sure that we 
can commit to defend and maintain and implement the silica 
standard to protect people from exposure to silica.
    Second is just a concern in the budget about the cuts to 
the Bureau of International Labor Affairs and the grants for 
that department being eliminated. It seems like from 
conversations that the President has had he understands the 
connection to working standards overseas, what they mean to 
labor and trade agreements here. But those cuts, I think, could 
be detrimental.
    I would just like to have you answer those two questions.
    Secretary Acosta. Certainly. Let me first respond with 
respect to the silica. I believe that the enforcement on that 
has been delayed until September 23 to allow for compliance for 
general industry and maritime, but I think that that is 
proceeding.
    And I apologize, I got distracted with respect to the 
second part to your question.
    Mr. Pocan. On the ILAB funding, the cuts.
    Secretary Acosta. Yes. So with respect to the ILAB funding, 
the cuts that are being--that are within the budget are focused 
almost entirely on foreign grants. And so it would not reduce 
the enforcement part of ILAB that focuses on trade enforcement. 
The cuts focus on the grants that are given to foreign 
governments, to assist foreign governments in compliance and to 
sort of act as training for foreign governments. With respect 
to the enforcement part of ILAB, that would virtually remain 
unchanged.
    And happy to go to Wisconsin.
    Mr. Cole. For the last questions of the day, Ms. Clark from 
Massachusetts.

                    MAINTAINING OFCCP CORE FUNCTIONS

    Ms. Clark. Thank you, Chairman. I want to go back also to 
the OFCCP and putting this together. I think the real concern 
is that the EEOC responds to complaints that are made and the 
OFCCP proactively audits companies to make sure that they are 
complying with discrimination.
    In the priorities that you have set forth, you have 
specifically said that the OFCCP will continue to focus on pay 
discrimination. There is no mention of discrimination based on 
race, religion, gender, sexual orientation, gender identity, or 
national origin. Is the Department of Labor still asking the 
OFCCP to do that work?
    Secretary Acosta. So, A, absolutely. Are you referring to 
the priorities set forth in--which document are you referring 
to? Because the answer is absolutely.
    Ms. Clark. Okay.
    Secretary Acosta. So the second point that I would make is 
the two agencies are different in nature. And the point that I 
was making when your earlier colleague asked her question is 
that any merger necessarily should, in fact, take into account 
that one is, in essence, an auditing agency and the other is, 
in essence, a complaint-based agency. And, therefore, while 
there is overlapping purpose, there are different mechanisms 
for enforcement and investigation, and that is an important 
distinction.
    Ms. Clark. I understand your testimony. Those will both be 
preserved, the proactive auditing and the complaint response 
that we currently have. Is that correct?
    Secretary Acosta. Yes.
    Ms. Clark. Yes. Okay.
    So just a quick example. In April, OFCCP reached a 
$1,700,000 settlement with Palantir Technologies over 
allegations of anti-Asian-people hiring practices and 
discrimination. Is that the type of proactive case you will 
continue to pursue, even when putting these two together?
    Secretary Acosta. So, Congresswoman, I am not familiar with 
that example. But, again, my understanding of the proposal is 
that it is a streamlining proposal and not a change-of-nature 
proposal, and that is something that will have to be addressed 
when there is legislation that unifies these.

                            Closing Remarks

    The Chairman. I thank the gentlelady.
    Mr. Secretary, thank you very much for being with us today. 
It was a very informative, complete, and thorough hearing. We 
appreciate your forthcoming manner and the cooperative style 
you displayed, and we look forward to working with you as we go 
forward.
    With that, the hearing is adjourned.
    Secretary Acosta. Thank you.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
   
    
</pre></body></html>
